<html>
<title> - WILDLIFE CONSERVATION LEGISLATION</title>
<body><pre>[Senate Hearing 105-840]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 105-840


 
                   WILDLIFE CONSERVATION LEGISLATION

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                               __________

                              JULY 7, 1998

                               __________


                      S. 263, BEAR PROTECTION ACT

              S. 361, RHINO AND TIGER PRODUCT LABELING ACT

            H.R. 2807, RHINO AND TIGER PRODUCT LABELING ACT

  H.R. 3113, RHINOCEROS AND TIGER CONSERVATION REAUTHORIZATION ACT OF 
                                  1998

     S. 659, GREAT LAKES FISH AND WILDLIFE RESTORATION ACT OF 1997

      S. 1970, NEOTROPICAL MIGRATORY BIRD CONSERVATION ACT OF 1998

       S. 2094, FISH AND WILDLIFE REVENUE ENHANCEMENT ACT OF 1998

S. 2244, NATIONAL WILDLIFE REFUGE SYSTEM VOLUNTEER AND PARTNERSHIP ACT 
                                OF 1998

  Printed for the use of the Committee on Environment and Public Works



                    U.S. GOVERNMENT PRINTING OFFICE                    
52-302cc                     WASHINGTON : 1998


_______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington DC 
                                 20402



               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                 JOHN H. CHAFEE, Rhode Island, Chairman
JOHN W. WARNER, Virginia             MAX BAUCUS, Montana
ROBERT SMITH, New Hampshire          DANIEL PATRICK MOYNIHAN, New York
DIRK KEMPTHORNE, Idaho               FRANK R. LAUTENBERG, New Jersey
JAMES M. INHOFE, Oklahoma            HARRY REID, Nevada
CRAIG THOMAS, Wyoming                BOB GRAHAM, Florida
CHRISTOPHER S. BOND, Missouri        JOSEPH I. LIEBERMAN, Connecticut
TIM HUTCHINSON, Arkansas             BARBARA BOXER, California
WAYNE ALLARD, Colorado               RON WYDEN, Oregon
JEFF SESSIONS, Alabama
                     Jimmie Powell, Staff Director
               J. Thomas Sliter, Minority Staff Director

                                  (ii)




                            C O N T E N T S

                              ----------                              

                              JULY 7, 1998

                                                                   Page

                           OPENING STATEMENTS

Allard, Hon. Wayne, U.S. Senator from the State of Colorado......     4
Baucus, Hon. Max, U.S. Senator from the State of Montana.........     3
Chafee, Hon. John H., U.S. Senator from the State of Rhode Island     1
Graham, Hon. Bob, U.S. Senator from the State of Florida.........    25
Kempthorne, Hon. Dirk, U.S. Senator from the State of Idaho......     6
    Letter from Stephen P. Mealey, director, Idaho Fish & Game...     7
    List, International Investments for Migratory Bird 
      Conservation...............................................     8
Lautenberg, Hon. Frank, U.S. Senator from the State of New Jersey    25
Moynihan, Hon. Daniel Patrick, U.S. Senator from the State of New 
  York...........................................................    24

                               WITNESSES

Crane, Thomas, program manager, Great Lakes Commission...........    45
    Prepared statement...........................................   109
Hemley, Ginette, Vice President for Species Conservation, World 
  Wildlife Fund..................................................    33
    Prepared statement...........................................    66
    Report, While Supplies Last, The Sale of Tiger and Other 
      Endangered Species Medicines in North America, TRAFFIC 
      North America..............................................    73
Krival, Molly, past president, ``Ding'' Darling Wildlife Society.    41
    Prepared statement...........................................   105
Pacelle, Wayne, senior vice president, the Humane Society of the 
  United States..................................................    35
    Prepared statement...........................................    94
Rogers, Hon. John, Deputy Director, U.S. Fish and Wildlife 
  Service........................................................    26
    Prepared statement...........................................    54
Vehrs, Kristin, deputy director, American Zoo and Aquarium 
  Association....................................................    38
    Prepared statement...........................................   101
Taylor, Gary, legislative director, International Association of 
  Fish and Wildlife Agencies.....................................    43
    Prepared statement...........................................   106

                          ADDITIONAL MATERIAL

Statements:
    Abraham, Hon. Spencer, U.S. Senator from the State of 
      Michigan...................................................    49
    Beard, Dan, senior vice president, National Audubon Society..   112
    Daschle, Hon. Thomas A., U.S. Senator from the State of South 
      Dakota.....................................................    48
    Glenn, Hon. John, U.S. Senator from the State of Ohio........    48
    McConnell, Hon. Mitch, U.S. Senator from the Commonwealth of 
      Kentucky...................................................    50
    Mills, David R., chairman of the Board of County 
      Commissioners of Sarasota County, FL.......................   113
Texts of bills:
    S. 263, Bear Protection Act..................................   116
    S. 361, Rhino and Tiger Product Labeling Act.................   122
    H.R. 2807, Rhino and Tiger Product Labeling Act..............   144
    H.R. 3113, Rhinoceros and Tiger Conservation Reauthorization 
      Act........................................................   151
    S. 659, Great Lakes Fish and Wildlife Restoration Act........   153
    S. 1970, Neotropical Migratory Bird Conservation Act.........   126
    S. 2094, Fish and Wildlife Revenue Enhancement Act...........   139
    S. 2244, National Wildlife Refuge System Volunteer and 
      Partnership Enhancement Act................................   166



                   WILDLIFE CONSERVATION LEGISLATION

                              ----------                              


                         TUESDAY, JULY 7, 1998


                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9 a.m. in room 
406, Senate Dirksen Building, Hon. John H. Chafee (chairman of 
the committee) presiding.
    Present: Senators Chafee, Allard, and Baucus.

           OPENING STATEMENT OF HON. JOHN H. CHAFEE, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Chafee. The committee will come to order.
    Good morning. We have a full order of business before us 
today. We will hear testimony on eight bills relating to the 
conservation of fish and wildlife. While all the bills seek to 
further conservation efforts here in the United States and 
abroad, they do so through a variety of mechanisms including 
financial, administrative, scientific, and enforcement 
programs.
    There is a broad spectrum of views on these bills. Some 
range from avid enthusiasm and support to stiff opposition. And 
the witnesses for today's hearings will cover this spectrum. 
Most of the witnesses will speak on several bills, given that 
their expertise covers different bills or related topics. I 
hope that the witnesses will also provide recommendations for 
changes that they believe will improve the bills.
    With the array of bills before us, I'm just going to spend 
a minute summarizing each of them. Now, I note that our order 
isn't the same as listed here on the sheet before us that the 
committee has, but this is the way they are going to come up, 
is my understanding.
    The first is S. 2094, the Fish and Wildlife Revenue 
Enhancement Act of 1998, introduced by Senator Allard. I am a 
cosponsor of that as are several others. This bill would 
authorize revenues from the sale of items derived from fish and 
wildlife to go to the Fish and Wildlife Service rather than 
into the general treasury. It would also allow the Fish and 
Wildlife Service to use the revenues to cover the cost of 
shipping, storing, and disposing of these items, which include: 
loans to schools, museums, zoos, and Native Americans for 
educational and religious purposes. The bill would not change 
existing law which prohibits the sale of items made from 
threatened or endangered species, marine mammals, or migratory 
birds.
    The second bill, S. 2244, the National Wildlife Refuge 
System Volunteer and Partnership Enhancement Act of 1998, was 
introduced by me and cosponsored by 14 of my colleagues. This 
bill promotes volunteer activities, individual donations, 
partnership programs, and education programs connected with the 
National Wildlife Refuge System. The Refuge System has a long 
history of relying on volunteers, with about 25,000 volunteers 
currently performing 20 percent of all the work done on the 
Refuge System.
    The third topic relates to protection of rhinos and tigers. 
There are three bills pending before the committee, two 
entitled the Rhino and Tiger Product Labeling Act, S. 361 and 
H.R. 2807, and one, H.R. 3113, to reauthorize the Rhinoceros 
and Tiger Conservation Act of 1994.
    S. 361 was introduced by Senator Jeffords, and that would 
amend the Endangered Species Act to prohibit the import and 
export of any product labelled as containing species listed as 
endangered under the Endangered Species Act or listed in 
Appendix I of CITES. Senator Jeffords has expressed a desire to 
conform his bill to the House bill, which is H.R. 2807. This 
bill would amend the Rhino and Tiger Conservation Act rather 
than the Endangered Species Act to prohibit the sale, import, 
and export of products intended for human consumption and 
claiming to contain rhino or tiger parts. In addition, H.R. 
2807 would provide for civil and criminal penalties for any 
person violating this prohibition, and for authority for 
forfeitures of prohibited products.
    H.R. 3113 would reauthorize the Rhinoceros and Tiger 
Conservation Act of 1994 through 2004 at the current level of 
$10 million a year. The current authorization expires in the 
year 2000.
    The fourth topic is S. 263, the Bear Protection Act, 
introduced by Senator McConnell and cosponsored by 52 Senators. 
This would prohibit imports and exports of bear viscera and 
products that contain or claim to contain bear viscera. It 
would also prohibit the sale and purchase or transportation in 
interstate commerce of such products or viscera.
    The fifth topic is S. 1970, the Neotropical Migratory Bird 
Conservation Act of 1998, introduced by Senator Abraham. This 
would require the Secretary of Interior to establish a program 
to provide financial assistance for projects to promote the 
conservation of neotropical migratory birds in Latin America 
and the Caribbean. Federal funds would not exceed 33 percent. 
At least 50 percent of the non-Federal share would have to be 
in cash.
    The last bill is S. 659, the Great Lakes Fish and Wildlife 
Restoration Act of 1997, introduced by Senator Glenn. It would 
provide authority to implement recommendations of the Great 
Lakes Fishery Restoration and Study which was a Report to 
Congress. This study was mandated by Congress in 1990 in an 
effort to protect and restore the Great Lakes ecosystem. The 
bill would establish matching grants, with 25 percent of the 
cost of a project to be paid by non-Federal sources.
    We have three panels. The first panel will be Deputy 
Director of Fish and Wildlife, Mr. Rogers, who will speak on 
all the bills. The second panel will be three conservation 
organizations who will speak to bear protection, rhino and 
tiger bills, and the revenue enhancement bill. The third panel 
consists of witnesses who have a special interest in one or 
more of the bills, including the Bear Protection Act, the 
Refuge Volunteers bill, and the Great Lakes bills.
    We also have written testimony from Senator Abraham on his 
bill, and from Senator McConnell and Senator Glenn on their 
bills.
    So I thank everybody for being here.
    Senator Baucus.
    Senator Baucus. Thanks, Mr. Chairman. Good morning, Mr. 
Chairman, good to see you.
    Senator Chafee. Good morning. You know that America was 
made great by men and women that got up early.
    Senator Baucus. That is true.
    [Laughter.]

  OPENING STATEMENT OF HON. MAX BAUCUS, U.S. SENATOR FROM THE 
                        STATE OF MONTANA

    Senator Baucus. There are many variations on that theme.
    Mr. Chairman, thank you very much for holding this hearing. 
I must say that although the public tends to focus more and the 
press tends to focus more on major bills, like the highway 
bill, Superfund, or the Endangered Species Act, much of the 
work that this committee, as you know, has accomplished is 
through smaller, yet in many ways equally important, bills like 
those that are the subject of today's hearing.
    A common thread that runs through several of these bills is 
partnership--partnerships with volunteers, nonprofit 
organizations, States and various Federal agencies, and other 
organizations. By building on existing legislation, working 
cooperatively with volunteer groups, and providing some seed 
money to get things started in the right direction, these bills 
will help to conserve some of our most endangered fish and 
wildlife species, both here in the United States and abroad.
    And rather than elaborate on the bills, Mr. Chairman, I'd 
like to highlight a bill that I worked on with you and the 
Administration prior to its introduction; that is S. 2244, the 
National Wildlife Refuge System Volunteer and Partnership 
Enhancement Act of 1998.
    The Wildlife Refuge System is a sanctuary for our Nation's 
fish and wildlife, many species of which are threatened or 
endangered. It is a sanctuary for people, too, many of whom 
visit our refuges each year. To ensure that those refuges are 
around for future generations of Americans, we recently enacted 
legislation to guide the management of the National Wildlife 
Refuge System. But even improved management cannot make up for 
lack of money.
    One way to stretch tight Federal dollars is through the use 
of volunteers and partnerships with nonprofit organizations, 
ordinary citizens in Montana and elsewhere who care enough 
about fish and wildlife to contribute their time and their 
expertise to their local refuge. Interest has been expressed 
among local citizens and States like Montana in doing what they 
can to protect our national resources.
    In fact, I might tell you, Mr. Chairman, a few years ago I 
worked with a group of volunteers on the Blackfoot River, a 
group called Blackfoot Challenge. Many of us in Congress have 
district workdays; I had my workday in helping the folks at 
Blackfoot Challenge. People from all around the area, ranchers, 
people in the city, Fish and Wildlife Service personnel, Trout 
Unlimited, all groups that you would think would be a part of 
something like this, we all worked together on a volunteer 
basis to help change the channel of the stream so that bull 
trout could more likely spawn and it would help reduce the 
likelihood that bull trout would later be endangered. It was a 
wonderful effort.
    It was all volunteers. This bill and other bills that are 
up today will help encourage even more of that. In fact, they 
did this work because government agencies weren't doing it. 
There is just too much jurisdictional pride among the various 
agencies they wouldn't give in to the other and work together. 
So local folks locally did it themselves because the agencies 
weren't.
    Bills like this one I think will help to encourage 
volunteers to take a more active role in improving our wildlife 
refuges. This bill would allow the Secretary of Interior to 
work with outside organizations to undertake conservation and 
education projects, very similar to what I was describing. It 
would also authorize the Secretary to develop refuge education 
programs, and provide for staff to help coordinate volunteer 
activities.
    By helping volunteers to work with the United States Fish 
and Wildlife Service to improve our wildlife refuges, this bill 
will not only benefit fish and wildlife, it will also enhance 
the outdoor recreation and education experience for thousands 
of visitors.
    In closing, Mr. Chairman, I think it is a good bill, one 
that deserves our support and I expect it to be passed. After 
today's hearing, I look forward to working with you, Mr. 
Chairman, as well as other members of the committee to address 
any outstanding concerns regarding this bill or with respect to 
any of the others that are the subject of today's hearing. 
Thank you.
    Senator Chafee. Thank you very much, Senator. I would just 
say we all share your enthusiasm for our wildlife refuges. I 
just have some facts here. We have 513 National Wildlife 
Refuges and they encompass 93 million acres. So it's really a 
big operation.
    Senator Allard, you've got a good bill here. If you'd like 
to offer some comments, now is the time.

 OPENING STATEMENT OF HON. WAYNE ALLARD, U.S. SENATOR FROM THE 
                       STATE OF COLORADO

    Senator Allard. I would, Mr. Chairman. I just would like to 
thank you for your interest in a number of these bills, one of 
which I'm a sponsor of and a couple of which I'm a cosponsor 
on. I'm sponsoring S. 2094, the Fish and Wildlife Revenue 
Enhancement Act of 1998; cosponsor on your bill, S. 2244, the 
National Wildlife Refuge System Volunteer and Partnership 
Enhancement Act of 1998; and also a cosponsor on S. 1970, the 
Neotropical Migratory Bird Conservation Act of 1998. I want to 
compliment you for your interest in this subject matter, and I 
would also say that I look forward to continuing to work with 
both you and your staff on these pieces of legislation, 
particularly S. 2094.
    Over the July 4 break, I had an opportunity to visit the 
facility where there is a holding of repository animals. These 
are wildlife products that have been turned over, forfeited to 
the Federal Government. That facility is in Rocky Mountain 
Arsenal in Colorado. I was especially pleased with what I saw 
there at the repository. I think they need some help, and the 
purpose of my bill is to enhance the program.
    There are three parts to the program. One is the holding of 
products that were forfeited, or were brought into the country 
illegally. Some of these products, for example, are ostrich 
skins. Ostriches are raised naturally in this country and 
ostriches are raised in other countries, but the fact is that 
they violated a law bringing the materials in. They're not an 
endangered species, but the importers violated the law. A 
number of items are sea shells and those kinds of things that 
certainly aren't endangered but do have value.
    The bill would allow the Government to put those things up 
for sale and generate revenue to enhance the storage and 
disposition of many of the rare products. I think it is 
important that we have this program to do that. Also, I'm 
working with your staff on changing current law so that we make 
sure that nothing that's an endangered species is sold. We 
don't want to encourage the merchandizing of endangered 
species. None of us want to see that happen.
    Another part of the program is the National Eagle 
Repository. The Native Americans of this country for cultural 
and religious purposes use the eagles, for example, or parts of 
the eagles for their cultural and religious ceremonies. Many of 
these eagles that I saw that were there were those that had 
died in the wild for one reason or another and had been picked 
up and brought in. Many Native Americans need the feathers. The 
eagle feathers are processed and then made available to the 
Native Americans. It is very important to the Indian tribes of 
this country, and a very vital program, and this money would 
help that.
    The third aspect of the program, which I thought was 
perhaps the most important part, was the educational goals and 
programs. People learn that they can't go overseas and buy 
wildlife products and expect to bring them into this country. I 
think the educational program needs to be extended so that more 
Americans traveling overseas don't get themselves into trouble 
because of ignorance of the law. They don't realize that they 
can't bring those items into the country. I think we will save 
the lives of a lot of wildlife in foreign countries, a lot of 
endangered species overseas. It is a matter of education and 
teaching Americans abroad and teaching American school children 
the concepts and the principles of conservation.
    I was very excited about the program. Again, I look forward 
to working with you in all these particular pieces of 
legislation, particularly this piece, which I spent some time 
in making myself familiar with the program. Thank you, Mr. 
Chairman.
    Senator Chafee. Thank you. I want to again thank you for 
your work on the enhancement provision that you discussed.
    Mr. Rogers, if you would come to the table, please. This is 
Mr. John Rogers, the Deputy Director of the U.S. Fish and 
Wildlife Service.
    We have a vote, Mr. Rogers, scheduled, whether it will 
occur or not at the time, but it is scheduled for 9:30. So if 
you would bear that in mind in your testimony.
    I also have a number of statements by committee members to 
place into the record.
    [The statements of Senators Kempthorne, Moynihan, 
Lautenberg, and Graham follow:]
     Prepared Statement of Hon. Dirk Kempthorne, U.S. Senator from 
                           the State of Idaho
    Good morning, Mr. Chairman. Although I will not have comments on 
every bill before us this morning, I want to emphasize that these bills 
represent important issues in Fish and Wildlife Conservation.
    S. 361, and H.R. 2807, two versions of the Rhino and Tiger Product 
Labeling Act amend the Endangered Species Act to make certain labeling 
of products a criminal act. I am concerned about these provisions and 
concerned that these bills may be placing the administration of justice 
above the doing of justice.
    Under S. 361 specifically, if a person labels a product as 
containing any endangered or threatened species, this provision would 
make that labeling a criminal act regardless of the content of the 
package, and regardless of whether the package actually contains parts 
or products derived from the endangered or threatened species. The 
penalties for such labeling are enormous, potentially including 
confiscation of property and considerable fines. The purpose of the 
provision is to discourage trade in these threatened or endangered 
species. They say that it is impossible to test all packaging and that 
continuing to allow such product labeling does not sufficiently 
discourage trade in endangered and threatened species. Yet I fear that 
the means to this admirable end may be the discouragement of First 
Amendment rights.
    I remember just a few years ago when the Spotted Owl debate raged 
on, a small business in the Pacific Northwest relabeled some cans of 
potted meat product as containing Spotted Owl, a listed species. 
``Spotted Owl Helper'' was packaged claiming to contain Spotted Owl. 
This humorous attempt to parody a critical habitat designation designed 
to end logging in the Pacific Northwest would become a criminal act 
under this law. Why?
    During my recent negotiations on the Endangered Species Recovery 
Act this provision was suggested by the Minority and rejected by the 
Majority. If passed, the Justice Department might choose to use this 
provision to stamp out criticism of executive branch policies. Innocent 
citizens will be made criminals. If this is not the result of this 
provision then we are on the verge of implicitly agreeing to 
legislation which is overly broad.
    The House version of this bill (H.R. 2807), is preferable only in 
that it applies to a smaller subset of species. But the underlying 
problem is the same. Mere speech should not be a criminal act. Neither 
bill contains any exemptions. I see them as prohibitions against free 
speech. I fear that once this type of legislation is made law, without 
any of the protections this Congress could provide that the Justice 
Department will then seek a broader statute for all endangered and 
threatened species.
    The problem that I have with this bill is that it has been proposed 
for the purpose of stopping poaching of tigers and rhinos in their 
native habitats to prevent their being sold in the United States as 
natural remedies for arthritis and other ailments. I want to make it 
clear that I am very much in favor of stopping such poaching. But, I 
see nothing coming of this bill except criminal confusion. Let's work 
together to find better ways of stopping poaching.
    Senator Allard has recognized in S. 2094, the Fish and Wildlife 
Revenue Enhancement Act, that the Federal Government stores and 
disposes of specimens of protected species that have been abandoned or 
forfeited at our ports. These materials are distributed by the 
Government to qualified recipients for educational and scientific uses, 
and for religious purposes of Native Americans. Although the remaining 
material may be sold if it is not from an endangered or threatened 
species, the current law does not allow any revenue generated from 
sales to manage the storage and sales of these materials. Senator 
Allard's bill will allow the Fish and Wildlife Service to pay shipping, 
storage, appraisal, and other disposal costs from sale of these items. 
Because this will make the Government's job easier, and allow disposal 
rather than perpetual storage, I have chosen to cosponsor this bill.
    Senator McConnell has introduced S. 263, the Bear Protection Act 
which would make the export of bear gall bladders and other tissues an 
illegal act under Federal law. Mr. Chairman, I am informed that the 
Black Bear populations in the United States are growing practically 
everywhere within their native range. The grizzly bear, a species 
listed under the Endangered Species Act is already protected by Federal 
law.
    Mr. Chairman, I would like to enter into the record this letter 
from the Idaho Department of Fish and Game which clearly states that 
the poaching of Black Bear parts for sale is not a problem in my State. 
I believe that we will hear testimony from witnesses today that 
suggests similar information is available throughout the range of the 
species.
    I am looking forward to the testimony on S. 2244, National Wildlife 
Refuge System Volunteer and Partnership Enhancement Act of 1998. I was 
pleased to be able to cosponsor this bill with you, Mr. Chairman.
    Finally, I am very pleased to see continued attention being given 
to the conservation of our native birds. The National Fish and Wildlife 
Foundation which we reauthorized recently in this committee has 
leveraged $5.4 million into nearly $14.5 million for birds throughout 
the American tropics. Mr. Chairman, I would like to enter this list of 
AID [Agency for International Development] and non-AID funded projects 
of the National Fish and Wildlife Foundation into the record. I 
especially want to hear the testimony on S. 1970, the Neotropical 
Migratory Bird Conservation Act to see how it fits into the programs we 
have already established.
    Thank you Mr. Chairman for scheduling this hearing. I look forward 
to hearing the testimony of the witnesses.
                                 ______
                                 
                                         Idaho Fish & Game,
                                          Boise, ID, June 30, 1998.
Senator Dirk Kempthorne,
U.S. Senate, Washington, DC.
    Dear Senator Kempthorne: In response to your recent letter 
concerning bear viscera, I offer the following information:
    Idaho does allow the sale of non-edible portions of legally taken 
big game animals, including black bear, providing the taker makes a 
report of such sale to the Department of Fish and Game.
    We have not been able to substantiate major problems with efforts 
to poach bear simply for their parts in Idaho. I am aware this problem 
exists in other States and countries, but after conducting several 
special undercover operations, the indication is that there is no major 
problem with illegal commercial bear parts poaching in Idaho that we 
can prove. We do have considerable problems with illegally outfitted 
hunts for bear, but that is another type of violation altogether.
    During the last two years we have made 15 arrests and given 37 
warnings for bear violations consisting of a variety of illegal acts, 
including technical violations such as improper tagging or transport, 
but there have been no citations or arrests for illegal sale of bears 
or their parts. We also made 10 observations of incidents that were 
evidence of illegal harvest. Our legal harvest for this period was 
2,836 bears. This means that the total average annual violations rate 
is about 2 percent for bear. We normally record a total rate of all 
violations of about 6 percent.
    The average annual number of legal sales of bear parts is 
approximately 180 transactions. The most common types of parts sold are 
gall bladders from legally-taken bear. Generally, this is the only part 
of the viscera sold in Idaho. The only time we actually determined the 
number of gall bladders sold, it was around 80 annually. The average 
price paid for gall bladders in Idaho is approximately $30. This would 
mean that from a purely economic standpoint, bear hunters would be 
denied about $2,400 in legal revenue. What the dealers would realize in 
profits is unknown since, because of competition, they generally keep 
that information confidential.
    The bear population in Idaho is generally stable, doing well, and 
does seem to be increasing in some areas. We have no evidence that 
harvest, legal or illegal, is affecting the population.
    If it can be substantiated that such a Federal law as S. 263 will 
actually stop or limit illegal interstate poaching and 
commercialization of bears, then we wholeheartedly support it. However, 
our present Idaho laws and regulations make illegal the sale of bear 
parts from other States that prohibit such sale, so my question would 
simply be ``Does S. 263 provide additional authority or protection that 
we don't already have in place?''
    The Idaho Department of Fish & Game is totally opposed to illegal 
commercialization of wildlife and has pursued enhanced penalties in the 
Idaho legislature for such activities. Our Enforcement Bureau would 
certainly be interested in any information any State may have about 
illegal ``laundering'' of bear parts, since this activity is already 
illegal in Idaho. To date, we have heard rumors of such activity, but 
no one seems to be able to provide any significant evidence. The 
closest we had was intercepting a shipment of gall bladders that turned 
out to be not bear, but domestic pig.
    I hope this provides you with useful information. If you need 
anything further, please contact me.
            Sincerely,
                                         Stephen P. Mealey,
                                                          Director.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
 Prepared Statement of Hon. Daniel Patrick Moynihan, U.S. Senator from 
                         the State of New York
    Mr. Chairman, I am pleased to voice my support for S. 659, the 
Great Lakes Fish and Wildlife Restoration Act. The unique partnerships 
established by this Act greatly benefit the Great Lakes region of the 
United States.
    In 1990 I cosponsored the original legislation which directed the 
United States Fish and Wildlife Service (the Service) to produce a 
comprehensive study of the status, assessment, management, and 
restoration needs of the fishery resources of the Great Lakes Basin. 
Completion of the study required a high degree of cooperation and 
coordination between Federal, State, Tribal, and international 
agencies.
    The Service issued the Great Lakes Fishery Resources Restoration 
Study in 1995. In the study, the Service specifies 32 ``high priority'' 
policy recommendations designed to protect the Great Lakes ecosystem. 
For example, the Service identifies best practices to prevent the 
introduction of nonindigenous species--species which, like the zebra 
mussel and purple loostrife, can disrupt the equilibrium of native 
ecosystems. Other recommendations address the problems of contaminated 
sediments and their impacts on wildlife and human health.
    The Fish and Wildlife Service was charged by Congress to assess the 
needs of the Great Lakes ecosystems, and to produce policy 
recommendations. The task before us now is to ensure that these policy 
recommendations are put into action. The reauthorizing legislation 
before us today directs the agency to carry out three tasks. First, the 
Service must establish a committee to review proposals which implement 
the highest priority recommendations of the Fishery Restoration Study. 
Those proposals which are selected by the committee will be funded 
through a competitive grant process. Second, the bill funds three U.S. 
Fish and Wildlife Service offices located within the Great Lakes Basin. 
These divisions would continue to coordinate interagency efforts to 
improve the health of the region. Third, the Act requires the Service 
to report to Congress on its progress in implementing the 
recommendations of the original Study.
    The Great Lakes Fish and Wildlife Restoration Act is a truly 
innovative piece of legislation. Too few laws enacted by this body 
recognize the complexity of the ecosystems we regulate, and few 
coordinate the diverse skills of the agencies which share in the 
stewardship of these valuable resources. I hope that my colleagues will 
join me in lending their unqualified support to this legislation.
                                 ______
                                 
 Prepared Statement of Hon. Frank R. Lautenberg, U.S. Senator from the 
                          State of New Jersey
    As a cosponsor of S. 263, the Bear Protection Act, I would like to 
reiterate my support for this important legislation that would provide 
the domestic bear population with needed protection before they are 
destroyed by commercial trade.
    Numerous studies on the bear parts trade have concluded that, as a 
result of the continuing decline of Asian bear populations, trade in 
the gallbladders of North American bears species for medicinal use is 
on the rise. This fact is confirmed by wildlife enforcement officials 
who note that poaching of North American black bears is increasing, 
largely as a result of growing demand for bear gallbladders. In my home 
State, wildlife officials have found the carcasses of black bears with 
their gallbladders and paws removed. Several years ago, Pennsylvania 
conservation officers working undercover and in cooperation with New 
Jersey law enforcement officers were able to purchase numerous 
gallbladders brought into the State by Pennsylvanians intent on selling 
them in New Jersey.
    Trade in black bears and their parts is already known to occur 
throughout the species' range. According to a report by the World 
Wildlife Fund and TRAFFIC North America, wildlife agencies in the 
United States and Canada indicate that there already exist a well-
developed market for the parts of the American black bear, and evidence 
of well-developed networks of hunters, middlemen and retailers, only 
suggest that the trade is likely to continue and expand in the future. 
I believe that the Bear Protection Act would give State and Federal law 
enforcement agencies a much needed tool to deter further illegal 
commercialization of black bear products, while not interfering with 
States' right to manage their resident bear populations as they see 
fit. I strongly support the bill and urge my colleagues to report it 
out of committee.
                                 ______
                                 
       Prepared Statement of Hon. Bob Graham, U.S. Senator from 
                          the State of Florida
    Mr. Chairman, I am very pleased to join my colleague Senator 
McConnell and 52 other cosponsoring Senators in supporting the Bear 
Protection Act. I fully support this Act and believe that it is key to 
ensuring the long-term viability of the world's eight bear species and, 
specifically, to protect the health of American bears.
    I feel that this legislation is worthy of support for many reasons. 
First, it will ensure that the United States does not contribute to the 
disastrous trade in bear parts by prohibiting the importation and 
exportation of U.S. bear viscera. The Bear Protection Act will also 
make it illegal for a person to sell, barter, offer to sell or barter 
bear viscera, in interstate or foreign commerce. Enforcement provisions 
of this statute fall under U.S. Lacey Act of 1981 that will authorize 
the imposition of civil and criminal penalties, permit the forfeiture 
of wildlife contraband, and authorize rewards to persons providing 
information leading to arrests, criminal convictions, or civil penalty 
assessments.
    The Bear Protection Act will also promote international cooperation 
to protect bears by requiring that the United States Trade 
Representatives and the Secretary of the Interior work with the 
representatives of the leading importing, exporting, and consuming 
countries of bear viscera to establish a coordinated strategy to end 
this detrimental trade. It will allow Congress to remain involved and 
retain oversight of progress by requiring an annual report.
    The Bear Protection Act's provisions will protect America's bears 
by preventing exploitation and potential population decimation by 
poachers supplying the widespread demand for valuable bear parts. 
Although bear populations in the United States are currently thriving, 
the dramatic decline of bear populations outside the United States 
could lead poachers to turn to American bears to fill the increasing 
demand for bear viscera.
    In Florida, the unique black bear subspecies Ursus americanus 
floridanus, is considered threatened with extinction. At one time, 
black bears in Florida and parts of Southern Georgia and Alabama 
numbered more that 12,000. Florida's bears were found in every part of 
the State, including the Florida keys. Now, fewer than 1,500 bears 
remain in scattered and isolated populations, lee than 20 percent of 
the bears' historic range. Development and loss of habitat are the main 
threats to the survival of the species. However, illegal harvest of 
bears and the existing market for bear galls are a pressing problem in 
the State of Florida and are a concern for the wildlife law enforcement 
community.
    In Florida, it is illegal to sell the carcasses or parts of black 
bears. When Florida Game and Fresh Water Fish Commission Officers began 
encountering individuals selling bear carcasses and parts, the alleged 
offenders would often identify them as coming from other species of 
bears in order to circumvent the law. To combat this problem of 
enforcement, it became obvious that legislative modifications were 
necessary. In 1994 the law was modified to make it illegal to sell any 
bear carcass or parts from any species of bear. This law made 
enforcement much easier and more effective for our officers.
    On a national level, The Bear Protection Act would allow U.S. law 
enforcement officials to address the poaching of bears and the sale of 
their parts in an effective manner. As long as some States legally 
permit the sale of bear parts, poachers will be able to exploit these 
animals for profit through these States. The outright ban on trade, 
sale, or barter of bear viscera will close these existing enforcement 
and jurisdictional loopholes that exist as a result of a patchwork of 
State laws.
    The Bear Protection Act will establish national guidelines for 
trade in bear parts, but will not weaken any existing State laws that 
have been instituted to deal with this issue. The prohibitions in the 
Bear Protection Act are not as restrictive as Florida Law; however, 
such stringent restrictions may not be as essential on a nationwide 
basis for States who do not have threatened species. Moreover, this 
legislation is a step in the right direction to allow the continued 
harvest of bears where appropriate and specifically addresses the issue 
of the sale of bear viscera, which is not an integral part of bear 
hunting by legitimate sport hunters.

        STATEMENT OF HON. JOHN ROGERS, DEPUTY DIRECTOR, 
         U.S. FISH AND WILDLIFE SERVICE, WASHINGTON, DC

    Mr. Rogers. Thank you very much, Mr. Chairman. It's a 
pleasure to be here this morning. As you noted earlier, I have 
a rather extensive statement that I would like submitted for 
the record. I will summarize it here. But with seven bills to 
be considered, I may take a little longer than the standard 
time, with your indulgence.
    Senator Chafee. You go ahead.
    Mr. Rogers. First, I'd like to begin with S. 2094, the 
Eagle Repository bill, just summarized by Senator Allard. The 
Service strongly supports S. 2094. Enactment of this bill will 
allow more efficient use of the proceeds received from the sale 
of abandoned or forfeited wildlife parts and products. I want 
to stress, as Senator Allard mentioned, that only products 
which could legally be imported into the United States would be 
available for sale under this bill.
    These items were voluntarily abandoned or they were 
forfeited. I also want to stress that these salable products do 
not include endangered or threatened species, migratory birds, 
marine mammals, or other species listed under Appendix I of 
Convention on International Trade and Endangered Species.
    Currently, there are approximately 450,000 wildlife items 
of the National Wildlife Property Repository near Denver.
    Senator Chafee. Are these all in one central spot, in 
Denver?
    Mr. Rogers. That's correct. There are some in law 
enforcement offices around the country, but the overwhelming 
bulk of them is at the repository.
    The Service is authorized to dispose of these items, 
including by gift, sale, loan, or destruction. But our priority 
is to donate or loan these to scientific and educational 
institutions. Of the estimated 450,000 abandoned or forfeited 
wildlife items, some 200,000 are surplus to the needs of 
scientific and educational programs and could legally be sold 
at auction. We estimate that an auction of these backlogged 
forfeited and abandoned items would generate more than $1 
million in proceeds.
    Under S. 2094, we would be able to use the proceeds of the 
already allowed sales of abandoned and forfeited fish and 
wildlife and plants to pay the costs associated with shipping, 
storage, inventory, security, appraisal of these items, and 
also pay the cost associated with auctions. It would also allow 
the Fish and Wildlife Service to use these proceeds to pay for 
processing and shipping of eagles and other migratory birds to 
Native Americans for religious purposes.
    Mr. Chairman, we believe this bill, if enacted, would allow 
us to more efficiently operate two important programs--the 
distribution of wildlife property to scientific and educational 
institutions, and the distribution of eagles and other 
migratory birds to Native Americans for religious purposes.
    Next, I would like to address S. 2244, the National 
Wildlife Refuge System Volunteer and Partnership Enhancement 
Act. We certainly appreciate your leadership and the leadership 
of Senator Baucus in bringing us to this point.
    As you know, the National Wildlife Refuge System 
Improvement Act strengthened the legal underpinnings of the 
system and emphasizes public participation in its operation. 
The volunteer bill before the committee today increases that 
emphasis on participation and provides direction for the 
Service's volunteers and its partnership organizations.
    Our volunteers play a vital role in helping to fulfill our 
mission of conserving, protecting, and enhancing America's fish 
and wildlife and their habitats. Volunteers provide essential 
services that Fish and Wildlife Service does not have the 
resources or staff to provide. The number of our volunteers has 
increased from 4,200 in 1982 to more than 25,000 in 1996. 
Commensurate with this increase in individuals, volunteer hours 
have also increased from 128,000 to more than 1 million in 
1996.
    S. 2244 will further encourage the use of volunteers to 
assist the Service in the management of our National Wildlife 
Refuges. It will facilitate partnerships between the Service 
and non-Federal entities, and it will promote public awareness 
of the resources of the Refuge System and public participant in 
the conservation of those resources. It will also encourage 
donations and other contributions by persons and organizations 
to individual refuges and the Refuge System.
    The bill also affirms our authority for cost-share 
projects, which to date have been authorized in annual 
appropriation bills. The concept of matching funds is very 
effective in stimulating the donation of funds or in-kind 
services to achieve the goal of improving a refuge. Permanent 
authorization and direction could help this program grow beyond 
its current $3.3 million size, thus leveraging available funds.
    S. 2244 would also establish a 3-year pilot program to test 
the effects of locating a volunteer coordinator at between two 
and 20 selected refuges. The bill further enhances our 
volunteer capability by authorizing the establishment of a 
senior volunteer corps. Also, S. 2244 provides guidance for our 
refuge educational programs which could lead to both an 
expansion of our efforts and greater community involvement in 
these efforts.
    I'll next address H.R. 3113, authorization of the 
Rhinoceros and Tiger Conservation Act of 1994, also with its 
companions S. 361 and H.R. 2807, the House and Senate bills for 
the Rhino and Tiger Product Labeling Act.
    The Department strongly supports the reauthorization of the 
Rhino and Tiger Conservation Act through the year 2004, as 
passed by the House on March 30, 1998.
    Senator Chafee. Now wait. Which one is that? I get mixed 
up. We've got three different bills here on that.
    Mr. Rogers. H.R. 3113 is the basic underlying 
reauthorization act.
    Senator Chafee. That has passed the House, and that's the 
one you support.
    Mr. Rogers. Correct. And S. 361 is the Senate version, as 
you just mentioned, offered by Mr. Jeffords, for the Labeling 
Act, and H.R. 2807 is the House-passed version of the Labeling 
Act.
    Senator Chafee. Now which one are you for of those two?
    Mr. Rogers. The House version of the Labeling Act. However, 
as you mentioned, Senator Jeffords has changed his position on 
S. 361, so we could also support S. 361.
    Senator Chafee. OK.
    Mr. Rogers. The need for increased action is highlighted by 
the desperate situation facing our world's remaining tiger and 
rhino populations. Reauthorization of the Rhino and Tiger 
Conservation Act will send a strong message that the American 
people care deeply about these resources, and it will 
demonstrate a commitment by the U.S. Government to provide 
sufficient funding and continued support to the conservation of 
these key representatives of Asian and African fauna.
    We do seek some technical amendments with our fiscal year 
1999 budget proposal to consolidate the African elephant, Asian 
elephant, and rhino and tiger conservation funds under a multi-
species conservation fund.
    However, conservation assistance is only half of the job. 
In order to break the cycle of poaching and illegal trade that 
has devastated so many rhino and tiger populations, we must 
also work to break the supply lines and remove rhino and tiger 
products from the marketplace. Unfortunately, not all the 
problems with the trade in rhino and tiger parts is in Asia. 
There is also a thriving trade in medicines which are at least 
labeled as containing rhino and tiger parts in traditional 
medicine shops in most cities having large Asian communities.
    And we in the United States are not exempt from this 
problem. Every year the Service wildlife inspectors all over 
the country routinely encounter shipments containing wildlife 
products labeled as containing protected species parts, 
especially rhino and tiger. Once these products reach the 
United States, even when their labels blatantly claim that they 
contain rhino and tiger parts, the burden of proof is still on 
the Fish and Wildlife Service to demonstrate conclusively and 
scientifically that those products in fact contain those 
products.
    As you might expect, this is an expensive process, and 
forensic experts estimate a cost of up to $100,000 to develop a 
DNA test to identify any particular group of wildlife, such as 
in this case all rhinos or all tigers, and the process then 
only works if the DNA markers have not been destroyed in the 
compounding process. For example, if a product purported to 
contain tiger bone has been treated to high temperatures during 
compounding, a DNA analysis test might not be conclusive.
    Given these results, seized items must often be returned to 
the importer because no violation of U.S. law can be shown. 
Some ports have chosen not to seize tiger bone products because 
the burden of proof with respect to content has made 
enforcement so difficult. As a result, products claiming to 
contain tiger and rhino continue to be readily available and 
continue to stimulate demand and feed a market that ultimately 
depends on killing of these critically endangered species.
    H.R. 2807, the Rhino and Tiger Product Labeling Act, would 
close this major gap in our existing laws by adding new 
criminal prohibitions to the existing Act. The Administration 
strongly supports this new measure which is designed to 
prohibit the importation and sale of products that claim to 
contain rhino horn or tiger products. The proposed prohibition 
on import and export of such products will allow us to seize 
these substances at U.S. ports of entry and demand their 
immediate forfeiture. And the prohibition on sale of these 
products will help keep stockpiles which are already in this 
country off the shelves.
    The bill is fully in keeping with an international 
consensus on the need for such legislation in every country. 
Recognizing that trade in rhino and tiger medicines is a global 
problem, the CITES conference of the parties has adopted a 
series of resolutions calling on all countries to adopt new 
legislation to control this trade.
    Now let me address S. 263, the Bear Protection Act. S. 263 
is intended to prevent American black bear populations from 
becoming harmed as a result of the demand for bear viscera 
which is used in certain Asian medicinal products.
    Although significant illegal trade in Asiatic species of 
bear exists primarily to supply the Asiatic medicinal market, 
the Service does not have evidence to support the claim that 
bears in the United States are threatened by the demand for 
bear viscera. With the exception of black bear populations in 
Florida and Louisiana, bear populations in the United States 
and Canada are generally increasing, due in large part to the 
effective wildlife management activities carried out by the 
States.
    The Service believes that bears in the United States have 
been adequately protected to date, and the bill addresses an 
issue which has not been a major resource problem. If the 
committee moves forward, however, with S. 263, there are some 
technical/legal concerns relating to references to the Lacey 
Act, as set forth in my formal statement, that should be 
addressed prior to final passage.
    The next bill is S. 1970, the Neotropical Migratory Bird 
Conservation Act of 1998. We support S. 1970 and wish to thank 
Senator Abraham for his sponsorship of the act.
    The Fish and Wildlife Service, through four bilateral 
treaties, has responsibility for maintaining healthy 
populations of some 778 species of migratory nongame birds and 
58 species of migratory game birds, approximately 350 species 
of which--the so-called neotropical migrants--migrate between 
Latin America, the Caribbean, and North America.
    The greatest challenge facing us as migratory bird managers 
is to halt the declines of many of these species. The decline 
is due, in part, to major habitat destruction and degradation. 
S. 1970 can be a major step toward halting and even reversing 
this trend.
    Again, we do, however, have several recommended changes 
that would make this initiative even more effective. These 
include adding a North American component to include both U.S.-
based as well as Latin American- and Caribbean-based products 
so that the conservation benefits will be maximized in both the 
breeding, the wintering, and the migration areas. Also, we 
would like to increase the authorized appropriation from $4 
million to $8 million for fiscal year 1999 to 2001. We have 
other suggested changes that are addressed in the formal 
statement.
    Finally, Mr. Chairman, the Administration would like to see 
Congress pass S. 659, a bill that authorizes needed 
appropriations to fund the recommendations in the Great Lakes 
Fishery Resources Restoration Study. This bill establishes a 
coordinated process to identify and fund projects that will 
help restore the fish and wildlife resources of the Great 
Lakes. It provides a creative funding mechanism that requires a 
75-25 Federal-non-Federal match to ensure broad support for 
restoration projects.
    In addition, the legislation facilitates movement from 
study to action and provides the critical framework for the 
development and implementation of partner restoration projects. 
Finally, S. 659 will continue the momentum and strong Federal 
presence with States, tribes, the Great Lakes Commission, and 
non-governmental organizations and partners to continue to work 
together to restore the resource.
    If the bill is not passed, the Administration believes that 
partner projects may disintegrate due to lack of funding and 
lack of coordinated support. Lake trout, poster brook trout, 
Atlantic salmon, and lake sturgeon restoration activities 
currently underway may be impeded or stopped. Federal 
facilitation of resolution of Great Lakes inter-jurisdictional 
fishery issues could be impaired and, in addition, Federal 
credibility at all levels within the Great Lakes natural 
resource management community may be diminished and future 
efforts made less effective.
    S. 659 will enable the Service to continue to provide 
support and needed Federal funding to restore fish and wildlife 
resources of one of the Nation's most important ecosystems.
    Mr. Chairman, that's a very quick run down of our positions 
on these important pieces of legislation. I would be happy to 
answer any questions that you or the other members of the 
committee may have.
    Senator Chafee. Thank you, Mr. Rogers. As I understand it, 
you were for all of these, but the Bear Protection Act you had 
some questions on.
    Mr. Rogers. Correct.
    Senator Chafee. We will stay in touch with you and the 
service department on that.
    The rest, it seemed to me--is it fair to say you are for 
the rest of them?
    Mr. Rogers. That's correct. A few recommended changes, but 
basically for them.
    Senator Chafee. OK. We've got your testimony on that. 
That's very helpful.
    There's one thing that we didn't bring up, and just while 
I've got you here, this wasn't on the list, and this deals with 
the so-called Duck Stamp Act. The question was whether we 
should allow a portion of the receipts from the Duck Stamp Act 
to be used for marketing the duck stamp so that we could get 
greater revenue from that. That is not now a permissible use of 
the funds. What do you think of that?
    Mr. Rogers. That's correct, sir. The Fish and Wildlife 
Service, in the face of declining duck stamp sales, had given 
some thought to and developed a proposal whereby we would use a 
portion of the income from the sale of duck stamps to try to 
enhance the sale of this important tool to maintain and 
increase wetland habitat.
    We had started advancing this proposal, and the 
congressional members of the Migratory Bird Conservation 
Commission--that is Senator Breaux, Senator Cochran, 
Congressman Dingell, and Congressman Weldon--while generally in 
favor, raised the issue of potential oversight by the 
Commission as well as whether we were asking for the 
appropriate amount of funding. We have worked through these two 
issues and are again ready to advance a proposal that would 
accomplish this. It would be a relatively brief pilot program 
to see if our efforts could broaden and expand the sale of duck 
stamps to provide increased revenues for wetland enhancement.
    Senator Chafee. When you've got that ready why don't you 
send it on up here.
    Mr. Rogers. We'll do that.
    Senator Chafee. Senator Allard, do you have some questions?
    Senator Allard. Mr. Chairman, I don't.
    Thank you very much for your testimony, Mr. Rogers.
    Senator Chafee. On the tiger and rhino legislation that 
came over from the House, H.R. 2807 and H.R. 3113, it is my 
understanding that the principal purpose is to prohibit 
products labeled as containing these and to close the markets, 
and that all seems to make sense. It has pretty extensive civil 
and criminal penalties and forfeiture authorities. To what 
extent do you think the Service would expect to see criminal 
penalties and forfeitures used to prohibit these?
    Mr. Rogers. We are not out to immediately turn Asian 
medicine shopkeepers into criminals. The aim of this bill would 
be to get those products off the market and decrease the 
incentive for take of the critters in the wild. We would begin 
by using educational and softer methods, as we have done in Los 
Angeles without this bill behind us, to try to reduce the 
presence of these things on the market.
    But we wouldn't be swooping down on all Asian markets and 
throwing the shopkeepers in jail or subjecting them to great 
fines. The criminal provisions would be used as a last resort 
to go after those who were knowingly and continually 
perpetuating this activity.
    Senator Chafee. You mentioned that the neotropical bird 
legislation could be a compliment to the North American 
Waterfowl Management Plan. As you know, the North American 
Waterfowl Plan just involves Canada, the United States, and 
Mexico, all who have some kind of framework in place. Do you 
think such a framework can be developed by the Caribbean and 
Latin American countries for neotropical birds? In other words, 
it's a long step from what they're doing to have some kind of a 
framework that can make this succeed.
    Mr. Rogers. That's a very important point, Senator. We have 
extensive experience in the Caribbean and all through Latin 
America working with the countries and the non-governmental 
organizations in those countries on neotropical birds. What has 
been missing to kind of glue the whole thing together has been 
an overriding act that would, in fact, bring it together, as 
this does, and also the potential mechanism for funding this 
disparate activities.
    So, yes, we do believe that they can be brought together, a 
framework similar to the North American plan can be 
established, and we believe that this Act would be very 
important in accomplishing that.
    Senator Chafee. OK. We've got a vote on. What I would like 
to do is recess. I don't think there are any more questions.
    Do you have any questions of Mr. Rogers?
    Senator Allard. No, I don't, Mr. Chairman.
    Senator Chafee. So, Mr. Rogers, that completes your 
testimony. Thank you.
    Mr. Rogers. Thank you, Mr. Chairman.
    Senator Chafee. When we come back we will deal with Panel 
II and then to Panel III. So we will have a little recess here 
for about 10 minutes while we vote. Thank you.
    [Recess.]
    Senator Chafee. We'll now go to the second panel. Ms. 
Ginette Hemley, vice president for Species Conservation, World 
Wildlife Fund; Mr. Wayne Pacelle, senior vice president, The 
Humane Society of the United States; and Ms. Kristin Vehrs, 
deputy director, American Zoo and Aquarium Association.
    So we'll start with you, Ms. Hemley.

    STATEMENT OF GINETTE HEMLEY, VICE PRESIDENT FOR SPECIES 
       CONSERVATION, WORLD WILDLIFE FUND, WASHINGTON, DC

    Ms. Hemley. Thank you, Mr. Chairman and members of the 
committee. I appreciate the opportunity to appear here today. I 
am Ginette Hemley, vice president for Species Conservation at 
World Wildlife Fund. My written testimony addresses several of 
the legislative issues before us today. But this morning I will 
speak principally about three of them.
    First, the Rhino and Tiger Product Labeling Act. As this 
committee is well aware, rhinos and tigers are among the most 
critically endangered species on earth. Virtually all 
populations have experienced staggering declines due to 
poaching, a problem stemming directly from the demand for tiger 
bone and rhino horn used in traditional medicine principally in 
East Asia, but also in countries such as the United States.
    Fortunately, and largely because of U.S. pressure, several 
key East Asian countries and consumer markets, including 
Taiwan, China, South Korea, and Hong Kong, have made 
significant strides in addressing the illegal trade in recent 
years, strengthening their own laws and enforcement programs. 
The result is that positive and illegal trade has slowed down. 
But, ironically, the United States has yet to take action to 
close what we consider a loophole in the enforcement system in 
this country that has allowed a trade in products containing, 
or labeled as containing, tiger and rhino to flourish.
    A recent report by World Wildlife Fund of its trade 
monitoring program traffic revealed that there are more tiger 
medicinal products on North American markets today than there 
were 5 years ago. This alarming trend must be reversed through 
more effective enforcement and by working directly with 
traditional Chinese medicine communities to reduce demand for 
these products and promote alternatives. On the latter issue, I 
am pleased to report that we are seeing some progress. 
Unfortunately, it is not enough to solve the problem.
    World Wildlife Fund strongly urges the Senate to pass the 
Rhino and Tiger Product Labeling Act in a form similar to that 
passed by the House in April, that is H.R. 2807, to make it 
illegal to import and sell any medicinal product labeled as 
containing rhino or tiger ingredients, thus allowing for direct 
enforcement action and seizure of such products wherever they 
are found. This action, as you have heard, has been recommended 
by CITES. We are aware that there are differing views about the 
enforcement and penalty provisions contained in the House bill, 
and we would like to work with the committee to resolve these 
differences. We believe that these provisions could 
appropriately be toned down without undercutting the aim of the 
legislation, and that is to get these products off store 
shelves.
    Turning now to the Bear Protection Act, World Wildlife Fund 
greatly appreciates the interest of Senator McConnell and the 
other cosponsors of S. 263 in improving the conservation status 
of the world's bears. We offer the following comments with the 
aim of ensuring that any legislation passed by Congress truly 
contributes to global bear conservation.
    Mr. Chairman, while we very much support the overall intent 
of the bill, to help bears, we question some of the bill's 
findings which, in our view, do not accurately portray the 
status of bears and the bear trade. We are very fortunate here 
in North America to have some of the healthiest bear 
populations in the world, with the American black bear in 
particular considered stable or increasing throughout most of 
its range with the exception of populations in Louisiana and 
Florida.
    Further, there is little indication that these or other 
bear populations in the United States have been negatively 
impacted overall by poaching for commercial trade in bear 
parts, particularly viscera, for medicinal uses. Most States 
already prohibit the commercial trade in bear parts, but seven 
apparently still allow it for products taken from bears within 
their borders. Although there is concern that inconsistent 
State laws may facilitate illegal trade and laundering of bear 
parts, to the best of our knowledge, there is little evidence 
that this is a major conservation problem.
    With this in mind, Mr. Chairman, World Wildlife Fund would 
like to offer the following recommendations on the proposed 
legislation.
    First, because most of the information on the illegal trade 
of bear parts is based on anecdotal reports, there is a clear 
need to better define the problem. We recommend that Congress 
direct and provide financial support for the Department of 
Interior to conduct an assessment of the illegal trade in bear 
parts in the United States and its links to the Asian medicinal 
trade. Such data, in our view, are essential to responsible 
trade control and enforcement.
    Second, we question the need at this point for broad 
prohibitions on trade in bear products, particularly in 
interstate commerce, pending the outcome of the kind of review 
I have just suggested.
    Finally, Mr. Chairman, we believe that the Bear Protection 
Act will do little to achieve its aims without authorizing new 
funding for two important activities--bear anti-poaching and 
trade enforcement in the United States, and conservation of 
endangered bear species outside of our borders. Support for 
such activity is essential if we are truly going to help the 
world's bears.
    Let me now turn briefly to the Fish and Wildlife Revenue 
Enhancement Act, the legislation proposed by Mr. Allard and 
others, that would allow the Fish and Wildlife Service to 
recoup some of the cost associated with using forfeited and 
abandoned wildlife products in educational, scientific, and 
Native American religious activities.
    We strongly support the Service's educational initiatives 
that utilize forfeited wildlife products, such as the 
``suitcase for survival'' and ``cargo for conservation'' 
programs. These, in our view, are the priorities for which such 
products should be used. But it's clear that these programs 
operate successfully only at substantial cost to the Service, 
and even with such programs a large surplus of forfeited 
wildlife will, unfortunately, likely remain.
    We see the potential benefit to the Fish and Wildlife 
Service of selling certain non-endangered wildlife products if 
the proceeds of such sales can be directed back into 
educational and related activities. But such sales should be 
undertaken only with the utmost caution and products from 
species listed under the Endangered Species Act and other laws 
should never be allowed to be sold.
    World Wildlife Fund would, therefore, offer two 
recommendations for the proposed legislation.
    First, the Fish and Wildlife Service should be instructed 
to develop a system of evaluating the types of products that 
would be sold, making it a priority to use them first for 
educational and related purposes, but taking into account the 
legal and conservation status of the affected species in their 
various countries of origin to be fully aware of any 
conservation concerns or impacts that might be associated with 
selling any products.
    Second, we suggest that language be added to the bill 
specifically prohibiting the sale of species listed under the 
ESA, the Marine Mammal Act, Migratory Bird Treaty Act, or in 
CITES Appendix I.
    Senator Chafee. I think Senator Allard has that in his 
bill. Don't you?
    Senator Allard. We're working with your staff, Mr. 
Chairman, to get that provision in the bill. Hopefully, it will 
be in the Chairman's mark.
    Senator Chafee. I see. Thank you.
    Ms. Hemley. In closing, Mr. Chairman, I have two very brief 
comments about one other bill, the proposed Neotropical 
Migratory Bird Conservation Act. First, while we wholeheartedly 
support the effort to provide new funding mechanisms for 
protecting important migratory bird habitat in Latin America 
and the Caribbean, we believe that any new programs should also 
extend to conservation of important breeding areas for 
neotropical migrants in North America. Without this component, 
any new program would simply be incomplete.
    Second, we believe it is important to better define how the 
program supported by this new legislation would relate to and 
compliment other existing Government and private sector 
initiatives aimed at protecting neotropical migratory bird 
habitat in both the Northern and Southern Hemispheres.
    Thank you, Mr. Chairman. That concludes my statement. I'll 
be happy to answer any questions.
    Senator Chafee. Thank you very much. What we'll do is 
complete the witnesses in this panel and then have some 
questions for all three of you.
    Mr. Pacelle.

 STATEMENT OF WAYNE PACELLE, SENIOR VICE PRESIDENT, THE HUMANE 
                  SOCIETY OF THE UNITED STATES

    Mr. Pacelle. Thank you, Mr. Chairman. Again, my name is 
Wayne Pacelle and I'm senior vice president for communications 
and government affairs for the Humane Society of the United 
States. On behalf of our 6.2 million members and constituents, 
I offer this testimony, also signing on to more than 30 pieces 
of testimony in support of these bills.
    I'm going to comment on the Bear Protection Act, the rhino 
and tiger legislation, very briefly, and the Fish and Wildlife 
Revenue Enhancement Act. All of these bills focus on the need 
to stem the tide of illegal trade in wildlife--that's the over-
arching concern here today. The bills relating to the disposal 
of stockpiles demonstrates the enormous magnitude of the 
illegal wildlife trade in this country.
    The bills relating to the conservation of rhinos and tigers 
and the trade in products made from them and other threatened 
and endangered species are the latest in a series of domestic 
and international steps to solve the illegal trade in products 
of these animals which have been driven to the brink of 
extinction by this trade. The bill relating to bear parts trade 
seeks to stem the precipitous decline of Asian bear species 
whose parts are traded globally, and the bill also seeks to 
proactively protect America's bears from the same strong 
markets that have had such a significant adverse impact on 
Asian bear populations.
    In short, we support the Rhino and Tiger Conservation 
Reauthorization Act, and we do support Senator Jeffords in his 
efforts to modify his bill to have expeditious passage of the 
Rhino and Tiger Product Labeling Act. We have met with Senator 
Allard's staff; we do have some concerns about that 
legislation, although we surely agree with him that the purpose 
of the legislation in terms of funding law enforcement is a 
critically important one.
    I want to reserve the balance of my remarks for the Bear 
Protection Act. As you know, Mr. Chairman, this legislation has 
53 cosponsors in the Senate--24 Republicans and 29 Democrats. 
There are 13 cosponsors on this committee. In the House, there 
is companion legislation which has 135 cosponsors, again of a 
very bipartisan nature. There are hundreds of groups that 
endorse this legislation. I do want to mention a couple of 
others that came in late. The Idaho Wildlife Federation and the 
Idaho Sporting Congress, both hunting groups, do support the 
Bear Protection Act.
    The principal intent of the Bear Protection Act is to 
assist State and Federal wildlife law enforcement and the 
enforcement agencies of other nations by doing three things, 
and I think it's very important to note all three things 
because some have focused on just one component of the 
legislation. No. 1, is to protect endangered Asian bears from 
international markets for their organs; No. 2, protect American 
bears from being poached to supply foreign demand for their 
parts; and No. 3, to protect American bears from domestic 
markets in bear parts.
    In 1994, Mr. Chairman, Dr. Chris Servheen, representing the 
U.S. Fish and Wildlife Service at the International Union for 
the Conservation of Nature Species Survival Committee Bear 
Specialist Group, noted, ``There is a serious impact on global 
bear populations from the trade in bear parts.'' In 1995, he 
added, ``As Asian bear populations decline and wild bear bile 
and other bear parts become more difficult to obtain, sources 
of bear parts outside Asia will be developed by traders and 
others willing to make significant profits.''
    In 1995, the World Wildlife Fund annual report stated, ``A 
recent traffic study reported that American black bear 
populations are targets of illegal traders in bear parts. The 
booming medicinal market for these parts where a single gall 
bladder can be sold for as much as $11,000 in some Far Eastern 
markets has already sent Asian bear populations into decline 
and is causing traders to turn increasingly to American black 
bears. A complex patchwork of State laws in the United States 
makes it impossible to regulate the trade.''
    So, in short, I think that there is no dispute that a 
patchwork of laws exist at the State level: 32 States ban 
commercializing of the trade in bear parts, 9 States allow 
trade only of gall bladders taken from outside the State, 7 
States allow commerce regardless of origin, 2 States have no 
regulations at all. This current system allows poachers to kill 
bears illegally in one State where the sale of bear parts is 
prohibited and to sell the parts legally in another State or 
ship them out of the country entirely, completely circumventing 
the first State's prohibition on sale of bear parts.
    I just would like to give you and Senator Allard an 
example. In 1994, Alaskan wildlife officials were alerted to a 
shipment of 385 pounds of bear feet coming into Alaska from 
Idaho via Washington. Agents discovered that the shipment also 
included 40 bear gall bladders. Because the actual sale of the 
gall bladders took place in Idaho, where such sale is lawful, 
an Alaskan court ruled that the shipment did not violate State 
laws even though the sale of bear gall bladders is prohibited 
in both Washington and Alaska. I think that case illustrates 
one of the interstate issues that the legislation is trying to 
get at.
    In 1995-96, the Humane Society of the United States and 
other organizations surveyed the States on this matter. More 
than 30 State wildlife agency representatives and/or law 
enforcement personnel responded that this legal disparity makes 
wildlife law enforcement difficult and endorsed a uniform legal 
framework to prohibit the trade in bear viscera. We do know 
that there is a significant anecdotal evidence of widespread 
trade in bear gall bladders. Operation Berkshire in New York 
and Massachusetts, Operation Smokey, Operation Ursus, all of 
these sting operations have yielded major gall bladder troves.
    Passage of this Act is a precautionary exercise to protect 
America's black bears, and it is also needed to protect 
endangered Asian bears. One major reason we need a uniform ban 
on the sale of bear parts is the look alike problem. It is 
impossible to visually distinguish the gall bladder of, for 
example, an endangered Asiatic black bear from an American 
black bear. By passing this prohibition, we can help State and 
foreign bear conservation enforcement efforts. Because the 
endangered bear gall bladders can easily pass for the non-
endangered bladders, international poachers use American black 
bear galls as a shield to hide their sale of endangered bear 
galls. And I do want to note that a U.S. co-authored resolution 
at the 10th conference of the parties at CITES urged parties to 
adopt national legislation to demonstrably reduce illegal bear 
parts or derivatives. The guiding assumption behind the 
resolution was that legal trade provides an avenue for illegal 
trade.
    In closing, Mr. Chairman, it's very appropriate we think 
for the Federal Government to ban the trade in bear gall 
bladders as a matter of policy whether or not American black 
bears are endangered. We're not disputing the fact that many 
American black bear populations are healthy. But we think as a 
matter of policy, just as there is a prohibition on airborne 
hunting under the Federal Airborne Hunting Act, just as there 
is a Federal prohibition on baiting, whether or not the baiting 
activity would cause endangerment in itself or airborne hunting 
would cause endangerment, as a Congress, you have decided in 
the past to bar those activities, and we think that trade in 
gall bladders does not serve the national interest. Who is hurt 
by this legislation? Nobody except poachers and smugglers. And 
even if five gall bladders are traded, that's five too many, 
causing the unnecessary killing of bears for their parts.
    I do want to note as a final point that there are 
alternatives accepted by traditional practitioners of 
traditional Chinese medicine. According to both the Earth Care 
Society and the Association of Chinese Medicine, the two 
prominent Hong Kong non-governmental organizations, there are 
at least 54 herbal alternatives to bear bile and its various 
applications.
    Trade in bear gall bladders does not serve any compelling 
national interest and we think that this legislation helps to 
stop that trade and protect black bears here in the United 
States and abroad.
    Thank you very much.
    Senator Chafee. Thank you very much, Mr. Pacelle.
    And now Ms. Kristin Vehrs, deputy director, American Zoo 
and Aquarium Association.

 STATEMENT OF KRISTIN VEHRS, DEPUTY DIRECTOR, AMERICAN ZOO AND 
               AQUARIUM ASSOCIATION, BETHESDA, MD

    Ms. Vehrs. Thank you. Good morning, Mr. Chairman and 
members of the committee. My name is Kristin Vehrs. I am the 
deputy director of the American Zoo and Aquarium Association 
(AZA). AZA is a professional organization representing 184 
accredited zoological parks, aquariums, and oceanariums in 
North America. We do appreciate the opportunity to testify 
before the committee this morning, and I would like to comment 
briefly on four bills you're addressing.
    S. 2094, the Fish and Wildlife Revenue Enhancement Act of 
1998, would allow the Fish and Wildlife Service to retain all 
proceeds from already authorized and future sales of eligible 
wildlife materials obtained while enforcing its laws. The 
proceeds could cover the costs of shipping, storing, 
appraising, and auctioning off eligible wildlife items. We 
understand that Fish and Wildlife Service may still use 
proceeds for its ``Reward Account'' and for more extensive 
distribution of these materials for educational, scientific, 
and Native American religious purposes.
    We continue to be interested in the availability of fish 
and wildlife related items for these educational programs. The 
AZA, Fish and Wildlife Service, the World Wildlife Fund, the 
National Fish and Wildlife Foundation, and Samsonite have a 
cooperative educational effort entitled Suitcase for Survival. 
It's an extremely popular educational tool for our member zoo 
and aquariums. Since its 1991 inception, the Suitcase for 
Survival program has reached millions of school children 
throughout North America, and as of 1997, there were 187 
suitcases in circulation with a long waiting list for more 
suitcases.
    If S. 2094 is enacted, we would like to see a continued 
balance between paying these costs for auctions, providing 
products for education, and providing money into the Reward 
Account. I believe AZA would support the suggestions offered by 
World Wildlife Fund.
    Turning to the Rhino and Tiger Product Labeling Act, AZA 
believes that H.R. 2807 must be enacted into law. This 
legislation would prohibit the import into or export from the 
United States of any product labeled as or actually containing 
any species of tiger or rhinoceros.
    The bill would stop the significant importation of rhino 
and tiger products into the U.S. Recent World Wildlife Fund and 
Wildlife Conservation Society reports indicate that more than 
50 percent of all retail stores in North America Chinatowns 
sell illegal endangered species products despite a 20-year 
CITES ban. The bill also would eliminate the expensive and time 
consuming laboratory testing necessary to determine if a 
confiscated product really contains ingredients originating 
from rhinos or tigers.
    Mr. Chairman, I understand that some members of the 
committee are concerned that the enforcement language in H.R. 
2807 is too extreme, allowing seizure of equipment, vessels, 
vehicles, items used in the import/export selling of rhino and 
tiger products. We are willing to work with you and the 
committee to resolve this issue. We would like to see H.R. 2807 
enacted this session of Congress.
    H.R. 3113, the Rhinoceros and Tiger Conservation 
Authorization Act, is an act AZA strongly supports. This is an 
example of an effective public-private partnership designed to 
deliver immediate results by assisting conservation 
organizations in the field in saving animals from extinction. 
The funds are needed to keep conservation efforts in the field 
ongoing.
    S. 263, the Bear Protection Act--Mr. Chairman, we support 
the intent of S. 263 to conserve bear species. Our reluctance 
to fully support the bill is our fear that we don't fully 
understand the problems yet. There appears to be a disconnect 
between data from protection organizations and data from State 
fish and game and Federal officials. Most black bear 
populations remain stable or are increasing except those in 
Florida and Louisiana. Seven States allow export and sale of 
bear parts, and yet, according to Fish and Wildlife Service, 
virtually no permits for export have been requested.
    We're further not aware of an increase in poaching. While I 
do understand HSUS' policy argument, that it would be good 
policy for Congress to enact that there be no trade in bear 
parts or products, I guess I want to make sure we don't lose 
this opportunity to learn more about what the actual problems 
are.
    In that vein, AZA joined the World Wildlife Fund and the 
National Wildlife Federation in making some recommendations to 
strengthen S. 263. We would like to see the legislation amended 
to allow for a broad review of the trade by the Department of 
Interior with the assistance of State fish and wildlife 
agencies, with specific funding for this project and a tight 
deadline. We do not want to hold up conservation of bears. We 
just want to make sure that we're really solving the problem.
    Our suggestion also was to provide the Department of 
Interior with greater flexibility to impose different kinds of 
trade restrictions; to include authorization language for 
enforcement funding to strengthen the long term enforcement 
goals of the Bear Protection Act; and finally, include a 
provision in the legislation authorizing specific funding to 
support conservation programs for endangered bears.
    Thank you for allowing me to testify on these four 
important wildlife bills.
    Senator Chafee. Thank you very much, Ms. Vehrs.
    It seemed to me that Mr. Pacelle wanted to charge ahead on 
the Bear Protection Act, if I understood you right. Is that 
correct?
    Mr. Pacelle. Absolutely, Mr. Chairman.
    Senator Chafee. Your belief is that even though the bears 
are now in good shape in the United States that there's the 
possibility of----
    Mr. Pacelle. Well, the eight species of bears in the 
world--many of them have gall bladders that look exactly alike. 
Under CITES, the American black bear is listed under Appendix 
II for look-alike reasons. Because the American black bear gall 
bladder looks just like the Asiatic black bear gall bladder, 
this creates a very significant enforcement problem and it 
allows a smokescreen for the poachers to use the American gall 
bladders and the Asiatic ones and to mix them up. It makes 
enforcement a very difficult proposition.
    But we've never charged, and I'm just afraid that some, not 
necessarily here today, are offering a red herring. We've never 
made the allegation that black bears in the United States are 
endangered, with the exception of the two subspecies, the 
Florida black bear which is expected to be listed as 
threatened, and also the Louisiana black bear which is 
threatened. We're saying that as a matter of policy, trading in 
bear gall bladders is not a good thing, it doesn't serve any 
national interest.
    Senator Chafee. Ms. Vehrs, I'm not quite sure that I 
understand your position on S. 2094. It seems to me you support 
the education programs, but have you taken a position on the 
portion of the bill that would generate more money?
    Ms. Vehrs. No, sir. Actually, our board of directors has 
not been asked to take a formal position. My staff 
recommendation to our board of directors would be to go ahead 
and support the bill with the caveat that we continue to 
balance the offering of these wildlife-related products for 
educational use, payment into that Reward Account, which then 
pays for the care of live animals while the legal proceedings 
are taking place, and using the funds for the payment of the 
shipping, the storage, and the handling.
    Senator Chafee. Senator Allard.
    Senator Allard. Mr. Chairman, if I may try and respond to 
some of the comments of Ms. Vehrs. In reviewing the storage 
facility and the personal tour through there, I'm convinced 
that their top priority is education. I think that when they 
look at products that they have there, they try and single out 
those that have the greatest educational value. For example, if 
they should get hold of a stuffed animal, they don't consider 
any other purposes than for educational purposes. That's their 
top priority.
    So I felt in my tour of the facility that certainly 
education was that top priority. And I hope that would 
alleviate some of your concerns that you may have in that 
regard.
    Ms. Vehrs. It may.
    Senator Allard. Mr. Chairman, I have a question for Mr. 
Pacelle. I don't know whether you've seen some of the amendment 
language that we're looking at. The way I understand it and 
it's been explained to me, the way current law is interpreted, 
they do have the ability to sell endangered species. And with 
the amendment that I would be working with the chairman to 
introduce my legislation; it specifically states, ``In carrying 
out paragraph (1), the Secretary of the Interior and the 
Secretary of Commerce may not sell endangered or threatened 
species, marine mammals, or migratory birds, or items derived 
from such species, mammals, or birds.''
    Even with the adoption of that amendment, you cannot 
support the bill?
    Mr. Pacelle. Well, we noted in our testimony that that was 
one of the curative suggestions. So we appreciate that.
    We do have a bit of a philosophical concern that I imagine 
it's going to be difficult to deal with, which is that we see 
the Service as an enforcement agency and we would rather not 
have the Service get involved in wildlife trade. And even 
though it's with a laudable purpose, we are concerned about the 
message sent that the primary Federal law enforcement agency on 
wildlife trade issues is abetting trade in some way. So that's 
kind of the underlying philosophical concern. We do sincerely 
appreciate your making it explicit in the legislation regarding 
Appendix I species.
    Senator Allard. I think there's a practical approach, too. 
I agree with you that I don't want them getting out there and 
merchandizing the products. But I think there is a practical 
matter. We're enhancing enforcement, which protects species, 
and we're enhancing the educational program, which I think 
protects species.
    So I hope that you would look at this legislation in regard 
to the amendment, and I hope we could count on your support.
    Mr. Pacelle. I think that given that you are the author of 
this legislation, your sending that message to the Service in 
terms of its conduct of these sales is very important. Because 
you can have two different messages sent depending upon the 
conduct of these sales. So I appreciate your thought in that 
regard.
    Senator Allard. Thank you very much for your testimony.
    Senator Chafee. I want to thank everybody for their 
testimony. We appreciate your coming here.
    Now we will go to the next panel, which has Ms. Molly 
Krival, past president, Ding Darling Wildlife Society, from 
Florida; Mr. Gary Taylor, legislative director of the 
International Association of Fish and Wildlife Agencies; and 
Mr. Thomas Crane, program manager of the Great Lakes 
Commission.
    Ms. Krival, you may proceed.

  STATEMENT OF MOLLY KRIVAL, PAST PRESIDENT, ``DING'' DARLING 
                 WILDLIFE SOCIETY, SANIBEL, FL

    Ms. Krival. Thank you for the privilege of appearing here 
today. I am Molly Krival. I have been a volunteer at the J.N. 
``Ding'' Darling National Wildlife Refuge for 10 years, 
accumulating 5,000 volunteer hours. I also joined the ``Ding'' 
Darling Wildlife Society, a Friends group, and I served as its 
president for three terms. The Society has provided up to 
$50,000 a year for refuge projects. I have participated in 
training programs for refuge managers on how to develop Friends 
groups, and I'm a member of a mentoring team which visits 
refuges to help them start a Friends organization. This year I 
was honored as the Volunteer of the Year by the National 
Wildlife Refuge System.
    Those are my credentials for speaking in support of S. 
2244. I will direct my remarks to three of its provisions. 
First, it encourages the use of volunteers and donations and 
facilitates partnerships. Refuge staffing is often at a bare 
minimum to manage the resource. When they train volunteers, the 
staff multiplies its productivity.
    Partnerships also increase productivity by funding projects 
not covered by Federal appropriations. The ``Ding'' Darling 
Wildlife Society does that. So do partnerships with cities, 
like Sanibel, and private groups, like the Sanibel Captiva 
Conservation Foundation. We have noted that grant providing 
institutions like funding partnership projects which tend to do 
more for the dollar.
    Second, section 3 of this bill allows donations to be made 
to individual refuges and creates a new matching grants program 
to encourage donations. During my first week as a volunteer, a 
woman who had known ``Ding'' Darling came to the visitors 
center with a drawing he had given her. She wanted to give the 
drawing to the refuge. The staff member I consulted looked 
frustrated--the refuge couldn't keep donations but the ``Ding'' 
Darling Wildlife Society could. Since not all refuges have a 
501(c)(3) Friends group to receive donations, gifts have either 
been refused or sent to some mysterious agency reservoir never 
to be seen again.
    I find that local people form an allegiance to their local 
refuge first and want to support it. That conviction of the 
heart leads to donations of time and other gifts. Being sure 
our donations will stay at home is very important to us.
    The ``Ding'' Darling Wildlife Society is raising $2 million 
in private funds to build a Center for Education. So far we 
have about $1.4 million. But other refuge Friends groups have 
goals that far outstrip their fund-raising capabilities, such 
as to build a first visitor center, to purchase items to manage 
the wildlife, to upgrade environmental education in their 
community. They need money. Almost always they can raise a 
portion themselves, but the option for a matching grant is very 
encouraging. That provision in this bill would startup a lot of 
good things.
    Three, S. 2244 includes a pilot project that provides a 
volunteer coordinator to certain refuges. Volunteers are people 
with all sorts of skills who want to help the refuge. We need a 
staff member who can organize and train us and develop a 
program for us. Without such a program, we may lose interest.
    In summary, all of the provisions of S. 2244 help people to 
volunteer, to form a 501(c)(3) Friends group, and to donate to 
their local national wildlife refuge. Many of us find enormous 
satisfaction in helping conserve the best of what we have for 
future generations. We see a bird, an alligator, or a flowering 
plant for the miracle of nature that it is. Our hearts leap up.
    I think Senator Chafee and his co-signers have produced 
truly helpful legislation in this bill, and I hope you will 
agree. Thank you for the privilege of addressing you.
    Senator Chafee. Well, thank you very much. And 
congratulations to you for your honor. It's my understanding 
you are the Volunteer of the Year at Wildlife Refuges.
    Ms. Krival. That's right.
    Senator Chafee. Good for you.
    Ms. Krival. Thank you.
    Senator Chafee. I must say, I don't know where Sanibel is.
    Ms. Krival. It's off the southwest coast of Florida, off of 
Fort Myers. It's a barrier island. More than half of it is 
comprised of the ``Ding'' Darling National Wildlife Refuge.
    Senator Chafee. So you escaped the fires, did you?
    Ms. Krival. Yes, we did, fortunately. That was in mid-
eastern Florida. We're southwest.
    Senator Chafee. Well, they certainly were horrible, and 
still are. They haven't controlled them yet.
    Ms. Krival. Yes.
    Senator Chafee. Thank you for your testimony.
    Mr. Gary Taylor, legislative director, International 
Association of Fish and Wildlife Agencies.
    Mr. Taylor.

 STATEMENT OF GARY TAYLOR, LEGISLATIVE DIRECTOR, INTERNATIONAL 
   ASSOCIATION OF FISH AND WILDLIFE AGENCIES, WASHINGTON, DC

    Mr. Taylor. Thank you, Mr. Chairman. I am Gary Taylor, 
legislative director of the International Association of Fish 
and Wildlife Agencies. I appreciate the opportunity to share 
with you today the Association's perspectives on several fish 
and wildlife conservation bills before the committee. All 50 
State fish and wildlife agencies are members of our 
Association.
    You have asked us particularly for our comment on the Bear 
Protection Act, the Great Lakes Fish and Wildlife Restoration 
Act, and the Neotropical Migratory Bird Conservation Act.
    Let me begin, Mr. Chairman, with our comments on S. 263, 
the Bear Protection Act. The Association cannot support S. 263 
as introduced. We understand the intent of the bill sponsors is 
to help address the poaching of Asian bear species for their 
gall. However, the bill as currently drafted focuses its 
application largely on the regulation of trade of bear viscera 
in the United States based on the premise that domestic 
poaching of U.S. indigenous bear species is contributing to the 
market demand for bear gall and is having, or could in the 
future have, a significant negative impact on U.S. bear 
populations.
    Mr. Chairman, there is no substantiation to support either 
of these premises. The Association therefore concludes that as 
drafted S. 263 is neither helpful nor necessary in addressing 
the decline of foreign bear species.
    Let me offer right up front, Mr. Chairman, that the 
Association is certainly willing to work with the bill's 
sponsors and the U.S. Fish and Wildlife Service on a more 
appropriately focused import/export bill that would address any 
existing regulatory deficiencies under the Convention on 
International Trade in Endangered Species of Fauna and Flora. 
However, S. 263 as introduced is not focused on that 
perspective.
    Mr. Chairman, as you are aware, bear populations throughout 
the United States are robust and generally increasing. Also, as 
you are aware, the statutory responsibility for the 
conservation and management of bear species in the United 
States lies largely with the State fish and wildlife agencies, 
except for the polar bear, the grizzly bear, and the Louisiana 
black bear where the Fish and Wildlife Service shares 
responsibility with the States. Regulation of bear harvest and 
allowable use of any parts or products, such as fur, claws, 
gall, and other products, is thus closely regulated by the 
State fish and wildlife agencies, including through the 
application and enforcement of the Lacey Act by State and 
Federal wildlife officers.
    The Lacey Act already makes it a Federal violation to 
transport or sell across State lines or national borders any 
wildlife that is illegally taken in the State of origin. As 
recently as May of last year, our Association surveyed all 38 
bear range States regarding illegal harvest and population 
impact. The information from the States clearly substantiates 
that while incidental illegal harvest occurs, there is no 
significant population impact from illegal harvest in any bear 
range State. If there were, Mr. Chairman, I can assure you that 
our State fish and wildlife agencies would take appropriate 
action to address this.
    The Association believes, therefore, that the application 
of the Lacey Act to all U.S. domestic commerce in bear viscera, 
whether it is legal in a State or not, as proposed in S. 263, 
is unnecessary for bear resource protection and is an 
inappropriate Federal intrusion in the State management 
authorities and prerogatives. Mr. Chairman, the States spend 
tens of millions of dollars each year in wildlife law 
enforcement, and I assure you they would be aware of and 
respond to any significant poaching of domestic bear 
populations. The States' record on conservation law enforcement 
speaks for itself, and we believe there is no substantiated 
evidence that would compel Federal intervention.
    Let me suggest, Mr. Chairman, rather than the creation of 
additional Federal statutory authority, as contemplated in S. 
263, especially where it preempts State management 
prerogatives, that the provision of additional resources to the 
U.S. Fish and Wildlife Service Division of Law Enforcement 
would be a more appropriate and effective means of effecting 
Asian bear populations by the regulation of illegal trade and 
their parts or products.
    As I indicated earlier, there is little data to 
substantiate if U.S. bear gall is contributing to a market 
demand for Asian bear gall and thus affecting the Asian bear 
parts trade and consequently the Asian bear population. The 
Association would thus encourage additional support to the Fish 
and Wildlife Service to address this question also.
    And finally, as I indicated earlier, Mr. Chairman, we would 
be happy to work with bill sponsors and the Service on a more 
narrowly focused import/export bill that could address legal 
deficiencies in CITES that might exist now.
    Let me now turn to S. 659, the Great Lakes Fish and 
Wildlife Conservation Act. In general, Mr. Chairman, while the 
Association supports this bill from a perspective that it could 
facilitate more effective cooperation between Federal, State, 
and tribal entities relative to fisheries restoration, we would 
question whether this legislation is necessary to accomplish 
that objective.
    We believe the Fish and Wildlife Service already has the 
necessary authority to implement its role in carrying out the 
recommendations of the Great Lakes Fishery Restoration Study. 
Whether or not the statutory establishment within the Fish and 
Wildlife Service of another committee is necessary to consider 
funding for proposals to implement this study is also subject 
to question.
    The Association believes that the Fish and Wildlife Service 
can and should, if appropriate, increase its budget request to 
fulfill its role and obligations in the Great Lakes fisheries 
effort regardless of whether S. 659 is enacted into law. We are 
also interested in ensuring that any additional authorization 
under S. 659 is directed at on the ground efforts in fishery 
restoration and conservation and not toward furthering U.S. 
Fish and Wildlife Service offices, facilities, or 
administrative infrastructure.
    Having said all this, Mr. Chairman, I can share with you 
the support of the Association for S. 659, but should also let 
you know that the enthusiasm of this support among the eight 
Great Lakes State fish and wildlife agencies varies widely.
    Finally, Mr. Chairman, let me briefly comment on S. 1970, 
the Neotropical Migratory Bird Conservation Act. As you know, 
the Association has long played an active role in migratory 
bird conservation, from the negotiation and ratification of the 
Migratory Bird Treaty in 1916 and passage of the Migratory Bird 
Treaty Act in 1918 to the North American Wetlands Conservation 
Act currently before this Congress for reauthorization. The 
Association and our member State fish and wildlife agencies are 
also very active in Partners in Flight, the Western Hemisphere 
Shore Bird Reserve Program, the North American Waterfowl 
Management Plan, and other international endeavors to conserve 
migratory birds throughout their range.
    The Association therefore supports S. 1970 as another 
measure to facilitate the conservation of migratory birds, 
particularly in Latin America and the Caribbean.
    Mr. Chairman, as you are well aware, our habitat 
conservation efforts in the United States encompassing the 
breeding range of these species will be successful only if the 
habitat in their winter range is likewise secured. The 
Association believes that S. 1970 establishes a protocol that 
will facilitate that and therefore supports this measure.
    Mr. Chairman, that concludes my remarks. I thank you for 
the opportunity to share our perspectives. I would be pleased 
to answer any questions.
    Senator Chafee. Thank you very much, Mr. Taylor.
    Now, Mr. Crane, program manager, Great Lakes Commission.

    STATEMENT OF THOMAS CRANE, PROGRAM MANAGER, GREAT LAKES 
                   COMMISSION, ANN ARBOR, MI

    Mr. Crane. Good morning, Mr. Chairman.
    Senator Chafee. Good morning, Mr. Crane.
    Mr. Crane. I am Thomas Crane. I'm a program manager for 
resource management and environmental quality on staff of the 
Great Lakes Commission. We're located in Ann Arbor, MI. It's my 
pleasure to be here and to have the opportunity to summarize a 
detailed written statement that was prepared by Dr. Michael 
Donahue, the executive director of the Great Lakes Commission, 
that was submitted for the record. I appear today on behalf of 
the eight member States of the Great Lakes Commission, and will 
speak in support of S. 659, reauthorization of the Great Lakes 
Fish and Wildlife Restoration Act.
    Passage and implementation of the original Act provided the 
Great Lakes States, and the entire Great Lakes governance 
infrastructure, with a framework for the cooperative 
conservation, restoration, and management of Great Lakes fish 
and wildlife resources. Reauthorization of the Act will ensure 
that present progress is maintained and new initiatives are 
pursued, including implementation of recommendations from the 
Great Lakes Fishery Resources Restoration Study.
    Reauthorization will offer citizens of the region and the 
Nation improved sport fishing, enhanced use and enjoyment of 
wildlife, increased aquatic recreation activities, and stronger 
local economies.
    The Great Lakes Commission is an interstate compact agency 
that is founded in State and Federal law and mandated to 
represent the collective views of the eight Great Lakes States 
before the Congress and the Federal Government. Our enabling 
legislation, the Great Lakes Basin Compact, directs the 
Commission to promote the orderly integrated and comprehensive 
development, use, and conservation of the water resources of 
the Great Lakes Basin.
    The Great Lakes Commission membership, comprised of senior 
State officials, legislators, and Governor-appointees, endorsed 
S. 659 by unanimous action on April 3, 1998, when adopting its 
legislative and appropriations priorities for the second 
session of the 105th Congress. Commission support for this bill 
is based upon four observations:
    First, the bill reflects and furthers evolving resource 
management philosophies that have been embraced by the 
Commission. The Act emphasizes management by ecosystem as 
opposed to geopolitical boundaries. It features 
interjurisdictional partnerships among Federal, State, and 
tribal governments. It builds on existing authorities and 
existing institutional mechanisms as opposed to creating new 
bureaucracy. It provides the States and tribal authorities, via 
the Great Lakes Fish and Wildlife Restoration Proposal Review 
Committee, with recommendatory authority over allocation of 
grant moneys. And it positions the Federal Government to 
provide services that are well-suited to intergovernmental 
partnership, such as technical assistance, coordination, 
research, and financial support.
    Second, the bill enhances an already strong partnership 
between the U.S. Fish and Wildlife Service, the Great Lakes 
Commission, and the Great Lakes States. Service fishery 
resource offices have been established in Michigan, Wisconsin, 
and New York that have provided the region with a first point 
of contact on fisheries issues that affect the States 
individually and collectively.
    Third, the original Act provided for the Great Lakes 
Fishery Resources Restoration Study and its 32 recommendations 
that warrant serious consideration and action. The Great Lakes 
Commission recognizes the prospective benefits of study 
implementation. The 32 recommendations are focused on five 
areas that are highly consistent with the Commission's 
management philosophy: (1) coordinating and harmonizing 
programs across disciplines and Basin jurisdictions; (2) 
building upon and supporting existing programs and 
institutional arrangements; (3) strengthen the Basin's decision 
support system by promoting research, monitoring, assessment, 
evaluation, data enhancement, and associated functions; (4) 
calling for the development, funding, and implementation of 
action plans and various new initiatives; and finally (5) 
promoting public information and education.
    And finally, the Great Lakes Commission recognizes the 
reauthorization bill is supported within the Great Lakes 
community and addresses a number of State concerns with the 
original legislation. Memorandum of Understanding between the 
U.S. Fish and Wildlife Service, the Great Lakes States, and the 
Great Lakes Fishery Commission, and several tribal authorities 
has helped prepare for effective implementation of the Act.
    With regard to specific provisions in the bill, the Great 
Lakes Commission endorses the legislative language as 
presented. In particular, we applaud section 6, language that 
establishes a State and tribal committee that will review and 
offer recommendations to the U.S. Fish and Wildlife Service on 
fish and wildlife restoration proposals based on the results of 
the Restoration Study.
    Further, we concur with changes in the reauthorization 
language that provide for enhanced focus on project 
implementation, reliance on existing institutional 
arrangements, and reduction in the annual authorization from 
$10 million to $5 million, with $3.5 million of the latter to 
be made available to State and tribal partners. We emphasize 
however that appropriation of the authorized amount will be 
essential if the goals of the Act are to be fully realized.
    The Great Lakes Commission emphasizes that reauthorizing 
the Act rather than solely relying on existing U.S. Fish and 
Wildlife Service authorities is necessary to maintain and 
enhance progress under the original Act. Reauthorization will 
ensure that (1) recommendations from the Great Lakes Fishery 
Resources Restoration Study will be implemented, (2) the 
existing network of regional offices will be maintained, (3) 
the restoration proposals and resultant projects will be 
properly evaluated and targeted, (4) existing institutional 
arrangements will be used to the extent possible, and (5) the 
authorization levels will be set and targeted with an emphasis 
on project implementation.
    So, to conclude, the bill provides a much needed vehicle 
for the U.S. Fish and Wildlife Service to provide technical 
assistance, coordination, research funding, and related support 
to the collective Great Lakes fishery management effort. The 
Act builds upon existing agreements and institutional 
arrangements, provides for a Federal-State-tribal partnership, 
is action oriented, and offers a mechanism for implementing 
recommendations of the Great Lakes Fishery Resources 
Restoration Study.
    The Great Lakes Commission therefore urges support of this 
legislation.
    That concludes my remarks and I would be happy to answer 
questions.
    Senator Chafee. Thank you, Mr. Crane.
    We also would now include within the record a statement by 
Senator Glenn, a statement by Senator Abraham, and a statement 
by Senator McConnell.
    [The prepared statements of Senators Daschle, Glenn, 
Abraham, and McConnell follow:]
  Prepared Statement of Hon. Thomas A. Daschle, U.S. Senator from the 
                         State of South Dakota
    Mr. Chairman, thank you for providing me with this opportunity to 
testify today on behalf of S. 1970, the Neotropical Migratory Bird 
Conservation Act. I strongly support this bill, and believe that it 
will be of great assistance in our efforts to preserve native bird 
species.
    Some of our most valuable and beautiful species of birds--those 
that most of us take for granted, including bluebirds, goldfinches, 
robins and orioles--are challenged by habitat destruction in our 
hemisphere. It is not widely recognized that many North American bird 
species once considered common are in decline. In fact, a total of 90 
species of migratory birds are listed as endangered or threatened in 
the United States, and another 124 species are considered to be of high 
conservation concern.
    Mr. Chairman, there is no doubt of the benefit that these birds 
bring to the United States. Healthy bird populations prevent hundreds 
of millions of dollars in economic losses each year to farming and 
timber interests. By controlling insect populations, they help to 
prevent damage to crops. In addition, birdwatching and feeding 
generates $20 billion every year in revenue. Approximately 25 million 
Americans travel to observe birds each year, and 60 million American 
adults watch and feed birds at home.
    While we have taken steps to help protect these birds in the United 
States, they are also threatened by habitat destruction elsewhere in 
our hemisphere when they migrate south during winter months. For that 
reason, it is essential that we work with nations in Latin America and 
the Caribbean to establish protected stopover areas during their 
migrations. This bill achieves that goal by fostering partnerships 
between businesses, nongovernmental organizations and other nations to 
bring together the capital and expertise needed to preserve habitat 
throughout our hemisphere.
    Specifically, the Act establishes a 3-year demonstration project 
providing $4 million each year to help establish programs in Latin 
America and the Caribbean to manage and conserve neotropical migratory 
bird populations. The Act is designed to promote cooperation among 
nongovernmental organizations. The Federal share of each project's cost 
is limited to 33 percent, and half the non-Federal contribution must be 
in cash, not in-kind contributions.
    Mr. Chairman, I hope that you and the subcommittee will offer this 
bill your strong support. It has been endorsed by the National Audubon 
Society, the American Bird Conservancy and the Ornithological Council. 
I believe that it will substantially improve upon our ability to 
maintain critical habitat in our hemisphere and help to halt the 
decline of these important species. Thank you again for allowing me to 
testify in support of the bill.
                                 ______
                                 
       Prepared Statement of Hon. John Glenn, U.S. Senator from 
                           the State of Ohio
    Mr. Chairman, I would like to thank the committee for holding this 
hearing on wildlife bills. While many of these bills are ``small'' in 
comparison to others taken up by the committee this during the 105th 
Congress, they are nonetheless critically important to the regions and 
resources affected.
    I introduced The Great Lakes Fish and Wildlife Restoration Act 
(GLFWRA) of 1997 (S. 659) in the Senate in April 1997, in coordination 
with the introduction of the companion bill (H.R. 1481) in the House by 
Congressman Steve LaTourette. It's been a long process, but with the 
favorable hearing held in the House June 18th and the hearing held by 
this committee here today, I am positive that we can still pass this 
critical piece of legislation this year.
    The primary purpose of the Great Lakes Fish and Wildlife 
Restoration Act is to implement proposals that address recommendations 
put forth by the Great Lakes Fishery Resources Restoration Study. To 
this end, the Act reauthorizes the existing Great Lakes Coordination 
and Great Lakes Fishery Resources Offices. The bill also sets up a 
proposal review committee identified with the existing Council of Lake 
Committees to review grant proposals and identify projects of the 
highest priority for the restoration of the fish and wildlife resources 
of the Great Lakes Basin. The Act encourages, supports, and coordinates 
Federal and non-Federal cooperative habitat restoration and natural 
resource management programs in the Great Lakes Basin.
    The Great Lakes Fish and Wildlife Restoration Act represents a new 
generation of environmental legislation, one that recognizes the 
complexity and inter-relatedness of ecosystems. This Act seeks to 
address natural resource management in a comprehensive and 
conscientious manner by building partnerships among the Great Lakes 
States, U.S. and Canadian governments, and native American Tribes. 
Through regional cooperation, I believe we can address the 
environmental and economic concerns of the Great Lakes Basin and 
continue on the road toward the recovery of this precious natural and 
national resource. By passing this legislation, we in the Congress will 
be taking the right next step toward responsible stewardship of the 
Great Lakes as we venture into the new millennium.
    The bill enjoys widespread bicameral and bipartisan support. The 
bill has eight Senate sponsors, including myself. Twenty-eight of our 
colleagues on the House have cosponsored the companion measure. This 
bill represents the consensus of a diverse collaboration of tribal, 
State, Federal and international agencies with jurisdiction over the 
management of fish and wildlife resources of the Great Lakes. The bill 
also has received favorable review and broad support of organizations 
throughout the Great Lakes region for the approach it takes toward 
restoration of the ecological integrity of the Great Lakes ecosystem.
    This fall, as I look back on the earth from space, I will be sure 
to look down on the Great Lakes. I know that they will be a cleaner, 
safer place for both humans and wildlife to live than they were at the 
time of my last flight because of the efforts we have made over the 
past decades. With the passage of this legislation, I will also be sure 
that they will continue to become even cleaner, safer places where fish 
and wildlife communities, and the human communities who enjoy them can 
continue to prosper.
                                 ______
                                 
     Prepared Statement of Hon. Spencer Abraham, U.S. Senator from 
                         the State of Michigan
    Mr. Chairman, thank you for the opportunity to address the 
committee with respect to the ``Neotropical Migratory Bird Conservation 
Act of 1998.'' This legislation, which Senator Daschle and I 
introduced, is designed to protect over 90 endangered species of birds 
spending certain seasons in the United States and other seasons in 
other nations of the Western Hemisphere.
    Every year, approximately 25 million Americans travel to observe 
birds, and 60 million American adults watch and feed birds at home. 
Bird-watching is a source of great pleasure to many Americans, as well 
as a source of important revenue to States, like my own State of 
Michigan, which attract tourists to their scenes of natural beauty. 
Bird watching and feeding generates fully $20 billion every year in 
revenue across America.
    Birdwatching is a popular activity in Michigan, and its increased 
popularity is reflected by an increase in tourist dollars being spent 
in small, rural communities. Healthy bird populations also prevent 
hundreds of millions of dollars in economic losses each year to farming 
and timber interests. They help control insect populations, thereby 
preventing crop failures and infestations.
    Despite the enormous benefits we derive from our bird populations, 
many of them are struggling to survive. Ninety species are listed as 
endangered or threatened in the United States. Another 124 species are 
of high conservation concern. The primary reason for these declines is 
the degradation and loss of bird habitat.
    What makes this all the more troubling is that efforts in the 
United States to protect these birds' habitats can only be of limited 
utility. Among bird watchers' favorites, many neotropical birds are 
endangered or of high conservation concern.
    Because neotropical migratory birds range across a number of 
international borders every year, we must work to establish safeguards 
at both ends of their migration routes, as well as at critical stopover 
areas along their way. Only in this way can conservation efforts prove 
successful.
    The Neotropical Migratory Bird Conservation Act will protect bird 
habitats across international boundaries by establishing partnerships 
between the business community, nongovernmental organizations and 
foreign nations. By teaming businesses with international organizations 
concerned to protect the environment we will combine capital with know-
how. By partnering these entities with local organizations in countries 
where bird habitat is endangered we will see to it that local people 
receive the training they need to preserve this habitat and maintain 
this critical natural resource.
    This Act establishes a 3-year demonstration project providing $4 
million each year to help establish programs in Latin America and the 
Caribbean. These programs will manage and conserve neotropical 
migratory bird populations. Those eligible to participate will include 
national and international nongovernmental organizations and business 
interests, as well as U.S. Government entities.
    The key to this Act is cooperation among nongovernmental 
organizations. The Federal share of each project's cost is never to 
exceed 33 percent, and half the non-Federal contribution must be in 
cash, not in-kind contributions.
    The approach taken by this legislation differs from that of current 
programs in that it is proactive and, by avoiding a crisis management 
approach, may prove significantly more cost effective. In addition, 
this legislation does not call for complicated and expensive 
bureaucratic structures such as councils, commissions or multi-tiered 
oversight structures. Further, this legislation will bring needed 
attention and expertise to areas now receiving relatively little 
attention in the area of environmental degradation.
    This legislation has the support of the National Audubon Society, 
the American Bird Conservancy and the Ornithological Council. As I 
understand it, the Fish and Wildlife Service has a letter of support 
currently working its way through OMB. I expect the Fish and Wildlife 
Service will recommend several small changes and anticipate that most, 
if not all, of them will be acceptable.
    Again, Mr. Chairman, I want to thank you and the members of this 
committee for considering this legislation and allowing me the 
opportunity to comment. I look forward to working with all of you in 
the effort to enhance the protection of migratory bird habitat.
                                 ______
                                 
     Prepared Statement of Hon. Mitch McConnell, U.S. Senator from 
                         the State of Kentucky
    Mr. Chairman, I would like to thank you and the members of the 
committee for holding these hearings and allowing me to testify in 
support of S. 263, the Bear Protection Act. This legislation, is aimed 
at protecting the American bear population from the growing illegal 
trade in bear parts, in which at least 18 Asian countries are known to 
participate. The poaching of bears is a national problem that is 
destined to become worse. Currently, there are enforcement and 
jurisdictional loopholes, which exist as a result of a patchwork of 
State laws, that allow this illegal poaching to flourish. I believe 
that we have a real opportunity, if we act now, to protect the bear 
populations in this country from individuals seeking to profit from the 
slaughter and sale of the organs of these magnificent animals.
    Mr. Chairman, as you may know, bear viscera, such as gall bladders 
and bile, is a very popular ingredient in traditional Asian medicine. 
It is used to treat everything from heart disease to hangovers, and is 
also popular as an ingredient in luxury shampoos and as an aphrodisiac. 
Because of the popularity of bear parts in these products, bear 
populations, including the panda, sloth, sun, and Asiatic black bears 
have been hunted to near-extinction in Asia. All of these bear 
populations are listed under the Convention on International Trade in 
Endangered Species (CITES), Appendix I. This classification is the 
highest level of protection provided to an animal species. However, 
these bear populations remain threatened by the high demand and black 
market trade in exotic and traditional medicine cures. Moreover, 
American bear species are now in more danger, since the dramatic 
decline of bear populations outside the United States has led poachers 
to turn to American bears to fill the increasing demand.
    I am pleased to report that U.S. bear populations have, for the 
most part, remained stable. But the increasing trade in bear parts 
poses a serious threat. It is estimated that the number of black bears 
in the United States is nearly 400,000. Brown bear populations, which 
include Grizzly, are estimated at 40,000, with less than 1,000 in the 
lower 48 States.
    Each year, nearly 40,000 black bears are legally hunted in 36 
States and Canada. Unfortunately, it has been estimated that roughly 
the same number is illegally poached every year, according to John 
Doggett, former chief of law enforcement for the U.S. Fish and Wildlife 
Service. This number is expected to increase as the source of Asian 
bears declines and the demand for bear viscera continues to grow.
    According to various reports, including those from the U.S. Fish 
and Wildlife Service, hundreds of bear carcasses are turning up in the 
United States and Canada, completely intact, except for missing 
gallbladders, paws, and claws.
    Since 1981, State and Federal wildlife agents have conducted many 
successful undercover operations to stop the illegal hunting and sale 
of bear gallbladders. In 1988, Federal wildlife officials engaged in 
``Operation Smokey'' in the Great Smokey Mountains National Park. These 
efforts uncovered 368 illegal black bear kills. In 1994, an 
investigation uncovered a group arranging illegal bear hunts for South 
Koreans in California. It was determined that at least 30 to 35 bears 
were killed as a result of these trips. Last year, in Michigan, there 
was an incident reported in which a 350-pound male bear was found dead, 
having had its meat, paws, and gallbladder removed. The officer leading 
the investigation stated that ``whoever shot the bear wanted the highly 
salable parts of the animal which can bring very big prices in illegal 
trade.'' As recently as this year, undercover investigations conducted 
by State and Federal officials in California and Utah uncovered cases 
in which poachers were circumventing State laws in an effort to obtain 
bear gallbladders for sale to Asia.
    Mr. Chairman, the main reason behind these astronomical numbers is 
greed. In fact, in South Korea, bear gall bladders are worth more than 
their weight in gold, fetching a price of about $10,000 a piece! It is 
estimated that in my State of Kentucky, there are only 50-100 bears 
remaining in the wild. This is in stark contrast to the time when black 
bears roamed free across the Appalachian mountains, through the rolling 
hills of the bluegrass, all the way to the Mississippi River. 
Obviously, times have changed and we cannot restore the numbers of 
bears that we once had, but we can ensure that the remaining bears are 
not sold for profit to the highest bidder. This is a growing problem--a 
national problem--and I, for one, will not stand by and allow our own 
bear populations to be decimated by poachers.
    Currently, U.S. law enforcement officials have little power to 
address the poaching of bears and the sale of their parts in an 
effective manner. The Department of the Interior has neither the 
manpower nor the budget to test all bear parts sold legally in the 
United States. Without extensive testing, law enforcement officials 
cannot determine if gall bladders or other parts were taken from 
threatened of endangered species. This problem perpetuates the poaching 
of endangered or threatened bears.
    Mr. Chairman, due to the patchwork of State laws, poachers are 
effectively able to ``launder'' the gall through the eight States that 
permit the sale of bear parts. The outright ban on the trade, sale, or 
barter of bear viscera, including items that claim to contain bear 
parts, will close the existing loopholes and will allow State and 
Federal wildlife officials to focus their limited resources on much 
needed conservation efforts.
    The Bear Protection Act will establish national guidelines for 
trade in bear parts, but it will not weaken any existing State laws 
that have been instituted to deal with this issue. The Lacey Act, 
enacted in 1900, was the first Federal wildlife law intended to put an 
end to the interstate traffic of animals illegally killed in their 
State of origin. Unfortunately, this legislation has been ineffective 
in reducing the laundering of bear parts through those States that 
permit their sale. As long as a few States permit this action to go on, 
poaching for profit will continue.
    To effectively manage their own bear populations, States need a 
minimum level of protection. This is also true if we are to curtail the 
international trade in bear parts. Since a number of countries, 
including Taiwan and South Korea, have not signed the Convention on 
International Trade in Endangered Species (CITES), it is difficult to 
enforce this agreement. In recognition of this reality, the most recent 
CITES conference, to which the United States was a party, urged all 
parties to the convention to take immediate action to eliminate the 
illegal trade in bear parts. The United States delegation, headed by 
Donald Barry, Assistant Secretary for Fish, Wildlife, and Parks at the 
Department of Interior, coauthored the Conservation of and Trade in 
Bears Resolution, which propounded the adoption of national legislation 
to deter the illegal trade. This resolution was passed unanimously by 
the CITES convention in June, 1997. To this end, we can greatly assist 
in protecting American bear populations by passing this legislation in 
the Senate. Mr. Chairman, I request that a copy of this resolution be 
included with my statement in the record.
    This bill also instructs the Secretary of the Interior and the 
United States Trade Representative to establish a dialog with the 
appropriate countries to coordinate efforts aimed at curtailing the 
international bear trade. Obviously, efforts to reduce the demand in 
Asia are of the utmost importance. Moreover, efforts to encourage 
foreign governments to increase usage of synthetic or other natural 
products as an alternative to bear gall will greatly improve the 
situation.
    Efforts to bolster protection in Canada should also be a priority. 
Canada has mandated fewer across-the-board protections of their bear 
populations and do not prohibit the sale of bear viscera in all 
Provinces. Canada and the United States share thousands of miles of 
open border that can't possible be adequately monitored to stop 
poaching or smugglers. These actions must be stopped if we are to 
effectively protect our bears.
    It is important to note that my bill would in no way affect legal 
hunting of bears. Hunters would still be allowed to keep trophies and 
furs of bears killed during legal hunts. I believe that S. 263 is 
crafted narrowly enough to deal with the poaching of the American bears 
for profit, while still ensuring the rights of the American sportsmen.
    Mr. Chairman, it is important that we act now to protect the 
American bear population, just as it is important that Congress pass 
legislation to protect rhinos and tigers, whose populations are in 
grave danger overseas. I believe that we have the opportunity to pass 
proactive legislation to ensure that America's bears do not suffer the 
same fate as so many Asian bears or rhinos and tigers in Asia and 
Africa. If we act now, we can stop the poaching of bears, which left 
unchecked, will surely lead to their extinction.
    I would like to thank the Chairman, Senator Chafee, for holding 
this hearing. I urge my colleagues to join me, and 53 other Senators, 
in support of this much needed legislation.
    Senator Chafee. Just in passing--it didn't have anything to 
do with your testimony--how is the lamprey eel doing and how 
are you doing with that out there?
    Mr. Crane. That's still a big challenge. The Great Lakes 
Fishery Commission, of course, has the primary role for lamprey 
control in the lakes. It's been an increasing challenge over 
recent years because the lamprey do better with cleaner water 
and, as the water has been cleaned up in the Great Lakes, more 
tributaries have been available for the lamprey to spawn. So it 
continues to be a big challenge for the Great Lakes Fishery 
Commission and the other fisheries management agencies.
    Senator Chafee. Ms. Krival, as you know, the refuge 
volunteer bill that we have, S. 2244, establishes a pilot 
project to hire volunteer coordinators. You've had a lot of 
experience in all of this. What do you think of that idea?
    Ms. Krival. I think it is very important. In a recent 
training program at the National Conservation Training Center, 
I was giving a program on volunteer programs and ways in which 
they could be organized and so on, and I asked the group of 
refuge managers and National Park superintendents how many of 
them had volunteer programs. It was 100 percent. Then I said, 
``How many of you feel that they're going well?'' Well, the 
hands weren't quite so active.
    It sounds as though it should be very simple. If you get a 
hundred gung-ho volunteers who love their refuge and they want 
to do something for the refuge, it sounds as though that should 
be easily done. It's not. Somebody has to be in charge. 
Somebody has to ask the volunteer what kind of skills he has. 
Somebody has to set up a program. It really needs someone to 
coordinate.
    Senator Chafee. Well, I agree with you. It's sort of like 
getting political volunteers. They all want to go to work but 
then you've got to make sure you give them something 
constructive to do to keep their enthusiasm and match their 
talents with the jobs that might be available.
    Ms. Krival. Yes. And sometimes training them.
    Senator Chafee. And training, that's right.
    Mr. Crane, in connection with S. 659, we have so many 
existing authorities, the Clean Water Act, the Endangered 
Species Act--couldn't they implement the recommendations that 
come forward from the studies?
    Mr. Crane. We really feel that this Act is necessary 
because the coordination office that has been set up has really 
been instrumental in building partnerships in the Great Lakes 
region. A lot of the other Federal agencies have similar 
coordination offices. We feel that this has really benefited 
the Fish and Wildlife Service in having this office that 
coordinates activities not only within the agency itself, but 
also with the whole range of Great Lakes agencies and 
institutions that are present.
    So, we would hate to see that office not be available to 
the Service, and we really feel that it is best equipped to 
help implement those study recommendations. And through a 
series of MOUs, as I had mentioned, I think they really have 
the infrastructure in place to efficiently move forward and 
implement the program.
    Senator Chafee. Mr. Taylor, I don't think anybody, and 
certainly I'm sure you don't, wants any trade in the United 
States on bear parts. So what's the harm in doing it? As I 
understood the other witnesses, their point was, true, it's not 
a problem with our domestic bear population now, but it could 
well be. And there are certain anecdotal and more positive 
indications that there have been instances of the gall bladder 
or the feet, or whatever it might be, being cutoff and bodies 
of those bears discovered. So what's the harm with going ahead 
and doing efforts to prohibit it?
    Mr. Taylor. Mr. Chairman, with all due respect, I think the 
appropriate question to ask is, how are the States, where, as 
you are well aware, the legal authority and responsibility for 
conservation of bears within their borders largely lies, how 
are the States doing in management of bear populations? And the 
answer has to be, resoundingly, very well.
    As you're also aware, Mr. Chairman, we have a unique legal 
relationship in this country between the States and the Federal 
Government when it comes to management of our fish and wildlife 
resources. I think it's fair to say that that relationship and 
the conservation program that it has engendered is justifiably 
the envy of the rest of the world.
    Mr. Chairman, there would be no hesitation within the 
States to further restrict what legal trade exists now in 
indigenous bear parts or products if there was any 
substantiation at all that this was contributing significantly 
to the demand for Asian bear market or certainly to the decline 
of the U.S. bear populations. We simply cannot substantiate, 
and the Fish and Wildlife Service has corroborated this in a 
paper that they gave last year at an international symposium on 
bear parts, that there is evidence that illegal poaching of 
U.S. bear is contributing significantly to the Asian market, 
nor is there any evidence that illegal poaching of U.S. bear is 
contributing significantly to the decline of U.S. bear 
populations.
    Senator Chafee. OK. Well, I want to thank you all very, 
very much for coming, and thank the previous panels likewise.
    What we would like to do is have a markup on these various 
bills. We're shooting toward July 22, a couple of weeks from 
now.
    So thank you all very much for coming.
    That concludes the hearing.
    [Whereupon, at 10:48 a.m., the committee was adjourned, to 
reconvene at the call of the chair.]
    [Texts of bills and statements submitted for the record 
follow:]
 Prepared Statement of John Rogers, Deputy Director for the U.S. Fish 
            and Wildlife Service, Department of the Interior
    Good Morning Mr. Chairman. I am John Rogers, the Deputy Director 
for the U.S. Fish and Wildlife Service. I appreciate this opportunity 
to testify on a number of fish and wildlife bills before the committee.
    s. 1970, the neotropical migratory bird conservation act of 1998
    Let's begin with S. 1970, the Neotropical Migratory Bird 
Conservation Act of 1998. We would like to take this opportunity to 
thank Senator Abraham for his support and sponsorship of S. 1970.
    The Service--through 4 bilateral treaties--has responsibility for 
maintaining healthy populations of some 778 species of migratory 
nongame birds and 58 species of migratory game birds, approximately 350 
species of which (the so-called ``neotropical migrants'') migrate 
between the Caribbean/Latin America and North America. Migratory birds 
continue to face enormous and increasing challenges. Despite our 
current efforts, many populations of migratory birds continue to 
decline, some quite markedly. For example, 124 species of migratory 
birds are currently on the list of Migratory Nongame Birds of 
Management Concern. If population trajectories of these birds stay on 
their present course, the next place for these species will be the 
Endangered Species Act, or worse yet, possible extinction. Ninety 
species of North American birds presently are listed on ESA. Mexico 
presently lists some 390 bird species as endangered, threatened, 
vulnerable, or rare. These current and projected future losses have 
far-reaching economic, social, ecological, and recreational 
implications.
    Birds are important to us for many reasons--whether we reside in 
North America, Latin America, or the Caribbean. Birdwatching and other 
forms of bird-related recreation are tremendous pastimes in North 
America, with a growing interest in the Caribbean and Latin American 
countries. Nearly 70 million Americans spend more than $20 billion each 
year participating in bird-related recreation. Birdwatching is 
America's fastest growing major form of outdoor recreation. Birds 
prevent billions of dollars of economic losses each year by eating 
crop-damaging insect pests and weed seeds in North and Latin America 
and the Caribbean. They are important pollinators of many commercially 
valuable plants. Neotropical migratory birds are thus an important 
component of biological diversity in the Western Hemisphere. The 
American public expects the Fish and Wildlife Service to enhance its 
efforts to conserve migratory birds in support of these vast economic, 
ecological, and social benefits.
    The Service and our international partners have recognized for many 
years that only a well-coordinated strategy and set of actions on 
breeding and wintering grounds and stopover sites can prevent 
populations of migratory species from declining. Neotropical migratory 
birds spend approximately 5 months of the year at Caribbean/Latin 
American wintering sites, 4 months at North American breeding sites, 
and 3 months en route to these areas during spring and autumn 
migrations. The nature of this ``shared trust'' resource makes 
migratory bird management a true international challenge. The greatest 
challenge is to halt the precipitous declines of many of these 
species--due in major part to habitat destruction and degradation. S. 
1970 is a major step in the right direction in helping to halt and even 
reverse this trend. The legislation will aid in the international 
conservation and management of neotropical migratory birds. Severely 
declining bird species are causing grave concerns among natural 
resource managers and the public in both Caribbean/Latin American 
countries and in North America. S. 1970 will help the United States and 
our international partners reverse species declines, conserving bird 
populations before they reach the point of requiring protection under 
the ESA. Equally as important, the legislation will help keep our 
``common birds common,'' preventing the expenditure of enormous amounts 
of tax dollars and precluding the likely legal and public relations 
battles that surround listing issues.
    Mr. Chairman, this legislation goes a long way in promoting the 
effective conservation and management of neotropical migratory birds. 
We do, however, have several recommended changes that will make this 
initiative even more effective in sustaining populations of these--
declining species, in better collaborating with our international 
partners, and in garnering a groundswell of support both in North 
America and in the Caribbean/Latin America.
    As currently worded, the legislation directs attention to these 
long-distance travelers during only one part of their annual cycle. 
This premise is inconsistent with the unanimous belief among scientists 
that conservation actions are necessary in both Latin America/Caribbean 
and in North America if the population problems of neotropical migrants 
are to be stemmed. By amending section 3 of S. 1970 to include both 
U.S.-based projects as well as those in the Caribbean and in Latin 
America, conservation benefits will be maximized in wintering, 
breeding, and migration areas. Projects in the United States should be 
for the same species for which projects are being undertaken in Latin 
America and the Caribbean, thus ensuring that the projects are 
complimentary. A multi-national effort will provide an excellent 
opportunity to highlight to the American public the importance of an 
international approach to conservation. This is a win-win situation for 
the birds, the public, North America, and our international partners.
    In the Findings section of the Bill, we suggest including a 
discussion of existing initiatives that are working to improve the 
conservation of neotropical migrants. The language should include a 
clarification that the aim of this legislation is to link, bolster, and 
augment these conservation efforts rather than create new and separate 
initiatives. For example, numerous public-private bird conservation 
partnerships have been developed during the past few years but, because 
of shortfalls, have not yet maximized their contributions to bird 
conservation. Partners in Flight, the Western Hemisphere Shorebird 
Reserve Network, a colonial waterbird conservation plan, the North 
American Waterfowl Management Plan, marshbird and raptor monitoring 
action plans and thousands of North American private and public 
partners that these initiatives bring with them all stand to benefit 
from this legislation. The infrastructure and mechanisms are already in 
place for North American bird conservation. S. 1970 can provide the 
critical stimulus to deliver this conservation on the ground in very 
tangible ways.
    S. 1970 can become a perfect ``complement'' for the North American 
Waterfowl Management Plan, which has funded well over $1 billion of 
wetland habitat restoration and enhancement projects in Mexico, the 
United States, and Canada during the past decade. Collaborative efforts 
with the NAWMP would allow S. 1970 to ``partner up'' with a program 
which has a tremendous amount of leverage and is anxious to implement 
habitat projects that complement--not duplicate--the waterfowl focus of 
its habitat conservation efforts. In addition, because neotropical 
migratory birds share habitats with many other species, this 
legislation's true impact will go far beyond just neotropical migratory 
birds, including resident species in North and Latin America and the 
Caribbean.
    Regarding cost sharing in section 4(e) of the Bill, we recommend 
the requirement that a non-Federal U.S. cash match be obligatory only 
for those projects submitted by U.S. entities. Projects submitted 
directly by Latin American and Caribbean institutions would have the 
option of generating the required two-thirds match locally in either 
hard currency or in in-kind support. This approach will better promote 
the long-term sustainability of projects in host countries and will 
facilitate the participation of small, but dedicated, local entities 
with limited funding or other resources.
    Concerning committee membership in section 5, we recommend 
expanding the committee to include no more than eight additional voting 
members, at least half of whom represent non-Federal entities actively 
involved in bird conservation. Two of these additional voting members 
should be the Department of State and the U.S. Agency for International 
Development as permanent members, to ensure full coordination with U.S. 
foreign policy and USAID's ongoing 530 million per year programs to 
preserve biodiversity and habitat in Latin America and the Caribbean. 
The remainder of these positions would be rotated every 4 years. We 
also propose that the number of non-voting members be raised to a 
maximum of three from Latin America and the Caribbean to provide 
technical expertise for proposals originating from tropical locations. 
Such regional representation will also help to orient the committee to 
the realities of implementing projects in this region. Consideration 
should also be given to involving Canada as an observer/non-voting 
member of this committee. Also within section 5, concerning the duties 
of this committee, we recommend adding the function that grant 
processes be coordinated and facilitated among entities involved in 
neotropical bird conservation.
    To heighten the interest in this initiative and to increase the 
number of eligible partners through Federal matching funds, we suggest 
increasing the authorizing appropriations ceiling in section 9 from $4 
million to 58 million for fiscal year 1999-2001. I would note that 
funding for this program will be appropriated to the Department of the 
Interior and not the U.S. Agency for International Development's or the 
Department of State. As you are certainly aware, the conservation needs 
of migratory birds are great and we are confident that our private and 
State partners will show a tremendous interest in participating in this 
program.
    In conclusion, Mr. Chairman, while we support S. 1970, we believe 
that our recommended changes will substantially strengthen and improve 
this Bill.
         s. 2094, the fish and wildlife revenue enhancement act
    The next bill on the committee's agenda is S. 2094, the Fish and 
Wildlife Revenue Enhancement Act. The Administration supports strongly 
S. 2094 which would enable the Secretary of the Interior to more 
effectively utilize the proceeds of sales of certain items. Enactment 
of this bill will allow more efficient use of the proceeds received 
from the sale of abandoned or forfeited wildlife parts and products 
which are not endangered or threatened species, and do not include 
migratory birds or marine mammals. It would authorize all proceeds of 
such sales to be used for rewards and other incidental expenses as 
provided for in the Lacey Act Amendments of 1981 and the Endangered 
Species Act of 1973. The use of these funds would also be expanded to 
pay the costs associated with shipping, storage, and disposal of 
wildlife items.
    The Fish and Wildlife Service is charged with enforcing several 
laws that protect a wide variety of fish and wildlife species. The 
Service has numerous outreach programs to educate the public about 
these laws, and Service personnel routinely answer questions and help 
those who seek assistance to comply with the law. Unfortunately, 
violations do occur. Wildlife parts and products that are the fruits of 
violations of Federal wildlife laws are subject to being abandoned or 
forfeited to the United States. The majority of these items are shipped 
to the National Wildlife property Repository near Denver, Colorado, for 
storage and disposal. Those items not shipped to the Repository are 
retained at the location of the seizure and normally used for 
scientific and educational purposes.
    Currently, there are approximately 450,000 wildlife items at the 
Repository, and many additional items stored in warehouses across the 
country. The Fish and Wildlife Improvement Act of 1978 authorizes the 
Secretary of the Interior to dispose of these items in a manner that he 
deems appropriate, including, but not limited to, loan, gift, sale, or 
destruction. The Service's priority is to donate or loan these wildlife 
items to scientific and educational organizations. Recipients include 
museums where they are displayed to educate the public, universities 
where they are used for research, and elementary schools where teachers 
use them to help students learn about our world's wildlife resources. A 
wide variety of wildlife items are provided to schools for use in their 
environmental education projects through the Service's ``Cargo for 
Conservation'' and ``Suitcase for Survival'' programs.
    Between July 1, 1995, and February 1, 1997, the National Wildlife 
Property Repository received 553 boxes of forfeited or abandoned items 
consisting of 117,000 individual pieces of wildlife parts or products. 
During this period, 271 educational kits, containing 5,706 items, were 
sent to various scientific and educational organizations. These items 
were shipped at no cost to the recipient.
    Of the 450,000 wildlife items now in the Service's inventory of 
property that has been forfeited or abandoned to the United States, 
some 200,000 are surplus to the needs of scientific and educational 
programs and could legally be sold at auction. These potentially 
``salable'' items do not include migratory birds, eagles, threatened or 
endangered species, species listed on Appendix I of the Convention on 
International Trade in Endangered Species of Wild Fauna and Flora, or 
marine mammals--all of which are protected from such commercialization. 
It has taken about 10 years for this stock of surplus wildlife items to 
accumulate. Approximately 10 percent of these items have been forfeited 
to the United States pursuant to a criminal or civil action related to 
a specific violation of Federal wildlife laws. The remaining 90 percent 
were voluntarily abandoned to the United States by the alleged 
defendant(s) to avoid involvement in a proposed forfeiture action.
    We estimate that an auction of these backlogged, forfeited and 
abandoned items would generate over $1 million in proceeds. There are, 
however, insufficient appropriated funds to pay the 14 percent 
auctioneer commission, or other expenses related to such an auction. 
Currently, the Service cannot pay these costs from auction proceeds. 
Both the Lacey Act and Endangered Species Act authorize sums received 
from the sale of forfeited property to be used to pay for rewards or 
for the cost of storage of wildlife pending disposition of civil or 
criminal proceedings. No wildlife statute addresses the use of proceeds 
from the sale of abandoned property, so these funds are submitted to 
the Treasury as miscellaneous receipts and are not available for 
program operations. The Fish and Wildlife Improvement Act of 1978 gives 
the Secretary of the Interior the authority to sell forfeited and 
abandoned items, but it is silent as to how the proceeds from the sales 
may be used.
    If enacted, S. 2094 would accomplish two necessary functions. 
First, it would direct all proceeds from the sale of surplus wildlife 
property to the reward and incidental expense account, which is 
authorized by both the Lacey Act and the Endangered Species Act. 
Currently, only the proceeds from the sales of forfeited wildlife 
property are deposited in this account. S. 2094 would authorize 
proceeds from the sale of abandoned items to also be deposited in the 
reward and incidental expense account.
    Second, S. 2094 would expand the uses of the Reward and Incidental 
Expense Account to include authority to pay costs associated with 
storage, shipping, and processing of fish, wildlife, plants, and other 
property that have been forfeited or abandoned to the United States. 
This account currently may be used only to (1) pay rewards to persons 
who furnish information that leads to an arrest, a criminal conviction, 
civil penalty assessment, or forfeiture of property for any violation 
of either the Lacey or Endangered Species Acts or regulations issued 
thereunder, and (2) cover the costs incurred by any person providing 
temporary care for any fish, wildlife, or plant pending the disposition 
of any criminal or civil proceeding alleging a violation of either Act 
with respect to that fish, wildlife, or plant. Authorized costs that 
could be paid from this account would be expanded to include: (a) 
shipping of such items from one location to another; (b) storage, 
inventory, and security of such items; (c) appraisal of such items; (d) 
sale or other disposal of such items, including auctioneer expenses; 
(e) payment of any valid lien against said property; and (f) processing 
and shipping of eagles and other migratory birds to Native Americans.
    Another benefit of enacting S. 2094 would be the authority for the 
Service to use the proceeds from the sale of these items to pay for 
processing and shipping of eagles and other migratory birds to Native 
Americans. The Service recognizes its trust responsibility to Native 
Americans and the need to accommodate their religious beliefs, which 
include the use of eagles and other protected species for religious 
purposes. Over a thousand dead eagles are received annually by the 
National Eagle Repository in Denver, Colorado. Most have been either 
shot, electrocuted, died while being cared for by a rehabilitation 
facility, or hit by a vehicle. In 1996, the National Eagle Repository 
filled 1,320 requests from Native Americans for eagles (996), eagle 
feathers (82), and other raptors (242). These eagles are processed and 
shipped to Native Americans to be used for religious purposes. The 
Service supplies boxes for shipping and dry ice, and the birds are 
shipped at no cost to Native Americans.
    Mr. Chairman, we believe this bill, if enacted, would allow us to 
operate more efficiently two important programs: distribution of 
wildlife property to scientific and educational institutions and the 
distribution of eagles to Native Americans for religious purposes.
h.r. 3113, the reauthorization of the rhinoceros and tiger conservation 
act of 1994 s. 361 and h.r. 2807, the rhino and tiger product labeling 
                                  act
    Next, I'll turn to H.R. 3113, the Reauthorization of the Rhinoceros 
and Tiger Conservation Act of 1994. and S. 361 and H.R. 2807, the 
Senate and House bills for the Rhino and Tiger Product Labeling Act. 
The Department strongly supports the reauthorization of the Rhinoceros 
and Tiger Conservation Act through the year 2004 as passed by the House 
on March 30, 1998. We also support the enactment of the product 
labeling legislation as passed by the House on April 28, 1998. We 
appreciate the House's support and passage of these two bills and 
commend the Congress for its commitment and continuous support to 
conserve these important endangered species. While we are sympathetic 
to the objectives of S. 361 as introduced by Senator Jeffords and 
supported by eight cosponsors, we believe that it would be more 
practical to adopt the Rhino and Tiger Product Labeling Act as passed 
by the House.
    It is a great pleasure for me to be here today to address a subject 
of international importance, the drastic decline of rhino and tiger 
populations in Africa and Asia, due in large part to poaching for the 
traditional medicine trade. It is clear that we would not be able to 
turn this situation around without aggressive action on two fronts: 
expanded assistance to range countries to build their capacity to 
conserve rhinos, tigers, and their essential habitats; and concerted 
international pressure to halt the terrible trade in rhino and tiger 
parts and products.
    I note with great satisfaction that these are also exactly the 
areas covered by the legislation which you have asked me to address 
today, and that we are truly building a bipartisan consensus to 
continue the U.S. leadership role in conservation of these magnificent 
but imperiled species. Today I would like to summarize for you some of 
the important actions we have already undertaken for rhino and tiger 
conservation, and outline the reasons why there is an urgent need for 
more action--action which will be enormously enhanced by the 
legislation you have put forward today.
    The Interior Department, through the U.S. Fish and Wildlife 
Service, has had a long history of proactive programs on behalf of 
endangered species and their habitats in Asia and Africa. The Service's 
two decades of conservation efforts in India and South Asia, for 
example, emphasizing local institutional development and training, 
greatly facilitated local wildlife researchers and mangers protecting 
their resources more effectively. However, prior to 1994, this effort 
was chronically underfunded, particularly for programs outside of 
India, with available resources falling far short of the conservation 
needs. In Africa, the Service had built a successful program for 
elephant conservation, assisting a number of countries under the 
African Elephant Conservation Fund, but that program could at best 
produce only indirect benefits for African rhinos, despite the fact 
that rhino populations were in far more desperate straits than 
elephants.
    Let me summarize what we know of the situation facing our world's 
remaining tiger and rhino populations.
    The situation with most of the world's remaining rhinos in Africa 
and Asia is indeed very serious. Poaching for rhino horn is the major 
threat for all five species, and habitat degradation is also a 
significant threat for the Asian species which live in tropical rain 
forests. All three species of Asian rhinos are in danger of extinction, 
two critically so. The total population numbers for all three Asian 
species combined may in fact be less than the number of black rhinos 
remaining in Africa, in spite of the fact that the decline of the 
African species has received much more publicity over the last decade.
    While the overall paucity of rhino numbers is one factor of 
concern, another is their distribution. The Javan rhino is the rarest, 
with fewer than an estimated 100 individuals surviving. Most are in a 
single protected area in Indonesia, with a few more in an unprotected 
area in Vietnam. Although the Sumatran rhino numbers may be slightly 
larger, at 250-450 animals, its situation is considered the most 
critical, because of its fragmented distribution in small pockets of 
Sumatra, Peninsula Malaysia, Sabah. Tiny remnants may remain in 
Sarawak, Thailand, Myanmar, and Laos, but if they still exist at all 
their viability is very low. The Indian rhino was once in the same 
condition as the other Asian rhinos, but a vigorous effort by 
governments in India and Nepal has succeeded in increasing its numbers 
to over 2000 animals. However, this species is still under serious 
threat, particularly from poaching, and increased protection is still 
needed to ensure its survival.
    In Africa, the situation for the black rhino and the Northern white 
rhino is similar. Over the past few decades, black rhino populations 
have declined by at least 96 percent, due to poaching for the trade in 
traditional medicines and dagger handles. The Northern white rhino has 
been reduced to nine individuals in zoos and a wild population of no 
more than 30 individuals in a single national park in the Democratic 
Republic of the Congo. Only the Southern white rhino in South Africa is 
prospering; here, intensive protection and management have brought its 
numbers in the wild to almost 8,000.
    Wild tigers are arguably in even worse peril. The Cat Specialist 
Group of the IUCN-World Conservation Union has assembled information 
from government sources and independent specialists in tiger range 
countries about the status of the world's wild tiger population. Their 
best estimate--given the secretive nature of tigers and the lack of 
resources in range countries to conduct accurate surveys--is that there 
are no more than 5,000 to 7,500 remaining tigers. There are no 
comparable scientific data from earlier times, but with suitable 
habitat and prey the tiger is a prolific hunter and breeder, and there 
were undoubtedly many tens of thousands of tigers up to a century ago. 
Unfortunately, since then, loss of tiger habitat, reduction in prey 
populations, and deliberate tiger killing have taken a terrible toll: 
three of the recognized subspecies of tigers have become extinct, and 
the remaining five subspecies have come under severe threat. During 
this same time period, human populations have increased from about 1.5 
billion to nearly six billion, resulting in extensive conversion of 
forest for human use, loss of tiger habitat, and a steep decline of 
tigers and their prey. Furthermore, over the last decade, poaching and 
illegal trade--driven by the demand for bones and other parts of the 
tiger for the oriental medicine market--have become an increasing 
threat.
    In most of its 14 range countries, the tiger has adequate legal 
protection on paper. International commerce in tigers and their 
products is banned under the Convention on International Trade in 
Endangered Species of Wild Fauna and Flora (CITES), and Laos is the 
only one of the 14 range countries not a Party to CITES. Even the 
principal consumers, China, Taiwan and South Korea, have banned trade--
after strong pressure from the United States. However, despite these 
existing national and international legal mechanisms, the enforcement 
is sometimes weak or nonexistent, due to a combination of factors 
including poor communication and coordination, lack of local 
governmental support, inadequate or no local infrastructure, funds, 
personnel, or equipment.
    While the status of tigers and many rhino populations is bleak, the 
rhino situations in South Africa and India give us some reasons for 
optimism. Where governments and private conservation organizations have 
made a serious commitment to conservation, these animals can survive 
and prosper. To accomplish this, however, they need our help. This is 
the kind of help made possible by the Rhinoceros and Tiger Conservation 
Act.
      reauthorization of the rhinoceros and tiger conservation act
    The Rhinoceros and Tiger Conservation Act of 1994--patterned after 
the African Elephant Conservation Act, which has made an enormous 
contribution to restoring elephant populations--is a clear indication 
that the American people are concerned with the fate of tigers and 
rhinos as endangered species. It assigned responsibility for 
implementation to the Department of the Interior, in consultation with 
the Administrator of the Agency for International Development, for 
undertaking a rhino and tiger conservation program. Within the 
Department of the Interior, the U.S. Fish and Wildlife Service was 
given the lead to administer the Act, because of its 20 years of 
experience in administering programs in Asia and Africa. The first 
congressional appropriation to the fund was for $200,000 in fiscal year 
1996; this amount was doubled to $400,000 in fiscal year 1997 and 
another $400,000 was appropriated in fiscal year 1998.
    To initiate this new program, the Fish and Wildlife Service sent 
out a call for proposals to an extensive mailing list of potential 
cooperators, developed from its long experience with regional and range 
country agencies and organizations in Asia and Africa, including CITES 
partners and the CITES Secretariat. The Act gave clear guidance that 
priority was to be given to proposals which directly supported and 
enhanced wild rhinoceros and tiger populations and which included 
matching funds. A review panel composed of representatives from the 
Service and the Agency for International Development--a very beneficial 
partnership--was set up to evaluate proposals received and recommend 
the awarding of funds.
    During the 1996-1997 grant cycle, 68 proposals were submitted for 
consideration, and 77 new proposals have been received thus far in 
fiscal year 1998. Of the total 145 proposals received, 30 have so far 
been funded in 10 range countries in Africa and Asia, at a cost of 
$582,000 disbursed or committed. Another 25 grant applicants have been 
provided suggestions about how their proposals can be modified so that 
they might meet the criteria for approval.
    This is a small grant program, but it is amazing how much even a 
small amount of money can mean to our partners in other countries. The 
simple act of providing boots, raincoats, radios, and basic training 
can make an enormous difference in the ability of rangers in India or 
Tanzania to undertake effective monitoring and anti-poaching patrols. 
Something more intangible--but often even more important--is the boost 
to their morale when they realize that we the United States care enough 
to help them. Some examples of current projects, and what they mean to 
rhino and tiger range countries:
    <bullet> In India, the Fund is providing clothing, equipment, and 
radio networks to help guards stop poaching in Kaziranga National Park 
and Pobitora, Orang, and Laokhowa wildlife sanctuaries in Assam. While 
the Assam rhino conservation program is considered one of the best in 
the country, the lack of even the most basic protective clothing and 
equipment is illustrative of what is needed in many countries if we are 
to win the war against poaching. Project Manager Anne Wright reports 
that the new equipment provided by the Fund has given hope and 
encouragement for guards working long and dangerous assignments in 
difficult terrain. She intends to broaden this initial effort by 
obtaining critical transportation equipment and developing programs 
among local villagers to increase awareness and encourage reporting of 
illegal activity.
    <bullet> In Viet Nam, where tiger habitats are highly fragmented 
and degraded, the Fund is helping researchers map areas such as Phuoc 
Son/Tra My Reserve, which is populated by ethnic minorities and 
possibly up to 30 tigers. Tigers which kill livestock are in turn 
killed by the villagers to protect their herds or profit from poaching. 
This collaborative project will assess the tigers' presence in the 
reserve and surrounding forest and develop a model for reducing 
conflicts between human land use and tiger conservation.
    <bullet> In Tanzania, extensive poaching has fragmented and reduced 
the Tanzanian black rhino population to less than 100. The Selous Game 
Reserve, one of the largest protected areas in Africa, may be the last 
hope for survival of the black rhinoceros in that country. The Fund has 
enabled surveillance and monitoring training for field staff and a 
survey on the Selous rhino population that will yield specific 
recommendations for establishing potential Intensive Protection Zones 
in the reserve.
    In the short history of the program, the Service has received many 
comments about the utility and importance of the Fund, both within the 
United States and from other countries. Dr. Thomas Foose, of the 
International Rhino Foundation says that ``The Rhino and Tiger 
Conservation Fund is an important component of the entire package of 
partnerships. Many had origins before (the Fund), but it helps them 
flourish, and stimulates matching requirements.'' From India, Ms. 
Belinda Wright of the Wildlife Protection Society, says that ``FWS 
(U.S. Fish and Wildlife Service) is perhaps the one (organization) we 
respect the most, because we have had such a long and close interaction 
with them. They are genuinely aware of all the issues . . . they 
understand and care.''
    The Service has also developed a strong partnership with the 
National Fish and Wildlife Foundation's ``Save the Tiger Fund,'' 
serving on the Council which oversees it and coordinating reviews for 
all of the project proposals received by each program.
    The Rhino and Tiger Conservation Fund has gotten off to an 
excellent start over the past 3 years. The job has only just begun, 
however. There is much more work to do and no shortage of committed 
partners seeking our help in Africa and Asia. Reauthorization of the 
Rhinoceros and Tiger Conservation Act will send a strong message that 
the American people care deeply about these resources of commitment by 
the U.S. Government to provide sufficient funding and continued support 
to the conservation of these key representatives of the Asian and 
African continents and fill an important void.
    The Administration supports the passage of H.R. 3113 and also seeks 
some technical amendments consistent with our FY99 budget proposal to 
consolidate the African elephant, Asian elephant, and rhino and tiger 
conservation funds under a Multinational Species Conservation Fund. The 
purpose of the consolidation would be to streamline bookkeeping and 
eliminate unnecessary duplication and overhead. Separate sub-accounts 
would be retained for the Rhino and Tiger Conservation program and each 
of the other specialized programs under this Fund.
           the rhino and tiger product labeling act/h.r. 2807
    I would now like to discuss the Rhino and Tiger Product Labeling 
Act, introduced by Chairman Saxton. Chairman Saxton's bill, H.R. 2807, 
addresses a critical part of the remaining problem. Conservation 
assistance is only half of the job, however. In order to break the 
cycle of poaching and illegal trade which has devastated so many rhino 
and tiger populations, we must also work to break supply lines and 
remove rhino and tiger products from the marketplace.
    In 1993, we became aware that authorities in China and Taiwan were 
ignoring or even, in some cases, aiding and abetting a flourishing 
trade in rhino and tiger parts within their borders. It was determined 
that coordinated U.S. and international action were necessary. The 
Pelly Amendment to the Fisherman's Protective Act was invoked by 
certifying both China and Taiwan and CITES nations worked to obtain an 
international consensus on the need for corrective action. In response 
to a clear statement of our expectations for improvement in the 
situation, China took some immediate positive steps to improve their 
laws and enforcement. Taiwan failed to make similar progress, however, 
and in 1994 the President took the unprecedented step of applying trade 
sanctions. The sanctions--combined with continued efforts at 
constructive engagement--eventually resulted in enormous improvements 
on Taiwan. As a result, in 1995 the President was able to remove the 
sanctions, and the Pelly certification was lifted in 1996. With strong 
U.S. encouragement, Taiwan has continued these positive efforts.
    Unfortunately, not all of the problems with the trade in rhino and 
tiger parts is in Asia. There is also a thriving trade in medicines 
which are at least labeled as containing tiger or rhino parts in 
traditional medicine shops in major cities having large Asian 
communities all around the world--and we are not exempt from this 
problem in the United States. Recognizing this, in 1994 the Fish and 
Wildlife Service was asked to undertake a program to help remove these 
medicines from the U.S. marketplace. As a result, the Service began a 
pilot program in Los Angeles involving outreach to local Asian 
communities, incorporation of the plight of rhinos and tigers into the 
curriculum in local schools, and other community-based activities. In 
addition, in Los Angeles an interagency wildlife law enforcement task 
force has also made concentrated efforts to interdict shipments of 
wildlife products--including rhino and tiger medicines--with excellent 
results.
    The Los Angeles programs have clearly had an impact. A recent 
survey by TRAFFIC, the World Wildlife Fund's wildlife trade monitoring 
organization, found that of seven U.S. and Canadian cities, Los Angeles 
had by far the lowest incidence of medicines labeled as tiger and rhino 
medicines in traditional medicine shops. On the other hand, the survey 
also reveals the depth of the problem which we are facing in other 
cities, and highlights a continuing problem which no amount of 
educational outreach or enforcement task forces can solve--the lack of 
authority to take enforcement action against medicines which are 
labeled as containing tiger or rhino parts. Every year, Service 
wildlife inspectors all over the country routinely encounter shipments 
containing wildlife products labeled as containing protected species 
parts--especially tiger and rhino. These mass-produced products from 
Asia are destined to be sold as ``cure alls'' in traditional medicine 
shops. Investigations in Asia have clearly shown that rhino horn, tiger 
bone, and other tiger and rhino parts are used in manufacture of some 
of these medicines.
    Once these products reach the United States--even when their labels 
blatantly claim that the items contain rhino or tiger parts--the burden 
of proof is still on the Service to demonstrate scientifically whether 
the products contain what the label says. This is a time-consuming and 
expensive process. Forensics experts estimate a cost of up to $100,000 
to develop a DNA analysis test to identify any particular group of 
wildlife, such as all rhinos or all tigers, and the process would only 
work if DNA markers had not been destroyed when the product was 
manufactured. For example, if a product reported to contain tiger bone 
has been heated to high temperatures during compounding, a DNA analysis 
test could not be conclusive. The only substance which could be 
confirmed is the presence of calcium, an ingredient just as likely to 
represent cow bone and tiger bone.
    Given these results, seized items must often be returned to the 
importer because no violation of existing U.S. law can be shown. Some 
ports have chosen not to seize tiger bone products because the burden 
of proof with respect to content has made enforcement so difficult. As 
a results products claiming to contain tiger and rhino continue to be 
readily for sale. Even if some of these products contain no rhino or 
tiger parts, they serve as a smokescreen for other products which 
clearly do contain the real thing. As a result, such products continue 
to stimulate demand and feed a market that ultimately depends on the 
killing of these critically endangered species.
    H.R. 2807, the Rhino and Tiger Product Labeling Act, would close 
this major gap in our existing laws by adding new criminal prohibitions 
to the existing Rhino and Tiger Conservation Act. The Administration 
strongly supports this new measure, which is designed to prohibit the 
importation and sale of products that claim to contain rhinoceros horn 
or tiger products. The proposed prohibition on import and export of 
such products will allow us to seize these illegal substances at U.S. 
ports of entry and demand their immediate forfeiture, and the 
prohibition on sale of these products will help keep stockpiles which 
are already in the country off store shelves. Furthermore, this bill is 
fully in keeping with an international consensus on the need for such 
legislation in every country. Recognizing that trade in rhino and tiger 
medicines is a global problem, the CITES Conference of the Parties has 
adopted a series of resolutions calling on all countries to adopt new 
legislation to control this trade. Resolution Conf. 9.13, for example, 
adopted in Fort Lauderdale in 1994, urges tiger range and consumer 
countries to prohibit trade in ``. . . products labeled as containing 
parts and derivatives of tiger.'' Resolution Conf. 10.19, adopted in 
Harare last year, asks parties to ensure that ``. . . their national 
legislation effectively controls trade in all parts and derivatives of 
species used for healing purposes and trade in medicinal products 
containing or purporting to contain them.'' [Emphasis added] Other 
countries are also moving forward to implement these CITES 
recommendations: the United Kingdom, for example, has adopted similar 
legislation which has enabled it to remove 20,000 items from shelves in 
traditional medicine shops in London alone.
    We note that in passing H.R. 2807 the House adopted amendments 
recommended by the Administration to include additional authority to 
seek civil penalties and forfeiture for violations of the prohibitions, 
definitions of who is subject to the law, and establishing court 
jurisdiction.
    In summary, the Administration is strongly in favor of the adoption 
of H.R. 2807 as passed by the House. It will help to ensure that 
commercial trade in rhino and tiger medicines in the United States does 
not undermine the benefits to range countries from congressional 
appropriations to the Rhino and Tiger Conservation Fund and compound 
the cost of conserving these species in the wild. Passage of H.R. 2807 
would complement and enhance our ongoing conservation efforts under the 
Rhino and Tiger Conservation Act, the Pelly Amendment, CITES, and other 
domestic and international measures. We believe that the Rhino and 
Tiger Product Labeling Act will help continue the global leadership 
role of the United States in rhino and tiger conservation.
       s. 659, the great lakes fish and wildlife restoration act
    Next, I'll address S. 659, a bill to reauthorize the Great Lakes 
Fish and Wildlife Restoration Act of 1990. The Administration supports 
S. 659 and its House companion bill, H.R. 1481, as an important step 
forward in restoring fish and wildlife resources in the Great Lakes. I 
would like to extend my appreciation to you and the rest of the 
committee for your interest in the restoration of the fish and wildlife 
resources of the Great Lakes Basin.
                  background on the great lakes basin
    The Great Lakes Basin is the largest system of fresh water on the 
planet and home to 10 percent of the U.S. and 25 percent of the 
Canadian populations. It represents the Nation's fourth largest 
coastline and provides essential habitat for endangered species and 
breeding areas for waterfowl, migratory birds, and fish. The Nation 
relies on the Great Lakes for a myriad of uses including the 
transportation of goods, hunting, boating and recreational and 
commercial fishing.
    The Great Lakes fish and wildlife resources and their associated 
habitats are especially important to the region and represent the 
foundation on which much of the region's economic vitality depends. A 
multitude of habitat types are found throughout the Great Lakes Basin; 
from the warmer, lower lakes to the deep, cold waters of Lake Superior. 
Each habitat type supports an array of species, ranging from lake 
whitefish, yellow perch, walleye, and lake trout, to countless bird 
species, both residential and migratory. As a result, outdoor 
recreation and tourism alone provides 515 billion to the region 
annually, with almost $7 billion originating from the fishing industry. 
Much of the region's cultural heritage is also based on the basin's 
fish and wildlife resources.
    Because of the varied uses and values of the Great Lakes and the 
complexity of problems that often occur, governing bodies have joined 
together to form some of the Nation's strongest interjurisdictional 
partnerships. Problems relating to DDT and eutrophication caught the 
public's attention in the 1960's, leading to the first Great Lakes 
Water Quality Agreement between Canada and the United States in 1972. 
With the subsequent 1978 agreement, the Nation witnessed a truly 
innovative approach to natural resource management; one that looked at 
the entire basin from an ecosystem perspective.
    Decimation of fish stocks due to sea lamprey predation and over-
fishing brought forth the Convention on Great Lakes Fisheries and the 
establishment of the Great Lakes Fishery Commission (Commission). These 
developments led to an extraordinary effort to control a single 
nuisance species; an effort that continues successfully today. In 1981, 
the Joint Strategic Plan for Management of Great Lakes Fisheries was 
developed and implemented to facilitate the proper management of the 
fishery resources within the basin.
    Other issues ranging from toxic sedimentation, agricultural run-
off, aquatic nuisance species invasions, and shore erosion have all 
required similar joint efforts. They rely not on just one or two 
government entities, but on all jurisdictions, ranging from Tribes, 
States, the Federal Government, local municipalities, environmental 
groups, and industries.
       the great lakes fish and wildlife restoration act of 1990
    Recognizing the importance of the basin's fish and wildlife 
resources, and the need to manage cooperatively, Congress passed the 
Great Lakes Fish and Wildlife Restoration Act of 1990 to evaluate the 
status of the basin's fishery resources and to develop appropriate 
recommendations to address the most pressing needs.
    Since 1992, the U.S. Fish and Wildlife Service (Service) in 
cooperation with many partners in the basin, has made significant 
progress in implementing provisions in the law. In 1995, the Service 
submitted the Great Lakes Fishery Resources Restoration Study (Study) 
to Congress. The Study was developed by the Service's Great Lakes 
Coordination Office and Fishery Resources Offices in close 
collaboration with 76 State, Provincial, Tribal and Federal Great Lakes 
aquatic resource experts, in addition to representatives from academia 
and nongovernmental organizations. Four incremental drafts were 
prepared and submitted for review and comment, with improvements made 
after each review. The result was a broadly supported and widely 
heralded report containing meaningful and well-crafted recommendations.
    The study's 32 recommendations address concerns common to each of 
the Great Lakes and their watersheds and represent priorities not 
currently funded through any management agency. Recommendations range 
from eliminating nonindigenous species invasions to determining the 
impacts of hydroelectric facilities and dam operations on fish passage. 
Each recommendation was collaboratively developed and requires the 
involvement of all Great Lakes Basin partners for implementation.
    As directed by the Act, the Service also staffed and equipped 
Fishery Resources Offices in the Upper and Lower Great Lakes and a 
Great Lakes Coordination Office in Michigan. These offices have made 
great strides in managing the fishery resources of the Great Lakes. 
Current activities include:
    <bullet> developing and overseeing implementation of a fish 
community, predator/prey model for Lake Michigan, Lake Huron and Lake 
Superior;
    <bullet> participating with or chairing all Lake Technical 
Committees that provide critical information to Great Lakes management 
agencies (e.g. State & Tribal) for the proper management of Great Lakes 
fishery resources;
    <bullet> utilizing artificial astro-turf incubators for stocked 
lake trout eggs to accelerate lake trout restoration;
    <bullet> serving as technical experts to the Department of the 
Interior and the courts in the U.S. v. Michigan case and assisting in 
conflict resolution for Great Lakes fishery treaty issues in the ceded 
territories of the Great Lakes;
    <bullet> leading the development of a protocol to conduct trout and 
salmon diet studies to help evaluate availability and changes to 
critical prey species;
    <bullet> evaluating and constructing fish passage improvements in 
Lake Superior, Lake Michigan, and Lake Erie to support trust species 
restoration such as lake sturgeon and Atlantic salmon;
    <bullet> developing fish population data bases to support multi-
agency fisheries management and restoration efforts and maintaining a 
stocking data base for the Great Lakes Basin as used by all management 
entities in the United States and Canada;
    <bullet> providing assistance to the multi-agency Yellow Perch Task 
Group on Lake Michigan, charged to assess the recent cause of the 
species' drastic population decline;
    <bullet> leading a coaster brook trout and lake sturgeon 
restoration effort, including habitat improvement projects;
    <bullet> surveying for and controlling invasive species in the 
Great Lakes Basin, including ruffe, round gobi, and zebra mussel;
    <bullet> maintaining an effective sea lamprey control program in 
the Great Lakes and preserving inroads made in the restoration of lake 
trout; and
    <bullet> restoring 11,000 acres of wetlands in the Great Lakes 
Basin, including Metzger Marsh in Ohio, a premier waterfowl area as 
well as an important spawning and nursery area for Lake Erie walleye 
and the imperiled lake sturgeon.
                           comments on s. 659
    Reauthorizing the Great Lakes Fish and Wildlife Restoration Act 
represents a move from study to action. Based on the results of the 
Study, the bill directs the Service to request submission of fish and 
wildlife restoration proposals from State Directors and Tribes, in 
cooperation with other interested parties. The Great Lakes Fish and 
Wildlife Restoration Proposal Review Committee, made up of 
representatives with management authority in the basin, will then 
review submitted proposals and recommend priorities for implementation 
to the Service. Operating under the auspices of the Council of Lake 
Committees, the Review Committee will take full advantage of an 
established structure that currently helps manage the Great Lakes. 
Accepted proposals are 25 percent cost shared by non-Federal partners.
    The process of identifying, reviewing, and implementing proposals, 
as outlined in section 6(b) of the bill, continues the partnerships 
initiated under the original Act and provides a direct pathway from 
problem identification to solution. States, Tribes, and the Service 
working together, who are often in the best position to recognize 
problems and effect on-the-ground solutions, will receive much needed 
support to implement study recommendations. The Administration, 
however, seeks a technical amendment to this section by inserting ``, 
under existing authorities,'' on page 8, line 11, after ``Commission.'' 
This would clarify that the Army Corps of Engineers would continue to 
use its existing authority to work with the Great Lakes Fishery 
Commission.
    The Service supports passage of the bill to reinforce Congress' 
commitment to implementing the Study recommendations and to enable 
possible increases in the Service's budget request in the future for 
fisheries restoration efforts in the Great Lakes.
    In closing, Mr. Chairman, the Administration supports S. 659 and 
believes that it will significantly contribute to the restoration of 
one of our Nation's most important ecosystems, and in particular, the 
fish and wildlife resources on which the region depends. Progress made 
to date under the Act represents the combined efforts of Great Lakes 
Basin partners, and S. 659 continues this tradition by providing a 
necessary and timely shift from investigation of needs to on-the-ground 
action.
s. 2244, the national wildlife refuge system volunteer and partnership 
                            enhancement act
    The next bill on the committee's agenda is S. 2244, the National 
Wildlife Refuge System Volunteer and Partnership Enhancement Act. We 
would like to thank you, Mr. Chairman, for the personal interest you 
have taken in drafting legislation on this issue. I know Director Clark 
has personally conveyed this to you during refuge events in Rhode 
Island, and she regrets being unable to be here today.
    The Administration supports enactment of S. 2244, the National 
Wildlife Refuge System Volunteer and Partnership Enhancement Act. 
However, we do have an amendment to suggest.
    S. 2244 builds on the recently enacted National Wildlife Refuge 
System Improvement Act of 1997. As you know, the National Wildlife 
Refuge System Improvement Act strengthens the legal underpinnings of 
the System and emphasizes public participation in the operation of the 
System. The Volunteer bill before the committee today increases that 
emphasis on public participation and provides direction for the 
System's volunteers and its partnership organizations.
    Opportunities for the use of volunteers are currently available, 
not only on our National Wildlife Refuges, but on our national fish 
hatcheries, and in our law enforcement and ecological services field 
stations, and our regional offices. The Service is authorized to have a 
volunteer program by the Fish and Wildlife Act of 1956, as amended by 
the Fish and Wildlife Improvement Act of 1978, which states, in part, 
``The Secretary of the Interior may recruit, train, and accept the 
services of individuals without compensation as volunteers for, or in 
aid of a program conducted by the Secretary through the United States 
Fish and Wildlife Service.'' This Act further states that incidental 
expenses such as transportation, uniforms, lodging, and subsistence of 
such volunteers are authorized. The Fiscal Year 1992 Interior 
Appropriations Act also authorized the Service to use appropriated 
funds to award and recognize volunteers.
    Despite recent increases in Refuge System funding sought by the 
Administration and provided by the Congress, the shortfall in operating 
and maintenance funds for the National Wildlife Refuge System presents 
a major challenge to our ability to carry out the Refuge System's 
unique conservation mission. Reliance on volunteers and private 
donations can play an important role in addressing these needs, but we 
must recognize that this is only a partial answer.
    The U.S. Fish and Wildlife Service's volunteers play a vital role 
in helping to fulfill our mission of conserving, protecting and 
enhancing America's fish and wildlife and their habitats. Public 
interest in participating in Service programs and visiting our 
facilities continues to exceed our staff capacity and funding, and it 
is expected to do so in the future. Volunteers provide essential 
services that the Fish and Wildlife Service does not have the resources 
or staff to provide. The number of our volunteers has increased from 
4,251 in 1982 to 25,840 volunteers in 1996. Volunteer hours also have 
increased, from 128,440 hours in 1982 to over one million hours in 
1996. Our volunteers work at a variety of tasks ranging from 
construction and repair projects, to orienting and educating visitors, 
to assisting with fish and wildlife surveys and habitat improvement 
projects.
    U.S. Fish and Wildlife Service volunteers include unaffiliated 
individuals, boy scouts, girl scouts, members of the American 
Association of Retired Persons, local Friends of the individual refuge 
groups, local Audubon chapters, and school groups, to name a few. The 
Service also uses volunteers from organizations such as the Student 
Conservation Association.
    Several examples of volunteer efforts include:
    <bullet> Edwin B. Forsythe NWR volunteers assisted in piping plover 
nest surveys and population monitoring. Due to staff cutbacks the 
refuge was unable to continue its weekly waterbird surveys. The 
refuge's volunteers stepped in and the weekly surveys were done.
    <bullet> At Ash Meadows NWR two volunteers removed 240 inactive 
utility poles during April and May. They donated 504 hours and saved 
the Service $100,000.
    <bullet> At Bitter Lake NWR the Roswell Job Corps constructed a 
handicapped-accessible Watchable Wildlife overlook.
    <bullet> At Kenai Fisheries Resources Office volunteers assisted in 
a baseline survey to determine the distribution and abundance of 
northern pike in the Moose River watershed.
    <bullet> And, at Okefenokee NWR in Georgia 12 trailer pads with 
hookups were added. These volunteers were involved in lawn and sign 
maintenance, plumbing, staffing the Visitor Center, leading bird walks, 
painting, wildlife surveys, and redecking the boardwalks.
    The U.S. Fish and Wildlife Service applauds you, Mr. Chairman, and 
members of your committee for initiating this bill on volunteers. We 
greatly appreciate having the opportunity to ``brag'' about the 
Service's volunteer program and all the good things our volunteers are 
helping us to accomplish.
    S. 2244 will further encourage the use of volunteers to assist the 
Service in the management of our National Wildlife Refuges; facilitate 
partnerships between the Service and non-Federal entities to promote 
public awareness of the resources of the Refuge System and public 
participation in the conservation of those resources; and encourage 
donations and other contributions by persons and organizations to 
individual refuges and the Refuge System.
    We are particularly pleased that the bill authorizes support of 
community partnerships that promote the mission of the National 
Wildlife Refuge System. These are 501(c)(3) nonprofit groups organized 
by local citizens to support their local National Wildlife Refuge 
through grassroots volunteer efforts, fund-raising, outreach, and 
education. The clear statement of legislative direction found in S. 
2244 should boost this increasingly popular form of public/private 
interaction. These partnerships with outside organizations and 
individuals are increasingly important elements of our ability to carry 
out conservation, recreation, and education programs. The Volunteer 
bill could add considerably to our abilities to interact with the 
private sector in accomplishing the Refuge System mission.
    The bill also affirms our authority for cost share projects, which 
to date have been authorized in annual appropriation bills. The concept 
of matching funds is very effective in stimulating the donation of 
funds or in-kind services to achieve the goal of improving a refuge. A 
refuge manager with a project initiative will first evaluate their own 
field station's budget to determine if funding is available. If 
sufficient funding is not available at the field station, funding 
support from the regional or national level would then be explored. 
Permanent authorization and direction could help this program grow 
beyond its current $3.3 million size, thus leveraging available funds.
    S. 2244 would also establish a pilot program to test the effects of 
locating a volunteer coordinator at between two and 20 selected 
refuges. This 3-year program would enable us to determine what impact 
this would have on our ability to recruit and utilize volunteers, work 
with partner organizations and other non-Federal entities interested in 
cooperative projects on refuges, and promote cost-sharing projects. 
After 3 years, we would provide a report and recommendations to the 
Congress as to the future direction of this effort. We are looking 
forward to implementing this provision, and believe that the investment 
involved will pay considerable dividends.
    The bill further enhances our volunteer capability by authorizing 
the establishment of a Senior Volunteer Corps, authorizes us to provide 
for incidental expenses for the Senior volunteers beyond those 
otherwise provided to volunteers and to provide for expenses of local 
volunteers.
    The Administration endorses utilizing the talents of Senior 
volunteers to benefit our National Wildlife Refuges, but believes that 
establishment of a new Senior Volunteer Corps for the Fish and Wildlife 
Service, as provided in section 4(c), is unnecessary. The goal of 
increased utilization of senior citizens in refuge volunteer programs 
can most effectively be achieved through an interagency agreement 
between the Service and the Corporation for National Service's National 
Senior Service Corps (NSSC). The programs and infrastructure of the 
NSSC have been in existence for over 30 years, and can maximize senior 
volunteer involvement at the lowest possible administrative cost. We 
accordingly recommend that the bill be amended to reflect this.
    The last major element of S. 2244 is direction on providing refuge 
educational programs. While the Service already engages in 
environmental education programs at many refuges, the bill calls for 
unified program guidance for this activity. This guidance, and the 
greater attention to refuge education programs that is likely to 
follow, should lead to both an expansion of our efforts and greater 
community involvement in those efforts. Both will be extremely 
beneficial for the refuges and for the communities in which the 
activities occur.
    We again thank you and the committee for the interest shown in the 
National Wildlife Refuge System and for this legislation on the use of 
volunteers. Its enactment should provide a major boost for refuge 
volunteer programs and the many benefits they bring to our National 
Wildlife Refuges.
                    s. 263, the bear protection act
    Finally, I'll address S. 263, the Bear Protection Act. S. 263 is 
intended to prevent American Black Bear populations from being harmed 
as a result of the demand for bear viscera which is used in certain 
Asian medicinal products. The legislation would prohibit the import 
into or export from the United States of bear viscera, or products that 
contain or claim to contain bear viscera, and it would prohibit the 
sale, barter, or possession of bear viscera for interstate commerce. 
The bill would require the Secretary to report to the Congress on the 
bear viscera trade, and require the Secretary of the Interior and the 
United States Trade Representative to discuss bear trade issues with 
the leading countries that import or export bear viscera. Finally, it 
would impose the same penalties and sanctions as those imposed under 
the Lacey Act.
    Although significant illegal trade in Asiatic species of bear 
exists primarily to supply the Asian medicinal market, the Fish and 
Wildlife Service does not have evidence to support the claim that bears 
in the United States are threatened by the demand for bear viscera. 
Existing authorities such as the Endangered Species Act, Lacey Act, 
Marine Mammal Protection Act and the Convention on International Trade 
in Endangered Species of Wild Fauna and Flora (CITES) have been 
effective tools in addressing the illegal bear trade. With the 
exception of black bear populations in Florida and Louisiana, black 
bear populations in the United States and Canada generally are 
increasing, due in a large part to the effective wildlife management 
activities of the States. According to our records, there are over 
590,000 black bears in the United States and Canada.
    The Service currently monitors and investigates illegal commercial 
wildlife activities related to bear and bear parts under existing 
authorities. Our current controls have resulted in the detection of an 
average of 70 illegal shipments of bear and bear parts over the past 5 
years. During this time period, the Service has also been effective in 
conducting successful and productive investigations as demonstrated by 
the following statistics:
    <bullet> In 1993, there were 42 criminal cases and 1 civil case, 
involving bear or bear parts. A total of $154,755 in fines and 1,930 
days of jail time was imposed.
    <bullet> In 1994, there were 46 criminal cases involving bear or 
bear parts. A total of $25,485 in fines and 169 days of jail time was 
imposed.
    <bullet> In 1995, there were 23 criminal cases involving bear or 
bear parts. A total of $21,547 in fines and 495 days of jail time was 
imposed.
    <bullet> In 1996, there were 21 criminal cases involving bear or 
bear parts. A total of $12,534 in fines and 1,696 days of jail time was 
imposed.
    <bullet> In addition, the number of imports/exports refused that 
contained bear or bear parts increased from 65 shipments in 1993 to 77 
shipments in 1996.
    The Service has significant concerns with language contained in the 
bill that would hinder the successful prosecution of cases brought 
under the Bear Protection Act. The Lacey Act is an umbrella statute 
used to provide additional protection to fish, wildlife, and plants 
that were taken, possessed, transported, or sold in violation of State, 
tribal, foreign, or U.S. law. Literally adopting portions of the Lacey 
Act into the Bear Protection Act creates technical legal concerns that 
should be addressed prior to the final passage of this legislation.
    One example of this problem can be found in the reference to the 
Lacey Act penalties and sanctions provisions. These provisions refer 
specifically to the requirement of a violation of an underlying 
predicate law. This implies that some other law would have to be 
violated in order to impose the Bear Protection Act. The Bear 
Protection Act, as currently drafted, is intended to be a stand-alone 
statute that is not dependent on a violation of an underlying predicate 
law. To remedy this problem, specific and clear provisions must be 
written into the Bear Protection Act that would eliminate this 
potential legal technicality. There are other references to the Lacey 
Act throughout the proposed legislation that create similar problems.
    Finally, the Service has concerns with the potential increase in 
responsibilities and impact on its human and financial resources. To 
date, the Service has successfully utilized undercover investigations 
and task force operations in its prior investigations and would 
anticipate that S. 263 would result in an increase in enforcement 
responsibilities for the Service without a corresponding increase in 
funding.
    In conclusion, Mr. Chairman, the Service believes that bears in the 
United States have been adequately protected to date and that this 
legislation addresses an issue which has not been a major resource 
problem. We have certain concerns about other provisions. If the 
committee proceeds with S. 263, we would be available to assist staff 
in drafting technical corrections to address those concerns.
                                 ______
                                 
   Prepared Statement of Ginette Hemley, Vice President for Species 
                   Conservation, World Wildlife Fund
    Mr. Chairman and members of the committee, thank you for the 
opportunity to appear here today. I am Ginette Hemley, vice president 
for Species Conservation at World Wildlife Fund. WWF is the largest 
private conservation organization working internationally to protect 
wildlife and wildlife habitats. We currently support wildlife 
conservation efforts in more than 100 countries, including almost all 
tiger and rhino range nations.
    My testimony today will cover a wide range of proposed legislation. 
Regarding the Rhino and Tiger Product Labeling Act, I will provide 
WWF's perspective on why this bill is vital to helping law enforcement 
agencies police the illegal trade in rhino and tiger products, one of 
the most urgent threats facing these critically endangered species. In 
addition, I will discuss why it is crucial to reauthorize the Rhino and 
Tiger Conservation Act as an important source of support for rhino and 
tiger conservation programs. I also will offer some recommendations on 
how the proposed Bear Protection Act might be strengthened to help the 
world's most threatened bear species, and suggest amendments that would 
improve the Fish and Wildlife Revenue Enhancement Act of 1998. Finally, 
I will explain why we endorse the proposed Neotropical Migratory Bird 
Conservation Act of 1998.
    The United States has long been a leader in international wildlife 
conservation. For more than 25 years, the Endangered Species Act has 
served as model legislation for countries worldwide struggling to 
protect imperiled species such as tigers and rhinos. By addressing the 
range of threats--from poaching to illegal trade to habitat loss--the 
ESA has served as a critical weapon in the global fight to stop 
species' decline. In recent years, the United States also has taken 
unprecedented action under other laws such as the Pelly Amendment to 
the Fisherman's Protective Act to encourage stronger endangered species 
protection measures in other countries. By imposing wildlife trade 
sanctions on Taiwan in 1994 for its failure to stop the illegal trade 
in tiger and rhino products, the United States stimulated much-needed 
conservation progress, not only in Taiwan but elsewhere in Asia as 
well. And, through programs administered by the Department of the 
Interior, U.S. Fish and Wildlife Service, and USAID, the United States 
has provided critical on-the-ground support for efforts to protect 
dwindling populations of tigers, rhinos, elephants, and other 
threatened species.
          why we need the rhino and tiger product labeling act
    This committee is well aware of the crisis facing rhinos and tigers 
in the wild, and the staggering declines these species have 
experienced. Ninety-five percent of the world's wild tigers have 
disappeared since the turn of the century, with losses to poaching 
accelerating over the past decade. There are probably fewer than 6,000 
tigers remaining in the wild today. Similarly, more than 95 percent of 
Africa's black rhinos have been lost in just three decades. Today there 
are fewer than 2,500 of these animals in the wild. Asian rhinos face 
even longer odds--the Javan rhino, for instance, is down to fewer than 
70 animals in the wild today.
    We know all too well where the blame lies for these dramatic 
declines. In addition to having lost so much habitat to expanding human 
populations and uses, tigers and rhinos have been poached nearly out of 
existence for their highly valued body parts. Poaching represents the 
most immediate threat to the survival of these species, a problem to a 
large degree driven by the demand for bone, horn and other parts used 
in traditional Chinese medicines. In fact, according to international 
experts, from the mid-1980's to the mid-1990's, as many as one quarter 
of the world's tigers may have been killed to supply the international 
black market trade for their body parts, particularly bone. As 
economies and trade centers grew in East Asia including China, South 
Korea, Taiwan, and Hong Kong, so did the commerce in tiger, rhino and 
other species used in traditional medicine, in spite of a 20-year-old 
ban under the Convention on International Trade in Endangered Species 
of Wild Fauna and Flora (CITES). The direct link between international 
trade and the decline of tiger and rhino populations has become 
increasingly clear as investigations into the government trade records 
and confiscations of consumer countries such as South Korea and China 
revealed a significant volume of tiger bone and rhinoceros horn flowing 
across their borders in the early part of this decade.
    Many people do not realize that, in addition to East Asia, the 
United States is also a significant market for packaged traditional 
Chinese medicines containing or claiming to contain tiger bone, rhino 
horn, and other protected species. In January, World Wildlife Fund 
released a report produced by its wildlife trade monitoring program, 
TRAFFIC, highlighting an alarming trend. There are more medicinal 
products advertised as containing tiger bone in North American markets 
today than there were 5 years ago. According to TRAFFIC's 
investigation, which covered seven major cities in the United States 
and Canada (Atlanta, Los Angeles, New York, San Francisco, Seattle, 
Toronto and Vancouver), over 40 percent of the nearly 110 traditional 
medicine shops surveyed had tiger and rhino medicines for sale. 
Investigators found 31 different types of tiger and rhino medicines 
available, the vast majority made in China. Mr. Chairman, I would like 
to submit a copy of the TRAFFIC report for the record.
    Why, in spite of the Endangered Species Act, CITES, the Lacey Act 
and other laws, are these products readily available for sale on the 
U.S. market? We see three primary reasons: (1) inadequate enforcement 
of existing import prohibitions established under the Endangered 
Species and Lacey Acts; (2) lack of domestic legislation prohibiting 
the sale of products labeled as containing endangered species; and (3) 
lack of public awareness about the illegality of such products and the 
threats to tigers and rhinos in the wild.
    Inadequacies in laws regulating domestic tiger and rhino trade have 
attracted increasing scrutiny in recent years. At each of the past two 
Conferences of the Parties to CITES in 1994 and 1997, resolutions were 
passed calling on member governments to strengthen legislation 
controlling trade in tiger and rhino parts, including the prohibition 
of internal trade in these species and their derivatives as well as in 
products labeled as containing their parts or derivatives. Fortunately, 
China, Taiwan, Hong Kong, and Singapore have strengthened their laws to 
comply with the CITES recommendations, which has had an important and 
measurable effect on dampening the illegal trade. Unfortunately, the 
United States has still to act.
    The United States has allowed a fundamental weakness in current 
trade controls to remain, which makes it relatively risk-free to sell 
rhino and tiger medicinal products in this country. Although import of 
and interstate commerce in rhino and tiger medicines are prohibited 
under both the Endangered Species and Lacey Acts, these laws place the 
burden of proof that a product actually contains the prohibited 
wildlife ingredients upon the government. Forensic analysis of these 
products is costly, time-consuming, and often inconclusive, presenting 
a powerful disincentive to prosecuting suspected violations. The Rhino 
and Tiger Product Labeling Act would allow enforcement agencies to take 
immediate action against anyone caught importing, exporting or selling 
products claiming to contain tiger or rhino.
    Controversy continues over whether products in the U.S. marketplace 
do in fact contain endangered wildlife ingredients. Their low cost and 
widespread availability would seem to defy the laws of supply and 
demand. However, if these products contain even trace amounts of tiger 
bone or rhino horn--and investigations into the factories in China 
where these products are made suggest that this could well be the 
case--the sheer volume of sales of these products represents an 
imminent threat to the survival of these critically endangered species. 
Furthermore, even if they contain no rhino or tiger derivatives, the 
promotion of these products in the marketplace stimulates the demand 
for real rhino and tiger medicines, and makes consumers less receptive 
to medicinal substitutes made from non-endangered species.
    To address this problem, Congress should pass legislation similar 
to H.R. 2807, the Rhino and Tiger Product Labeling Act and make it 
illegal to sell any product that purports to contain rhino or tiger. 
Next, the U.S. Fish and Wildlife Service should implement a 
coordinated, national strategy for interdiction of these illegal 
products. The January 1998 TRAFFIC study helps pinpoint where attention 
is most needed. Notably, Los Angeles, the one city where the Federal 
Government has made a concerted effort to enforce the import laws and 
increase public awareness, ranked as the ``cleanest'' city for 
endangered species medicines in the study. Finally, the conservation 
community and Federal and State agencies responsible for wildlife trade 
control must work closely with traditional Chinese medicine and Asian 
communities to raise awareness about both the trade problem and the 
plight of the endangered species involved. be must work together to 
find and advocate culturally appropriate substitute medicines.
    Since the beginning of this year, WWF has been working with the 
American College of Traditional Chinese Medicine to build public 
support for tiger conservation within the Chinese community in San 
Francisco and reduce demand for tiger and other endangered species 
medicines. In June, we held a first-of-its-kind conference, attended by 
150 participants and bringing together tiger experts, conservationists, 
wildlife trade specialists, traditional Chinese medicine (TCM) 
practitioners and retailers, TCM educators and students, Chinese 
language school teachers, and Chinese American community leaders, to 
formulate a collaborative strategy to conserve tigers and reduce demand 
for tiger bone medicines. The conference was productive even beyond 
expectations and laid the groundwork for meaningful grassroots tiger 
conservation actions to come. Representatives from the TCM retail 
association declared their support of the Rhino and Tiger Product 
Labeling Act and hope to see it enacted without delay.
    Mr. Chairman, the House of Representatives passed the Rhino and 
Tiger Product Labeling Act, H.R. 2807, in April. We urge you, as a 
matter of priority, to pass legislation similar to H.R. 2807. Every 
reasonable measure must be undertaken to save the world's remaining 
rhinos and tigers, and this legislation is a critical part of our 
international conservation efforts.
   the rhinoceros and tiger conservation reauthorization act of 1998
    We have all heard the grim statistics about the dire status of 
tigers and rhinos. Equally deserving of recognition, though, is the 
heartening progress made in recent years toward halting and reversing 
these trends. In 1985, a survey of tigers in the Russian Far East 
reached the alarming conclusion that only about 250 of these animals, 
the world's largest tigers, remained. In the chaotic aftermath of the 
breakup of the former Soviet Union in the early 1990's, poaching 
escalated further. Russian and international conservationists and many 
governments, including the United States, quickly joined forces--and 
contributed financial resources--to shore up protection for tigers. A 
1996 survey counted as many as 475 tigers in Siberia--strong evidence 
that the population appears to be rebuilding.
    There are rhino success stories as well. In Royal Chitwan National 
Park in Nepal, a population of greater one-horned rhinos that numbered 
about one thousand at the beginning of the century had shrunk to a 
seemingly doomed 60 individuals only two decades ago. Today, this 
population is estimated at a robust 450 rhinos, thanks to intensive 
conservation efforts--made possible by steady funding--that have staved 
off human encroachment and reduced poaching incidents to near zero. In 
Africa, black rhinos also have benefited from vigorous protection 
measures that have helped many populations stabilize during this decade 
after the poaching carnage of the 1970's and 1980's.
    The message here is simple: the situation for tigers and rhinos is 
critical, but it is by no means hopeless. When financial support is 
available and reliable, the improvements can be rapid and dramatic. We 
know what needs to be done. We have better data on these species and 
their habitat, closer international coordination among stakeholders, 
and a more strategic vision than ever before. An example of research 
that pinpoints specific places and projects for tiger protection is A 
Framework for Identifying High Priority Areas and Actions for the 
Conservation of Tigers in the Wild, a joint publication of World 
Wildlife Fund, the Wildlife Conservation Society, and the National Fish 
and Wildlife Foundation's Save the Tiger Fund. This report delineates 
25 remaining habitat areas where tigers stand the best chance of long-
term survival. By concentrating on these 25 areas, we can maintain 
representation of tigers across their full range. The report also 
analyzes the viability of existing tiger reserves, pointing out that 
many are too small to sustain tiger populations, and that many tigers 
live outside reserve boundaries. Ultimately, each critical tiger 
habitat area should contain a network of tiger reserves surrounded by 
buffer zones where limited human activities are permitted and linked by 
corridors that allow tigers to disperse among once-isolated islands of 
habitat. Securing such protected area networks--and the tiger's 
future--hinges upon securing long-term investment from sources like the 
Rhino and Tiger Conservation Fund.
    Working with rhino experts and international partners such as the 
World Conservation Union (IUCN), WWF has developed a comparable 
recovery strategy for African rhinos, and will complete a strategy for 
Asian rhinos later this year. WWF's African Rhino Action Plan 
identifies key rhino populations--those with the greatest probability 
of long-term survival and sets out a blueprint for achieving stable 
rhino populations. Priority projects such as expanding rhino reserves 
and intensifying anti-poaching efforts require a major commitment of 
resources at a time when many African countries have scaled back 
wildlife conservation budgets in response to other pressing development 
needs. And wildlife management agencies in many Asian countries are no 
better off financially than those in Africa. Here, too, funding from 
the Rhino and Tiger Conservation Fund is a critical complement to the 
support already coming for rhino conservation from other private and 
public sources.
    As with the African Elephant Conservation Fund, widely recognized 
as a success, the Rhino and Tiger Conservation Fund represents a long-
term commitment by the United States government to these threatened 
species. While the United States supported 31 important projects in 
fiscal year 1996 and fiscal year 1997, many remained unfunded and the 
number of proposals to the Fish and Wildlife Service continues to 
rapidly increase. The fund, which must be shared among tigers in 14 
countries and five species of Asian and African rhinos, is spread far 
too thin. Although the Rhino. and Tiger Conservation Act authorizes up 
to $10 million a year, only $400,000 per year has been appropriated. We 
understand that the Senate Appropriations Committee did not approve 
additional funding in the fiscal year 1999 Interior Appropriations bill 
(or the Rhino and Tiger Conservation Fund. We strongly urge the members 
of this committee to support an increased appropriation for this fund, 
to at least $1 million for fiscal year 1999. This additional investment 
will make a significant and measurable difference for these imperiled 
species.
                        the bear protection act
    World Wildlife Fund greatly appreciates the interest of Senator 
McConnell and the other cosponsors of S. 263, the Bear Protection Act, 
in improving the conservation status of the world's eight bear species. 
We would like to offer the following information and recommendations 
with the aim of ensuring that any legislation passed by Congress 
effectively contributes to global bear conservation.
    There is little question that most populations of the world's eight 
bear species have experienced significant declines during this century, 
particularly in parts of Europe and Asia. Habitat loss has been the 
major reason for this decline, although overhunting has also been a 
factor in some cases, especially in Asia. In recent years, the 
commercial trade of bear body parts, particularly gall bladders, for 
use in traditional Asian medicines has been implicated as the driving 
force behind the illegal hunting of some bear populations. Although 
substantive evidence linking widespread poaching to such trade is 
scant, analyses by the U.S. Fish and Wildlife Service, TRAFFIC, and 
other organizations have documented the existence of illicit commercial 
markets and smuggling rings for bear body parts. While the scope and 
impact of this trade on bear populations is not known, recent analyses 
suggest that the consumer market for wild bear body parts may have 
declined in recent years. However, the relatively high value of wild 
bear parts, particularly viscera, on the international market warrants 
that continued action be taken to minimize the threat or potential 
threat of illegal trade.
    Fortunately, bear populations in North America, particularly those 
of the American black bear, remain among the healthiest in the world. 
In spite of occasional documented reports of illegal trade in black 
bear body parts associated with the traditional Asian medicine trade, 
State wildlife management authorities indicate black bear populations 
are generally stable or increasing throughout the country, in some 
cases dramatically. With the exception of the Louisiana and possibly 
Florida subspecies, the American black bear is not considered 
threatened or endangered. Further, there is no indication that these 
populations have been negatively impacted by poaching for commercial 
trade. While populations of the grizzly bear and polar bear receive 
Federal protection because of their more precarious status, there is 
very little evidence of trade in their body parts for Asian medicinal 
markets and a link between illegal hunting and commercial medicinal 
trade.
    Although specific information on the scope and impact of trade is 
lacking, the biannual Conference of the Parties to CITES in June 1997 
recognized the potential threat of illicit trade in bear parts and 
adopted a resolution, cosponsored by the United States, urging the 143 
CITES member nations to strengthen their enforcement of bear trade 
controls, eliminate illegal markets for bear products, engage all 
stakeholders to help reduce illegal trade, and otherwise improve the 
implementation of CITES bear trade controls. CITES stopped short of 
advocating a complete ban on the trade of parts from Appendix II-listed 
bears, but singled out the Asian bear species--most of which are listed 
on Appendix I--as in particular need of conservation action and 
funding.
    The American black bear is listed on Appendix II of CITES due to 
similarity of appearance to other listed bear species, and conservation 
and management of the black bear remains largely in the hands of the 
States and Canadian provinces. Most States already prohibit the 
commercial trade in bear parts, but seven (Idaho, Maine, New Hampshire, 
New York, Vermont, West Virginia, and Wyoming) apparently still allow 
commercial trade of products from bears taken within their borders. 
Several other States do not explicitly prohibit the commercial trade in 
parts from bears taken within the borders of other jurisdictions. 
Although there is concern that inconsistent State laws may facilitate 
illegal trade and laundering of bear parts, there is little evidence to 
indicate that this is a major or widespread problem.
    Given the above information, WWF urges the committee to consider 
the following recommendations in its deliberations over the proposed 
Bear Protection Act:
    Findings. The proposed legislation does not reflect the most up-to-
date information on the conservation and legal status of the world's 
eight bear species, current knowledge of the illegal bear trade, and 
recent actions undertaken by CITES to address the problem. We recommend 
that such information be referenced in the Findings section of the bill 
and be elaborated fully in the legislative report.
    Review of the Illegal Bear Trade in the United States. Most 
information on the illegal trade of bear parts in the United States is 
based on anecdotal information and there is a clear need to better 
define the issue. To do this effectively, we believe it is necessary to 
undertake a broad review of the trade, to accurately assess problem 
areas so that enforcement resources can be appropriately applied. We 
recommend that the proposed Bear Protection Act direct the Department 
of the Interior to conduct, in cooperation with State fish and wildlife 
agencies, an assessment of the illegal trade in bear viscera in the 
United States and its impact on wild bear populations in North America 
and elsewhere, and examine the links of such activities to the Asian 
medicinal trade. Such data are essential to responsible trade control 
and enforcement. The legislation also should authorize the funding 
needed to undertake such an assessment.
    Prohibitions. While we recognize that the Federal Government has an 
appropriate role to play in controlling the import and export of 
wildlife products, particularly for CITES or federally listed species, 
we question the need at this point for broad prohibitions on interstate 
trade and commercialization of bear products, pending the outcome of a 
review as outlined above. As noted previously, most States with bear 
populations have already enacted legislation to control bear trade. We 
urge Congress to consider providing the Interior Department with the 
authority to impose broader trade restrictions, but only if further 
analysis indicates that such action is warranted. A similar approach is 
embodied in the African Elephant Conservation Act, and was effectively 
employed by the United States to address the illegal ivory trade in the 
late 1980's.
    Funding for Enforcement. Strengthened enforcement is essential to 
achieving the long-term aims of the proposed Bear Protection Act, yet 
the draft legislation does not authorize any funding to ensure that new 
trade control measures can be adequately implemented. Without 
additional funding, this legislation will provide little new protection 
for the world's bears. Should the Bear Protection Act go forward, we 
urge that moneys for such activities be authorized as a matter of 
priority.
    Funding for Conservation of Endangered Bear Species. The aim of the 
Bear Protection Act is to ensure the long-term viability of the world's 
eight bear species and to perpetuate healthy populations of American 
bears. Yet the proposed legislation does nothing to directly aid 
conservation of the world's most endangered bear species. We strongly 
urge the Bear Protection Act to include a provision authorizing 
specific funding to support priority conservation activities for 
endangered bears. Such action has been recommended by CITES, and is 
essential to achieving long-term viability of bear populations 
globally. In moving to enact stricter trade measures, we believe that 
the United States also has a responsibility to directly assist other 
countries in the conservation of the most endangered bear species.
         the fish and wildlife revenue enhancement act of 1998
    World Wildlife Fund is well aware that the U.S. Fish and Wildlife 
Service has accumulated an enormous volume of forfeited and abandoned 
wildlife products, despite measures to use and distribute such products 
in educational and scientific programs. We appreciate that the costs of 
shipping, storing and distributing these products can be substantial, 
and that the funding required for such activities can compete with 
funding needed for higher priority activities such as wildlife 
enforcement and education.
    WWF strongly supports and encourages the Service to continue, and 
where possible expand, educational initiatives that utilize forfeited 
and abandoned wildlife products, such as the Suitcase for Survival and 
Cargo for Conservation programs, with which WWF and the American Zoo 
and Aquarium Association have collaborated. WWF sees such educational 
efforts as the best and most appropriate means to dispose of forfeited 
and abandoned wildlife goods. It is critically important to educate 
present and future wildlife consumers about the detrimental effects of 
illegal wildlife trade on endangered and threatened species, and using 
forfeited wildlife products to deliver this message can be a powerful 
tool.
    Two points remain clear, however. First, these important programs 
operate successfully only at a substantial cost to the Service, and 
second, even with such programs, a large surplus of forfeited and 
abandoned wildlife goods will, unfortunately, likely remain.
    WWF sees the potential benefits to the Fish and Wildlife Service of 
selling certain forfeited and abandoned wildlife products made from 
non-endangered species, if the proceeds of such sale can be directed 
back into educational, scientific, and other conservation-related 
activities. At the same time, we recognize that selling certain 
forfeited and abandoned wildlife could potentially stimulate a market 
for such wildlife, which is not in the interest of the Service nor the 
species concerned. We therefore recommend that Congress direct the 
Service to use caution and prudence when proceeding with such sales, 
including evaluating affected species listed under Appendix II of CITES 
and species which may be legally protected in countries which are part 
of the natural range.
    I want to emphasize, Mr. Chairman, that WWF strongly opposes the 
sale under any circumstances of any wildlife or wildlife products made 
from species listed under the Endangered Species Act, the Marine Mammal 
Protection Act, the Migratory Bird Treaty Act, or Appendix I of the 
CITES (Convention on International Trade in Endangered Species of Wild 
Fauna and Flora). If such sale is not in violation of the strict letter 
of these laws and agreements, it would clearly undermine their intent, 
and potentially threaten the survival of the affected species.
    Finally, Mr. Chairman, WWF is concerned that, in its current form, 
the Fish and Wildlife Revenue Enhancement Act of 1998 allows the use of 
revenue to pay only for conducting wildlife sales and the costs 
associated with the storage and shipment of forfeited and abandoned 
wildlife. While we appreciate that this is the main intent of the 
legislation, we suggest that a provision be made for using any excess 
revenues above and beyond the costs of sale, storage, and shipping for 
other related conservation and educational activities.
    WWF therefore recommends that the committee consider the following 
in its deliberations over the proposed legislation:
    <bullet> We recommend that the Fish and Wildlife Service develop a 
formal system of evaluating options and setting priorities for disposal 
of forfeited and abandoned wildlife that takes into account possible 
uses for educational, scientific, and Native American religious 
purposes, and encourages such uses as the preferred means of disposal; 
and which also evaluates on a tax-specific basis the conservation and 
legal status of affected species in their country of origin. We believe 
that special scrutiny should be used for species that would generally 
be allowed legally into U.S. commerce, but which might be subject to 
certain protections or conservation measures in parts of their range.
    <bullet> We suggest that language be added that clearly specifies 
that the sale of species listed on CITES Appendix I, the Endangered 
Species Act, the Marine Mammal Protection Act or Migratory Bird Treaty 
Act will not be allowed.
    <bullet> We recommend that language be added that would allow for 
the use of any excess revenues generated by an auction for related 
conservation or educational purposes, perhaps through the creation of a 
special fund.
        the neotropical migratory bird conservation act of 1998
    Populations of neotropical songbirds such as wood warblers, vireos, 
and orioles continue to decline across North America. Some 90 species 
are listed endangered or threatened in the United States, while another 
124 species are considered to be of high conservation concern. The 
primary reasons for these declines are habitat loss and degradation. 
Since neotropical migrants range across numerous international borders, 
successful conservation depends on protecting them at both ends of the 
migratory routes--in their wintering grounds in the tropics and 
subtropics and in their northern breeding habitat areas--as well as at 
critical stopover sites along the way.
    The proposed Neotropical Migratory Bird Conservation Act would 
provide much-needed support for projects aimed at protecting critical 
habitat for declining migratory bird species, in an innovative way that 
promotes conservation partnerships and cost-sharing through joint 
Federal and non-Federal support mechanisms. Projects funded under the 
new law would be aimed at enhancing the conservation of migratory bird 
species in Latin America and the Caribbean, with a special emphasis on 
reversing habitat loss and degradation. Projects also would include 
mechanisms to ensure adequate local public participation and 
consultation with appropriate local government officials and entities. 
World Wildlife Fund believes these approaches are essential for 
effective conservation of threatened migratory bird species in both the 
southern and northern hemispheres.
    World Wildlife Fund supports passage of the Neotropical Migratory 
Bird Conservation Act as an important new tool for establishing 
protection regimes for crucial habitat areas for migratory bird species 
in Latin America and the Caribbean. At the same time, we would note 
that, while loss of wintering habitat in tropical wintering grounds and 
destruction of feeding and resting sites along migration routes are 
contributing significantly to the decline of many species, recent 
studies suggest that a major contributor to the decline of neotropical 
migrants is the scarcity of habitat where bird populations can breed in 
sufficient numbers to maintain populations. Over the vast landscapes of 
eastern North America, for example, only a few sites are large enough 
to allow bird populations to maintain positive rates of reproduction. 
The vast majority of land in the region consists of forest blocks that 
are so small, fragmented, or isolated that most bird nests suffer very 
high egg and nestling mortality from small predators, or from intensive 
parasitism by cowbirds. The highest mortality rates are associated with 
forest edges; only in larger forest blocks is there sufficient core 
habitat buffered from high predation and parasitism.
    Maintaining larger blocks of intact forest as ``source pools'' for 
migratory species thus increasingly appears to be an important strategy 
for conserving migratory songbirds across North America. Key forest 
blocks acting as significant breeding areas for migratory songbirds 
need to be identified, the threats to them analyzed, and areas with the 
potential for habitat restoration and regeneration defined. World 
Wildlife Fund urges the committee to consider this in deliberations 
over the Neotropical Migratory Bird Conservation Act, and to allow for 
habitat protection and research efforts in North America to be 
supported as part of any new legislative initiative.
    Thank you for the opportunity to appear before the committee today. 
Mr. Chairman, I will be happy to answer any questions.
                               __________

                          While Supplies Last

   The Sale of Tiger and Other Endangered Species Medicines in North 
                           America 1996-1997
                       edited by andrea l. gaski
Executive Summary
    Rhinos and tigers are among the most critically endangered large 
mammals in the world and are the focus of extensive global conservation 
efforts aimed at halting their decline. Consumer demand for and trade 
in the parts and derivatives of these species supply luxury markets as 
well as markets for cultural and medicinal needs. One of the most 
complex and far-reaching of these demands is for use in traditional 
medicines. Traditional Chinese medicine (TCM) uses these animal 
derivatives to prepare medications in two forms--as individually 
prepared prescriptions and as over-the-counter packaged medicines. Most 
of the latter medicines are manufactured in China and are sold in 
markets worldwide.
    While the illegal trade in raw products of endangered species is an 
undisputed problem, conservationists have long debated the degree of 
threat posed by the trade in prepared medicines containing or claiming 
to contain protected and regulated species. But most conservationists 
believe that whether or not the medicines always contain these species, 
the advertising and promotion of such ingredients sustains consumer 
demand for them and perpetuates the conservation problem. As such, 
these products should be treated as if they contain these derivatives 
and their trade should be prohibited or regulated as dictated by the 
Convention on International Trade in Endangered Species of Wild Fauna 
and Flora (CITES).
    Commercial trade of raw rhino horn and tiger or leopard bone and 
their derivative products is prohibited by CITES (all species are 
listed in Appendix I of the Convention), as well as by domestic 
legislation in several countries, including Canada, the United States, 
and China. In Canada and the United States, the burden of proving that 
those products actually contain the species listed rests with the 
government. Unfortunately, although seizures occur at the port of entry 
when products are occasionally intercepted, few, if any, prosecutions 
of those dealing in these medicines have taken place because current 
forensic techniques are as yet unable to detect many of the derivatives 
in these products. The offer for sale of these otherwise illegally 
imported medicines continues because of lack of a strong law 
enforcement deterrent and, presumably, lack of consumer awareness about 
the problem. Conservationists believe that the ongoing availability of 
these products in North America constitutes a violation of CITES and of 
domestic legislation, is a threat to the species concerned, and should 
be stopped by wildlife law enforcement agencies.
    TRAFFIC North America investigated the display and sale of 
endangered species products in two Canadian and five U.S. cities 
beginning in late 1996 through fall of 1997. TRAFFIC focused on North 
American Chinatowns because of the concentration of shops that 
presumably sell those products and because these neighborhoods are 
visited by Chinese and non-Chinese alike. The TRAFFIC investigator 
posed as a customer but did not make any attempt to deceive any shop 
owner into offering to sell a product that might not normally have been 
readily available in the shop.
    TRAFFIC gathered information on offers to sell medicines that 
contained or claimed to contain legally protected species--rhino 
(Rhinocerotidae spp.), tiger (Panthera tigris) and leopard (P. pardus). 
TRAFFIC also collected information on medicines that contained or 
claimed to contain legally regulated species--musk deer (Moschus spp.) 
and bear (Ursidae spp.). Legally protected species are those that 
cannot be commercially imported into Canada and the United States for 
commercial purposes under CITES provisions. Legally regulated species 
are those that are governed by CITES and that generally may be imported 
with a permit from the country of origin or reexport.
    Of the 110 shops surveyed, 50 percent offered for sale one or more 
protected species medicines or medicines or products that contained or 
claimed to contain the target protected species--tiger, rhinos, and 
leopard. The medicines most commonly found offered for sale were those 
that contained or claimed to contain tiger parts and products, although 
musk deer products were almost as common. The least commonly found 
medicines were those containing or claiming to contain bear parts and 
products. At least 31 different types of rhino-or tiger-containing 
medicines, produced by between 29 and 34 different manufacturers, were 
found offered for sale during the survey. The cities with the greatest 
proportion of shops that offered for sale medicines containing 
protected species which were presumably illegally imported are, in 
descending order: New York, Vancouver, Seattle, Toronto, Atlanta, San 
Francisco, and Los Angeles.
    TRAFFIC concludes that:
    <bullet>  Protected species medicines are readily available in 
North America
    <bullet>  Protected species medicines are available because of 
legal inadequacies
    <bullet>  North America appears to be significant market for these 
medicines
    <bullet>  Illegal stockpiles of these medicines may exist
    <bullet>  Public outreach must be initiated to eliminate these 
markets

    TRAFFIC recommends that:
    <bullet>  Regional law enforcement must be increased
    <bullet>  Legislation to control internal trade needs to be 
strengthened
    <bullet>  Stockpiles and manufacturers should be identified and 
inventoried
    <bullet>  Collaborative North American public outreach efforts are 
required
    <bullet>  U.S. governmental funding for tiger and rhino 
conservation and trade control efforts should be increased

    In the 12-year Chinese calendar, 1998 is the Year of the Tiger. It 
is also the 25th anniversary of CITES--the Convention on International 
Trade in Endangered Species of Wild Fauna and Flora. The coincidence of 
these two auspicious events, one in Chinese culture and one in wildlife 
conservation, provides an appropriate backdrop to the release of this 
report, which is part of a two-part research project on the market for 
and use of rhinoceros and tiger products in North America. The project 
was designed to assist the CITES parties, North American governments, 
and other interested organizations and agencies in reducing and 
eventually eliminating the demand for wild tiger and rhino parts in 
North America.
    Rhinos and tigers are among the most critically endangered large 
mammals in the world and are the focus of extensive global conservation 
efforts to halt their decline. Although habitat loss was and is the 
primary cause of the decline of these animals, international illegal 
trade of their parts and derivatives is also of intense 
concern.Consumer demand for and trade in these parts and derivatives 
supply luxury markets as well as markets for cultural and medicinal 
needs. One of the most complex and far-reaching of these demands is for 
use in traditional medicines. Hundreds of millions of people throughout 
the world depend on traditional medicine systems that, in turn, depend 
on wild animal and plant derivatives as ingredients of medicines and 
tonics. Conservationists believe that uncontrolled demand--particularly 
of endangered species, such as tigers and rhinos--is a threat to those 
species' survival. Examples of the species used in traditional medicine 
along with the disorders and illnesses they are intended to treat 
appear in Table 1.
    Spearheading the international initiative to halt the trade of 
tiger and rhinoceros parts, the parties to CITES passed two resolutions 
in 1994 (see appendices 1 and 2) that highlighted ongoing problems with 
illegal trade of these species. The resolutions requested that the 
CITES parties and other relevant organizations escalate their law 
enforcement efforts to halt persistent poaching and illegal trade to 
eliminate demand for rhino and tiger products, and to consolidate 
stockpiles of tiger parts and derivatives. In 1997, the CITES parties 
strengthened the tiger resolution, asking the CITES Standing Committee 
to periodically provide annual updates on country-by-country progress 
in law enforcement efforts and legislative amendments to stop the 
illegal trade. During discussions before the passage of this amended 
resolution in 1997, many parties affected by the export ban strongly 
expressed their concern that some countries, particularly developed 
countries, were not making a sufficient effort to eliminate the trade 
in products labeled as containing tiger parts or derivatives.
    At the same time, CITES parties passed another resolution (see 
appendix 3) recommending that parties increase collaborative public 
awareness efforts within the traditional medicine industry and medical 
systems. The parties determined that these efforts needed to focus on 
conservation of over exploited wild species, such as rhinos and tigers. 
The resolution also recommended that law enforcement be increased, 
forensics analyses be developed or improved, substitutes or 
alternatives be sought, and captive-bred or artificially propagated 
sources of wild specimens be developed. A number of nongovernmental 
organizations responded to the CITES requests that countries develop 
public outreach projects and materials and provide technical support. 
The international TRAFFIC Network, which now consists of 20 offices 
worldwide, provides governments with up-to-date information on these 
exploited species to help develop a profile of the trade and to 
identify those dealing in and consuming the products (Callister and 
Bythewood 1995; Leader-Williams 1992; Mills 1997; Mills and Jackson 
1994; Mulliken and Haywood 1994; Howell et al. 1992; Gaski and Johnson 
1994, and others).

 Table 1. Traditional Chinese Medicinal Use of Select Wild Animal Parts
------------------------------------------------------------------------
               Part Used                       Indication Treated*
------------------------------------------------------------------------
Bear Gall..............................  high fever and convulsions;
                                          spasms; hot skin lesions; red,
                                          painful, swollen eyes; trauma;
                                          sprains; swelling and pain;
                                          hemorrhoids
Musk Grains............................  convulsions; delirium; stupor
                                          and fainting; closed
                                          disorders; tetanic collapse;
                                          phlegm collapse; seizures;
                                          swelling and pain; toxic
                                          sores; carbuncles; coronary
                                          artery disease
Rhino Horn.............................  extreme heat or heat signs;
                                          high fever; erythemia;
                                          purpura; nosebleed; vomiting
                                          of blood; convulsions;
                                          delirium; manic behavior
Tiger Bone.............................  migratory joint pain and
                                          stiffness; paralysis; weak
                                          knees and legs; spasms;
                                          stiffness and pain the lower
                                          back; pain in bones
------------------------------------------------------------------------
Source: Bensky & Gamble, 199,
* TCM evaluates disorders or imbalances in the whole body or system
  rather than focusing solely on symptoms or indications.

The North American Market for Endangered Species
    Long before CITES passed the 1994 and 1997 rhino and tiger 
resolutions, it was presumed that the demand for rhino and tiger parts 
and products had been reduced or almost eliminated in the United 
States. In 1973, when the U.S. Endangered Species Act (ESA) came into 
effect, the commercial trade of many ESA-designated species, including 
the tiger and all endangered rhino populations, was prohibited. The ban 
restricted supplies for the consumer's luxury demand to buy tiger skins 
for decoration and adornment, and tiger and rhino sport-hunting 
trophies, but the some demand for tiger and rhino parts and products--
as used in traditional East Asian medicine--persists in North America 
and has yet to be addressed regionally or nationally.
    Traditional Chinese medicine (TCM) uses animal and plant 
derivatives to prepare medications in two forms--as individually 
prepared prescriptions and as over-the-counter medicines. Unprocessed 
or partially processed animal and plant parts--``materia medica''--are 
mixed according to ancient formulas, usually by a traditional 
practitioner. Just as in so-called modern Western medicine, 
prescriptions are dispensed after a practitioner has diagnosed the 
disorder or illness of the patient. The medicines are usually mixed in 
traditional medicine shops or clinics but may be prepared and consumed 
at home. These same animal parts may also be mixed according to such 
formulas but then processed into pills, tablets, or tonics. These 
medicines are produced in mass quantities and packaged in a factory. 
The consumer purchases these products the same way as Western over-the-
counter medicines, often selecting the medication upon the 
recommendation of a sales clerk or family member, or using their own 
judgment. Most of these medicines are manufactured in China and are 
sold in markets worldwide.
    Conservationists have long debated the threat posed by the trade in 
medicines containing or claiming to contain protected and regulated 
species. To date, wildlife forensics analyses of these medicines 
indicate that many do not actually contain the parts or derivatives of 
the animals identified on the medicines' lists of ingredients. These 
same tests, however, often cannot detect very low levels of animal 
parts in medicines nor identify parts or derivatives that have been 
changed by high temperatures or other processing. Also, some of the 
tests used are not very specific. For example, the test to verify the 
presence of tiger bone can determine the presence of bone but cannot 
identify the species or even recognize the source as cat. 
Conservationists believe, for the most part, that whether or not the 
medicines contain these species, the advertising and promoting of these 
products as containing animal parts sustains consumer demand and 
perpetuates the conservation problem. Recognizing this and the still 
growing science of wildlife forensics, the parties to CITES decided 
(Resolution Conf. 9.6) that these medicines should be treated as if 
they contain these derivatives or as ``readily recognizable'' parts and 
derivatives in CITES lingo. As such, trade in these medicines should be 
prohibited or regulated, depending on the species. In the 1994 
resolutions on tiger and rhino trade, CITES parties also recommended 
that all parties eliminate the demand for tiger and rhino products.
    Eliminating the demand for a product--especially one that has 
humanitarian and cultural roots--is a difficult task and one that 
requires a multidisciplinary approach. Traditional tools, such as 
better implementation of CITES or increased efforts toward cooperative 
law enforcement, will not fully stop the illegal trade. Because most of 
the international trade of tiger parts used in traditional medicine is 
illegal in countries under CITES and the ESA--as well as in China, 
where the manufactured medicines are produced--TRAFFIC recognized that 
before efforts could be undertaken to eliminate the trade (as requested 
by the resolutions), the market would have to be more defined and 
consumers identified. By its very nature, the illegality of the market 
precludes precisely documenting the exact numbers of consumers and 
products used. By using standard surveying techniques and sociological 
research, TRAFFIC planned, instead, to identify and assess the behavior 
of the persons demanding the products, as well as the nature of the 
demand itself.
    To understand the behavior of the person demanding these products, 
in July 1997, TRAFFIC North America hired a professional market 
research film. Using East Asian researchers and the appropriate 
languages, the firm surveyed ethnic Chinese-Americans on their use and 
knowledge of endangered species derivatives for medicines. Traditional 
East Asian medicine has used the parts and products of rhinos, tigers, 
and other animals for centuries. A recent TRAFFIC report highlights the 
persistent trade in these products among some consumers in spite of 
legal prohibitions (Mills 1997). Because East Asian traditional 
medicine has its roots in the more ancient traditional Chinese 
medicine, TRAFFIC decided to focus on TOM rather than the larger and 
more broadly defined East Asian medicine market and its demand. 
Focusing on the roots of the tradition should make the results more 
applicable. The results of that survey will be released in the near 
future.
    To clearly understand the nature of the demand, TRAFFIC North 
America investigated the display and sale of endangered species 
products in Canada and the United States. Initiated in late 1996 and 
completed in the fall of 1997, the investigation documented the variety 
and availability of manufactured traditional medicines that contained 
or claimed to contain parts and products from endangered and regulated 
wildlife throughout the region. The investigator used for comparison a 
1995 TRAFFIC report that documented the types of products containing 
protected and regulated species sold in the United States (Gaski and 
Johnson 1994). The 1996-97 survey results also were compared with a 
similar survey (Mills 1996) that was conducted over a three-year period 
in mainland China, where most tiger and rhino products are manufactured 
and may still be, despite a manufacturing and export ban imposed in the 
mid-199Os. These comparisons helped to gauge the importance and, 
therefore, the significance of North American markets for these 
products. This report chronicles the results of that survey.
The Legality of the North American Market
    Commercial trade of raw rhino horn and of tiger or leopard bone and 
their derivative products is prohibited by international treaty (all 
are listed in Appendix I of CITES) as well as by domestic legislation 
in several countries, including China (Notice Promulgated by the State 
Council on the Prohibition of Trade in Rhinoceros Horn and Tiger Bone), 
the United States (Endangered Species Act [ESA] and the Lacey Act), and 
Canada (The Wild Animal and Plant Protection and Regulation of 
International and Interprovincial Trade Act [WAPPRIITA]).
    The ESA prohibits the import of, export of, and interstate commerce 
in live animals, raw parts, or products of taxa listed as threatened or 
endangered, including rhinos (except Southern white rhinos) and tigers. 
Thus, the import and interstate commerce of medicines containing rhino 
horn and/or tiger bone is a violation of the ESA. The Lacey Act 
prohibits the import, export, transport, sale, or purchase of fish and 
wildlife taken or possessed in violation of state, federal, Indian 
tribal, or foreign laws. Thus, tiger bone or rhino horn medicines 
possessed in violation of foreign law and subsequently imported to the 
United States would violate the Lacey Act.
    There are, however, two important drawbacks to the current legal 
situation in the United States. First, although a product may be 
labeled as containing rhino horn or tiger bone, under the ESA and the 
Lacey Act, the burden of proving that those products actually contain 
the species listed rests with the government. As a result, few, if any, 
prosecutions have occurred involving the illegal importation of 
manufactured tiger bone and rhino horn medicines because current 
forensic techniques are as yet unable to identify tiger bone or rhino 
horn in medicinal products. Second, both the ESA and Lacey Act address 
the issue of import of, export of, and interstate commerce in rhino and 
tiger products, but they largely fail to address the sale of those 
products within a state. This enforcement area is currently left to 
state law, though few states have passed legislation to address the 
sale of foreign endangered species.
    In 1993, China issued the Notice Promulgated by the State Council 
on the Prohibition of Trade in Rhinoceros Horn and Tiger Bone, which 
prohibited all use of derivatives of rhino horn and tiger bone, 
including the manufacture and export of commercial products (all 
production was banned after 29 May 1993 and export after 30 November 
1993).
    In Canada, WAPPRIITA prohibits commercial import, export, or 
possession for commercial sale of any part of or product derived from a 
listed endangered species under WAPPRIITA, which includes all CITES 
Appendix I species (Anon. 1997). It is also illegal to import any 
wildlife part or derivative that was obtained or exported in violation 
of the law of another country. Thus, the import and the interprovincial 
or interterritorial commerce of medicines containing rhinoceros horn or 
tiger bone would be a violation of WAPPRIITA. However, Canada has the 
same problem with enforcement as does the United States because the 
burden of proof lies with the government and it generally cannot be 
proven that these medicines contain tiger or other endangered species. 
As a result, no prosecutions have ever been successful. And while 
possession for the purpose of sale is federally prohibited, it is 
generally difficult, if not impossible, to trace the origin of 
medicines in shops back to their import into Canada.
    Despite these legal prohibitions and the efforts of wildlife 
enforcement agencies (Gaski and Johnson 1994, Chalifour 1996), products 
containing or claiming to contain rhinoceros horn and tiger bone 
continue to be available in North America, particularly within Asian 
communities in large cities such as New York, San Francisco, Toronto, 
and Vancouver, where these items are used in TCM. Conservationists 
believe that this ongoing availability constitutes a violation of CITES 
and of domestic legislation, is a threat to the species concerned, and 
should be stopped by wildlife law enforcement agencies.
Canadian Efforts to Eliminate the Illegal Market
    In mid-1994, a joint investigation by the Royal Canadian Mounted 
Police and the Canadian Wildlife Service (CWS) uncovered more than 
19,000 illegally imported packaged tiger medicines and more than 26,000 
other illegally imported packaged wildlife medicines in a British 
Columbian warehouse (Chalifour 1996). This discovery prompted a 
crackdown on illegal medicinal wildlife trade in the Pacific and Yukon 
CWS region of Canada. As part of this crackdown the region has adopted 
a policy of 100 percent referral by customs officials to CWS for 
inspection of any shipment declared as containing East Asian medicines 
(Chalifour pers. comm. 1998). Careful inspection of these shipments by 
CWS follows. A similar referral system is in effect in the Ontario 
region of CWS, and other proactive or preventive efforts have also been 
undertaken in other regions as well. For example, many regional CWS 
offices work closely with importers of traditional East Asian medicine 
to ensure that importers are complying with the laws relating to 
medicines containing endangered species.
    In 1996, a search warrant served by Revenue Canada Customs on 
another British Columbian company resulted in the seizure by CWS of 180 
boxes of goods that contained illegally smuggled items such as raw 
tiger bone, bear gall bladders, and alligator parts (Chalifour 1996). 
Although there have been many seizures of tiger and rhino parts and 
products (including some raw parts) in Canada, there have been no 
successful prosecutions relating to the illegal trade in tiger or rhino 
parts or products.. Many CWS regions are also training customs agents 
to screen for and identify CITES goods coming into Canada.
    Environment Canada has produced some materials to inform travelers 
and the traditional Asian medicine community about Canadian wildlife 
laws. For example, Environment Canada has published a multilingual 
brochure, poster, and video, ``Endangered Species and the Traveler.'' 
(The brochure and video are available in English, French, Chinese, 
Vietnamese, Korean, and Japanese.) Environment Canada also teamed up 
with WWF-Canada and Karuna Community Services (a community Buddhist 
group in Toronto) in 1997 to produce a brochure on how WAPPRIITA 
legislation applies' to medicines that claim to contain wildlife and 
other ingredients derived from tigers or rhinos. Some CWS regions 
display CITES exhibits at international airports within their 
jurisdiction. The Pacific and Yukon CWS region, for instance, has an 
interactive, multilingual exhibit at the Vancouver airport. In 
partnership with WWF-Canada, the Ontario CWS office is hoping to place 
a similar exhibit in the Toronto airport.
    Regulating trade in CITES products falls under federal 
jurisdiction. WAPPRIITA also makes it an offense to transport any wild 
animal or plant part from one province or territory to another if it 
was taken, possessed, distributed, or transported in violation of a 
provincial or territorial law, or transported without provincial or 
territorial permits.
U.S. Efforts to Eliminate the Illegal Market
    U.S. efforts to stop illegal trade are comparable to those in 
Canada, where most law enforcement efforts focus first on regional 
problems and then become even more focused on problems around urban 
ports. There does not seem to be a concerted national or even regional 
effort to address the illegal trade associated with traditional East 
Asian medicines. However, two interagency task forces, one in Los 
Angeles and a more recent one in San Francisco, arose from the 
preliminary law enforcement efforts that required the cooperation, 
expertise, and authority of a number of federal, state, and city 
wildlife, judicial, and health agencies. A more comprehensive 
discussion of these task forces can be found in the Los Angeles and San 
Francisco sections of this report. The efforts of these two task forces 
need to be emulated in other urban areas of the United States, 
particularly in New York City.
    The CITES Management Authority of the United States and the U.S. 
Fish and Wildlife Service (USFWS) Office of Management Authority 
launched a pilot public outreach project in Los Angeles in 1995. The 
project is reviewed in the Los Angeles section of this report. While 
the USFWS has not been able to maintain the intensity of its efforts 
because of financial limitations, it has maintained contact with the 
traditional medicine community in Los Angeles and has continued to 
provide information through its Web site, factsheets and other 
materials, plus occasional presentations at symposia and traditional 
medicines meetings, when invited. In addition, the USFWS used materials 
developed by World Wildlife Fund to collaborate on a project with WWF 
and the American Zoo and Aquarium Association (AZA) to initiate a 
public outreach program in the traditional medicine community in Los 
Angeles. TRAFFIC North America and the World Wildlife Fund undertook 
this sociological survey of Chinese Americans to identify the demand 
for and use of medicinal products that use parts of endangered species, 
the attitudes of Chinese Americans toward the use of such medicines, 
and the conservation of endangered species. The report of that work is 
described in the introduction of this publication and will form the 
basis of an informative education outreach project in Los Angeles. In 
1996, a small group of interested teachers attended a training session, 
and the USFWS provided substitute teachers to take their classes during 
that period (Anonymous 1997).
    This U.S. outreach effort will involve the traditional medicine 
community in ongoing efforts to eliminate the trade and use of 
medicines made from illegally imported protected species. As a prelude 
to that effort, WWF will launch a plan for its ``Year for the Tiger'' 
during the Chinese lunar new year that is the ``Year of the Tiger.'' 
Elements of that plan are to eliminate the trade of tiger products, 
establish tiger conservation trust funds for habitat protection, 
increase resources for tiger antipoaching efforts, and help to build 
public awareness of tiger endangerment around the world.
    Other nongovernmental organizations in the United States, such as 
the Wildlife Conservation Society in New York, will be launching 
similar initiatives in 1998 for the Year of the Tiger.
                          How Did We Find Out?
    TRAFFIC gathered information on offers to sell medicines that 
contain or claim to contain legally protected species--rhino 
(Rhinocerotidae spp.) and tiger (Panthera tigris). TRAFFIC also 
collected information on medicines that contain or claim to contain 
legally regulated species--musk deer (Moschus spp.) and bear (Ursidae 
spp.). This compilation was to differentiate between medicines that 
could never have been legally imported into North America and those 
that may have been legally imported if certain requirements had been 
met under Canadian or U.S. law or under CITES provisions. Another 
legally protected species--leopard (Pantera pardus)--was added as the 
survey began in response to increasing evidence that leopard is being 
used in place of tiger in many traditional medicines (Mills 1997; Gaski 
and Johnson 1995). Table I lists the medicinal uses of the parts and 
derivatives of those species. For this report, such medicines will be 
called protected species medicines or regulated species medicines.
    Legally protected species are those that cannot be imported into 
the United States or Canada for commercial purposes under CITES 
provisions. The parts of all of those animals are prohibited from 
commercial trade by CITES Appendix I. In addition, the tiger, leopard, 
and all but one rhino population (the southern white rhino subspecies) 
are also listed in the United States as endangered under the ESA and 
cannot be traded commercially. The offer to sell medicines containing 
or claiming to contain those species in North America suggests that 
they were illegally imported.
    Legally regulated species are those that are governed by CITES and 
that generally may be imported with a permit from the country of origin 
or of reexport. Two taxa in this investigation--musk deer and bears--
are identified as regulated, although some populations or species 
within these taxa are listed in CITES Appendix I or II. Therefore, 
medicines that contain these taxa may or may not have been legally 
imported, depending on the species or population used. Six national 
populations of musk deer are listed in CITES Appendix I, and a few--
notably the Chinese population--are listed in Appendix II. The former 
may not be imported for commercial purposes but the latter may be 
imported with permits. Most populations or species of bears also are 
listed in Appendix I, but a few--such as the North American black 
bear--are listed in Appendix II. Again, the former my not be imported 
for commercial purposes, and the latter my be imported with permits. So 
the offer to sell medicines containing or claiming to contain the words 
``musk'' or ``bear'' does not necessarily suggest that they were 
illegally imported.
    The United States is home to a small population of ethnic-Chinese, 
some of whom have lived here for many generations and some of whom have 
recently arrived from mainland China and other countries. The 1990 
population of Chinese in the United States was 1.7 million, or about 
0.7 percent of the U.S. population. The ethnic-Chinese population of 
Canada is about a third of the population of the United States, but it 
represents a larger percentage of the total population of Canada. The 
1991 population of ethnic-Chinese in Canada was 587,000, or about 2 
percent of Canada's population.
    Because tradition and culture are such an intrinsic part of the 
lives of Chinese people, physical manifestations are evident wherever 
they live, particularly where they establish and maintain uniquely 
Chinese neighborhoods, known as Chinatowns in North America. TRAFFIC 
decided to focus on documenting the availability of tiger and rhino 
medicines in North American Chinatowns because of the concentration of 
shops that presumably sell those products. TRAFFIC recognized that 
Chinatowns were visited by Chinese and non-Chinese alike and that the 
results of the survey would represent the market throughout North 
America.
    Although the final study covered seven cities, TRAFFIC initially 
identified two U.S. cities with the largest Chinese populations--New 
York City and San Francisco--and two cities in Canada--Vancouver and 
Toronto. TRAFFIC thought Toronto would provide a central regional 
perspective. TRAFFIC added Atlanta to provide a southern U.S. 
perspective, plus two U.S. cities on the West Coast--Seattle and Los 
Angeles--because demographic information suggests that most of the 
Chinese-North American population lives on the West Coast.
    TRAFFIC engaged the services of an independent researcher of 
Chinese descent (hereinafter referred to as the investigator, who is an 
expert in conducting such surveys. The investigator spoke fluent 
Mandarin Chinese. He was chosen for his expertise in traditional 
Chinese medicine in general and for his knowledge of manufactured TCM 
products specifically. Although the investigator posed as a customer 
and did not introduce himself as an investigator for TRAFFIC, there 
were no attempts to trick any shop owner into offering to sell a 
product that might not normally have been readily available in the 
shop. TRAFFIC wished to document products that would be readily 
available to any customer. However, if information on products not 
displayed was provided by the shop owner or sales clerk during 
conversations with the investigator, that information was noted.
    TRAFFIC sent the investigator to the Chinatown section of each city 
to locate East Asian pharmacies and markets (hereinafter referred to as 
``shops'') to be surveyed. The investigator surveyed every shop he 
encountered for the display of or offer to sell the target medicines. 
No effort was made to randomize the sample; however, this potential 
limitation in sampling design was likely offset by the high percentage 
of shops that were surveyed in each city. In other words, the 
investigator surveyed most shops in the Chinatowns of each city. 
TRAFFIC believes that this method strongly suggests that the samples 
were representative of each city and, therefore, comparable.
    The investigator surveyed all open display areas for raw parts of 
rhino and tiger, as well as for manufactured medicines containing rhino 
horn and/or tiger bone. Whenever possible, the investigator reviewed 
the ingredients lists of manufactured medicines in both Chinese and 
English to see if rhino horn and/or tiger bone were listed. After 
exiting the shop, all displayed medicines listing rhino hoary, tiger 
bone, leopard bone, musk, or bear bile were recorded along with the 
prices and dates of manufacture, if listed (normally, the medicines had 
no dates). During the course of a conversation, the investigator 
sometimes asked about the availability of raw rhino horn, tiger-bone 
wine, or tiger-bone plaster in a number of other shops. No assumptions 
were made regarding the actual ingredients of any commercial-medicine, 
and only those medicines that listed the ingredients on or within the 
packaging were listed as protected species or regulated species 
medicines.
    TRAFFIC used the same sampling methodology as that used in a survey 
conducted over a three year period, from 1993 through 1995 by TRAFFIC 
East Asia in China (Mills 1997) so that the results could be compared. 
Overall, TRAFFIC wanted to derive an accurate count of (1) the number 
of shops offering for sale one or more medicines listing tiger, rhino, 
leopard, bear, or musk deer as ingredients; (2) the average number of 
medicines of protected or regulated taxa offered for sale per shop; and 
(3) the number of different brands or types of medicines offered for 
sale.
                           What Is Available?
    The seven cities selected as targets for the market survey 
represent a significant percentage of Chinese-North American 
populations. The five U.S. cities--Atlanta, Los Angeles, New York, San 
Francisco, and Seattle--included 61 percent of all Chinese-Americans 
living in the United States (according to the U.S. Bureau of the Census 
for 1990). The two Canadian cities--Toronto and Vancouver--had 69 
percent of the total Chinese-Canadian population (according to 
Statistics Canada figures for 1991).
    The survey results are summarized on a city-by-city basis in this 
section. Of the 110 shops surveyed, 50 percent (55 shops) offered for 
sale one or more protected species medicines, or medicines or products 
that contained or claimed to contain the target protected species--
tiger, rhinos, and leopard. Forty-six percent (42 shops) offered for 
sale one or more regulated species
    The cities with the greatest percentage of shops that offer for 
sale medicines containing protected species are in descending order: 
New York (83 percent, or 10 of 12 shops); Vancouver (63 percent, or 15 
of 24 shops); Seattle (50 percent, or 6 of 12 shops); Toronto (50 
percent, or 10 of 20 shops); Atlanta (50 percent, or 3 of 6 shops); San 
Francisco (42 percent, or 8 of 19 shops); and Los Angeles (18 percent, 
or 3 of 17 shops).
    As shown in Figure 1, the medicines most commonly found offered for 
sale in North America were those that contained or claimed to contain 
tiger and musk parts and products. The least commonly found medicines 
were those containing or claiming to bear parts and products.
    Of protected species medicines, raw parts or medicines listing 
rhinoceros horn or tiger bone as ingredients were found in 55 shops (50 
percent).
    Raw rhinoceros horn was found in only one shop (less than one 
percent) in Vancouver. All other items found for sale were manufactured 
medicines. Tiger-bone plaster was found in 14 shops (13 percent) in six 
cities. Tiger-bone wine was found in six shops (6 percent), five of 
which were in Vancouver. Medicines listing leopard bone as an 
ingredient were found in 18 shops (17 percent).
    On a positive note, 40 shops (37 percent) surveyed did not offer to 
sell any protected or regulated species medicines. Of the total shops 
surveyed, 12 percent offered to sell regulated species medicines only--
bear or musk deer--that may or may not have been legally imported.
    At least 31 different types of rhino-or tiger-containing medicines, 
produced by between 29 and 34 different manufacturers, were found 
offered for sale during the survey. A precise count of manufacturers is 
not possible because the names of some manufacturers differed slightly 
on different labels and might actually represent the same company. For 
example, Guiyang Chinese Medicine Factory and Guiyang Chinese Medicine 
Pharmaceutical Factory may or may not be the same manufacturer.
Atlanta
    The Chinese-American population in Atlanta, Georgia, was the 
smallest in all the cities surveyed. Approximately 11,000 Chinese-
Americans live in Atlanta, representing about 0.6 percent of the U.S. 
Chinese-American population (according to the U.S. Bureau of the Census 
figures for 1990). The six shops surveyed in Atlanta's Chinatown were 
on New Peach Road and Buford Highway.
    To TRAFFIC's knowledge, there have been no focused federal, state, 
or local law enforcement efforts to eliminate or even control the trade 
of protected species products in Atlanta. Also, there no outreach 
efforts appear to be in place to advise or educate Atlanta citizens 
about this problem.
    What's For Sale? The results and percentages shown in Figure 2 (and 
the discussion that follows) are not cumulative. Most Atlanta shops 
sold more than one medicine, and some shops sold protected and 
regulated species medicines. This small sample size limits the 
conclusions and comparisons that can be made regarding this city.
    Because Atlanta's Chinatown is small, the investigator visited only 
six shops. As seen in Figure 2, musk was the most common species 
medicine found in those shops. Protected species medicines--containing 
or claiming to contain tiger, leopard, or rhino--were offered for sale 
in three shops (50 percent). One shop (17 percent) had tiger-bone 
plaster; none had raw rhino horn or tiger-bone wine. Three shops (50 
percent) had other medicines that contained or claimed to contain rhino 
horn or tiger bone, with an average of one such item offered for sale 
per shop. One shop offered for sale five different types of medicines 
containing or claiming to contain tiger bone or rhino horn as 
ingredients. All of the shops sold at least one protected or regulated 
species medicine.
    In two shops, the salespeople told the investigator that tiger bone 
had been banned a long time ago. A musk medicine was recommended as a 
substitute for a tiger-bone plaster in one shop
    Only 3 of the 14 protected or regulated species medicines available 
for sale had the date of manufacture on the package--two were dated 
1993 and the other 1991. In one shop, the salesperson said the medicine 
with tiger bone was shipped to the store within the past year. Two of 
the medicines offered for sale had crudely altered packaging. On one 
medicine, the tiger bone ingredient was listed but then crossed out 
with ink. On the other, a completely new list without tiger bone was 
glued over a list claiming the medicine contained tiger bone.
Los Angeles
    The Chinese-American population in Los Angeles, California, is the 
third largest in all U.S. and North American cities surveyed. About 
308,000 people, represent about 19 percent of the U.S. population of 
Chinese-American population (according to Bureau of the Census figures 
for 1990). The 17 shops surveyed in Los Angeles were on Broadway, North 
Spring, New High, and Hill streets.
    Los Angeles is the site of major law enforcement and public 
outreach efforts, among them a law enforcement task force that focuses 
on traditional medicines. The recently-formed Wildlife Task Force is a 
multiagency initiative consisting of inspectors and agents from the 
U.S. Customs Service, U.S. Fish and Wildlife Service, Food and Drug 
Administration, and U.S. Department of Agriculture. The task force, 
developed by a team of U.S. Customs import specialists, seeks to 
address illegal wildlife trade in general and the illegal importation 
of traditional Chinese medicines specifically. The focus on TCM 
occurred largely because the rate of consumption of illegally imported 
endangered species in the Los Angeles area is one of the most 
significant in North America and there has been little success in 
combating the illegal trade into the city.
    The task force meets regularly to discuss the successes and 
failures of past interdiction efforts and to make future plans to 
address the trade. The task force has conducted a number of concerted 
law enforcement efforts (called ``blitzes'') by thoroughly inspecting 
international cargo shipments, passenger flights from target countries, 
and packages from key countries at the international mail division.
    One example of a successful blitz was an inspection of a China 
Eastern Airlines passenger flight. The agencies involved in the task 
force inspected the baggage of 223 passengers and found 45 violations, 
including 18 agriculture violations, 12 fish and wildlife violations, 
and 15 food and drug violations. Violations ranged from personal 
shipments of tiger bone plasters and musk deer medicines to a 
commercial shipment of herbal medicines.
    On 28 January 1994, agents from the California Department of Fish 
and Game, U.S. Fish and Wildlife Service, U.S. Bureau of Alcohol, 
Tobacco and Firearms, and Los Angeles Police Department broke up a bear 
parts poaching and smuggling operation. William Jin Tack Lee, a Korean-
American businessman, allegedly operated a hunting club that arranged 
illegal bear hunts for overseas clients. Capping the 1 8-month 
investigation was the arrest of Joseph Chang, who purchased thousands 
of dollars worth of bear gallbladders from undercover agents. Chang was 
allegedly involved in a bear parts trading operation that extended to 
four western states (Anon. 1994).
    In September 1994, Chang Hao An was apprehended at Los Angeles 
International Airport as he attempted to import a complete Amur tiger 
(Panthera tigris altaica) skeleton, along with 200 vials of dried bear 
bile, two large bear gallbladders, and 60 boxes containing rhinoceros 
horn, saiga antelope, and musk deer pills. U.S. Customs discovered the 
items in Chang's baggage and detained him. Chang was arrested by U.S. 
Fish and Wildlife Service agents, prosecuted for smuggling, and 
sentenced to 21 months in prison (Anon. 1995).
    On 6 September 1995, U.S. Customs and U.S. Fish and Wildlife 
Service officials seized more than five kilos of bear bile at Los 
Angeles International Airport. Agents also confiscated musk deer 
glands, rhinoceros horn pills, and tiger bone plasters from the clothes 
and baggage of four Chinese nationals. The subjects were charged with 
10 counts of smuggling, unlawful importation of wildlife, and 
violations of the U.S. Endangered Species Act. All four defendants pled 
guilty to a misdemeanor, Two were released with time already served; 
the other two were sentenced to prison: one for one year and one for 
eight months (Anon. 1995a).
    On 25 September 1995, U.S. Fish and Wildlife Service agents in 
Alaska seized 60 brown bear (Ursus arctos) gallbladders that were 
concealed in a shipment of two tons of Russian reindeer (Rangifer 
tarandus) velvet antler headed for Los Angeles (Anon. 1995b)
    On 8 September 1995, U.S. Fish and Wildlife Service authorities at 
Los Angeles International Airport seized 45 brown bear gallbladders and 
20 seal (Callorhinus ursinus) penises smuggled inside a commercial 
shipment of reindeer antlers from Russia (Anon. 1995c).
    On 19 October 1995, the U.S. Fish and Wildlife Service launched a 
public education pilot program in Los Angeles to inform citizens that 
certain products for sale in Asian medicine shops may contain parts 
from endangered species, as well as toxins that may be potentially 
harmful to human health. The event was a joint effort among federal and 
state agencies and nongovernmental organizations to provide new 
information to consumers and to clarify U.S. law enforcement 
responsibilities for protecting endangered species.
    The U.S. Fish and Wildlife Service worked closely with the Los 
Angeles Unified School District. the Los Angeles Zoo, TRAFFIC, and WWF 
to develop a TOM educational program that could be offered in middle 
schools, adult education programs, and workshops. Teachers received 
training enabling them to explain the health risks associated with the 
use of some packaged medicines, the laws protecting endangered species, 
and the reasons that possession and sale of products containing parts 
of endangered species may be illegal (Anon. 1995d).
    The percentages in Figure 3 (and the discussion that follows) are 
not cumulative because some of the shops offered for sale more than one 
medicine and some offered for sale both protected and regulated species 
medicines.
    Of the 17 shops in Los Angeles surveyed by the investigator, 13 (76 
percent) did not offer for sale any protected or regulated species 
medicines. Leopard and musk were the most common species medicines 
offered for sale in the shops. Three shops (18 percent) offered for 
sale protected species medicines that contained or claimed to contain 
leopard or tiger, and one of those shops had two different brands. The 
average number of tiger and rhino items offered for sale per shop was 
insignificant, since only one shop offered to sell one rhino or tiger 
medicine. Three shops (18 percent) offered for sale protected species 
medicines and three offered for sale regulated species medicines.
    Sales clerks in 12 of the 17 shops (71 percent) were aware of a ban 
on selling tiger bone. One clerk indicated that the sale of musk was 
also prohibited, and another indicated that the Food and Drug 
Administration prohibits the sale of any medicine containing tiger bone 
or musk. Another clerk said that tiger bone could not be imported or 
sold, and yet another said that it cannot be sold anywhere in the world 
because the tiger is a protected animal.
    No medicines were seen with altered packaging and none had dates of 
manufacture. Coincidentally, Los Angeles was the last city surveyed, 
and the investigator concluded that Los Angeles was the ``cleanest'' 
city he had visited in North America.
New York City
    The Chinese-American population in New York City was the second 
largest in all U.S. and North American cities surveyed. The approximate 
321,000 people represent about 19 percent of the U.S. population of 
Chinese-Americans (according to U.S. Bureau of the Census figures for 
1990). The 12 shops visited in New York City were on Canal, Lafayette, 
Mulberry, Elizabeth, Baxter, Bayard, and Mott streets.
    To TRAFFIC's knowledge, there have been no focused federal, state, 
or local law enforcement efforts to eliminate or even control the trade 
of protected species products in New York City. However, the Wildlife 
Conservation Society in New York initiated a pilot strategy for public 
outreach that focuses on Chinese communities in the Flushing, Queens, 
and Manhattan Chinatowns, along with an education project that is 
initially working with school children of 8-10 years of age in the 
Brooklyn Chinese community (Bolze, pers. communication).
    What's for Sale? The percentages in Figure 4 (and the discussion 
that follows) are not cumulative because some shops offered for sale 
more than one medicine and some offered for sale both protected and 
regulated species medicines.
    Twelve shops were surveyed in New York City and only two (17 
percent) did not offer for sale any protected or regulated species 
medicines. The most common species medicines offered for sale were 
those that contained or claimed to contain tiger and musk. Ten shops 
(83 percent) offered for sale protected species medicines that 
contained or claimed to contain tiger, leopard, or rhino. Five shops 
(42 percent) had tiger-bone plaster; none had raw rhino horn or tiger-
bone wine. One shop offered up to four rhino or tiger medicines. The 
average number of rhino and tiger items offered for sale per shop was 
two.
    Six shops (50 percent) offered for sale regulated species medicines 
that contained or claimed to contain musk or bear bile. One shop 
offered to sell four different brands of medicines that listed tiger 
bone, rhino, or a combination of both, as ingredients.
    In 3 of the 12 shops (25 percent), sales clerks told the 
investigator that tiger bone was banned, and one clerk also indicated 
that musk was banned. Another sales clerk indicated that he was aware 
that someone in the city had been caught selling rhino horn.
    None of the medicines offered for sale had dates of manufacture, 
and none had altered packaging. The name of one medicine, ``Tianqi 
Shexiang Hugu Zhuifenggao,'' suggested that it contained tiger bone, 
but no ingredient list was printed or inserted in the package to 
confirm this.
San Francisco
    The Chinese-American population in San Francisco, California, is 
the largest of all U.S. and North American cities surveyed. 
Approximately 332,000 people represent about 20 percent of the U.S. 
population of Chinese-Americans (according to U.S. Bureau of the Census 
figures for 1990). The 19 shops visited in San Francisco's Chinatown 
were on Stockton, Clay, Washington, Pacific, Grant, and Jackson 
streets.
    Two years ago, San Francisco created a multiagency task force 
similar to the one in Los Angeles to address the illegal wildlife 
import and export in San Francisco. The task force is headed by a 
member of the U.S. Attorney's Office and has members from the U.S. Fish 
and Wildlife Service, National Marine Fisheries Service, U.S. Customs, 
U.S. Department of Agriculture, Food and Drug Administration, and 
California Department of Health Services. Given the large Chinese 
population and the TOM industry in the San Francisco area, the illegal 
trade in endangered species parts and products is the task force's 
primary concern.
    To TRAFFIC's knowledge, there have been no focused public outreach 
efforts in San Francisco.
    Of the shops surveyed in San Francisco, 8 of 19 (42 percent) did 
not offer for sale any protected or regulated species medicines. The 
most common species medicines found in the 19 shops were those that 
contained or claimed to contain tiger (the most common) and musk. Eight 
shops (42 percent) offered for sale protected species medicines 
containing or claiming to contain tiger, leopard, or rhino. Two shops 
(11 percent) had tiger-bone plaster, but none had raw rhino horn or 
tiger-bone wine. Eight shops (42 percent) offered for sale other 
medicines with rhino horn or tiger bone or both. The average number of 
rhino horn or tiger bone items offered per shop was less than one. One 
shop offered to sell five different types of medicines that listed 
tiger bone or rhino horn as an ingredient.
    Six shops (32 percent) offered to sell regulated species medicines. 
Six shops (32 percent) offered to sell medicines listing musk as an 
ingredient.
    In six shops (32 percent), the sales clerks told the investigator 
that tiger bone was banned. None of the medicines had dates of 
manufacture. The packaging and ingredients lists of three medicines 
which were seen for sale elsewhere in the United States and Canada and 
were known to have tiger bone as an ingredient, did not list it on the 
package. No packages were altered nor were any ingredients struck off 
the lists, as seen in other cities.
Seattle
    The Chinese-American population in Seattle, Washington, was the 
second smallest in all the cities surveyed. Approximately 29,000 people 
represent about two percent of the U.S. population of Chinese-Americans 
(according to the U.S. Bureau of the Census figures for 1990). The 12 
shops surveyed in Seattle's Chinatown were on Maynard, King, and Weller 
streets, and on Beacon, Seventh, and 128th avenues.
    To TRAFFIC's knowledge, there have been no focused federal, state, 
or local law enforcement efforts to eliminate or even control the trade 
of protected species products in Seattle. Also, no outreach efforts 
appear to have advised or educated Seattle citizens about this problem.
    The percentages in Figure 6 (and the discussion that follows) are 
not cumulative because some shops offered for sale more than one 
medicine and some offered for sale both protected and regulated species 
medicines.
    Of the shops surveyed in Seattle, 4 of 12 (33 percent) did not 
offer for sale any protected or regulated species medicines. Of the 12, 
only 10 shops had commercial Asian medicines of any type. Tiger, rhino, 
and musk were the most common species medicines found in the shops 
surveyed. Six shops (50 percent) offered to sell protected species 
medicines. Rhino horn or tiger bone items were offered for sale in six 
shops (50 percent). The average number of rhino horn or tiger bone 
items offered for sale per shop was two.
    Six shops (50 percent) had regulated species medicines. One shop 
had 11 different types of medicines listing tiger bone, rhino horn, 
musk, or leopard bone, or combinations of those, as ingredients.
    In six shops (50 percent), sales clerks told the investigator that 
tiger bone was banned. One clerk said that tiger bone is illegal in the 
United States but is available in Asia. Another indicated that musk was 
also banned.
    None of the medicines had dates of manufacture. None had altered 
packaging, although one medicine previously identified as claiming to 
contain rhino did not have an ingredient list, so it could have 
contained rhino.
Toronto
    The Chinese-Canadian population in Toronto, Ontario, is the largest 
in any Canadian city and third largest in all North American cities 
surveyed. Approximately 210,000 people represent about 36 percent of 
the Chinese-Canadian population (according to Statistics Canada figures 
for 1991). The 20 shops visited in Toronto's Chinatown were on Dundas, 
St. Andrews, Huron, and Spadina streets.
    Efforts to control trade in protected species in Toronto has been 
focused largely on importation. The CWS Ontario region recently 
completed a pilot project wherein they trained two customs officers in 
Toronto to be CITES specialists. Although successful, such training 
projects are not yet a permanent policy of the region. The same region 
also produced a multi-lingual brochure on WAPPRIITA and the trade in 
medicines containing wildlife ingredients, in cooperation with WWF 
Canada and Karuna Community Services (Anon. 1997).
    To TRAFFIC's knowledge, there has been no comprehensive provincial 
or local law enforcement efforts to eliminate or even control the trade 
of protected species in Toronto. The above-mentioned brochure has been 
distributed and there are plans to have a formal meeting with importers 
of traditional medicine, however, no overall public awareness effort 
has been undertaken and no outreach efforts appear to have been 
initiated to advise or educate Toronto citizens about this problem.
    The percentages in Figure 7 (and the discussion that follows) are 
not cumulative since some shops offered for sale more than one medicine 
and some offered for sale both protected and regulated species 
medicines.
    Of the shops surveyed in Toronto, 7 of 20 (35 percent) did not 
offer for sale any protected or regulated species medicines. Tiger and 
musk were the most common species medicines found in the 20 shops 
surveyed. Protected species medicines containing or claiming to contain 
tiger, leopard, and rhino were found in ten shops (50 percent). Rhino 
horn or tiger bone items were found in seven shops (35 percent). Two 
shops (10 percent) had tiger-bone plaster; one shop (I percent) claimed 
to have tiger-bone wine and no shops had raw rhino horn. Five shops (25 
percent) had other commercial medicines with rhino horn or tiger bone. 
One shop offered to sell five rhino or tiger medicines. Eight shops (40 
percent) offered regulated species medicines for sale. The average 
number of items per shop was less than one.
    In nine shops (45 percent), the sales clerks told the investigator 
that tiger bone is banned from sale. One clerk said that tiger bone 
plasters cannot be found anywhere in the world because tigers are fully 
protected animals. Another said that rhino horn is barred from sale and 
that antelope or other horn can be used instead; even if rhino horn 
could be found in the city, it would be too expensive. Still another 
clerk said that rhinos are class one protected animals and that anyone 
caught selling horn can get 15 years in jail. One clerk helpfully 
offered another tiger bone plaster as an alternative, and another 
suggested that tiger bone wine may be available for between C$25 and 
C$125, a bottle depending on the brand, but it is kept in a secret 
place because of the ban.
    None of the medicines had dates of manufacture and none of the 
packages were altered. Some brands were known from previous shops to 
have contained or claimed to contain tiger or rhino, but the packages 
examined did not list those ingredients. Interestingly, one of the 
medicines listed ``African tiger bone'' on the package. Because lion 
bone has been noted on medicine lists that formerly listed tiger bone, 
it is not certain if this was lion bone or the result of an effort to 
bypass prohibitions on ``Asian tiger bone.''
Vancouver
    The Chinese-Canadian population in Vancouver, British Columbia, was 
the second largest in the two Canadian cities and fourth largest of all 
North American cities surveyed. Approximately 198,000 people represent 
about 33 percent of the Chinese-Canadian population (according to 
Statistics Canada figures for 1991). The 24 shops surveyed in 
Vancouver's Chinatown were on Main, Pender, Gore, Keefer, and Hasting 
streets.
    The Pacific and Yukon CWS region of Canada has adopted a policy of 
100 percent referral by customs officials to CWS for inspection of any 
shipment declared as containing East Asian medicines (Chalifour pers. 
comm. 1998). Careful inspection of these shipments by CWS follows. CWS 
regional staff have also been working closely with the importers of 
traditional East Asian medicine into the region to ensure that they are 
aware of WAPPRIITA rules. CWS staff in this region have occasionally 
gone into shops and seized CITES Appendix I items under WAPPRIITA 
prohibitions on sale. However, no prosecutions have ensued.
    A number of federal cooperative law enforcement efforts have 
occurred in Vancouver. Reportedly, more than 211,000 items whose 
ingredients contained or claimed to contain endangered species 
derivatives were seized at the port of Vancouver in 1995, compared to 
only 1,200 items seized in 1987 (Anon. 1996).
    On 28 June 1996, Canadian Customs inspectors and Canadian Wildlife 
Service (CWS) officers in Vancouver seized almost 20,000 items of 
illegally imported Asian medicines containing or claiming to contain 
parts or derivatives of endangered wildlife. The shipment, sent from 
Hong Kong, was destined for Canada's growing East Asian communities in 
Vancouver and Toronto (Anon. 1996).
    On 29 March 1997, officers of the Ministry of Environment, Land and 
Parks along with regional conservation officers assisted by the Royal 
Canadian Mounted Police, seized 21 bear gallbladders at the Vancouver 
International Airport from a man traveling from Toronto to Vancouver 
(Anon. 1997).
    On 11 April 1997, officers of the Ministry of Environment, Lands 
and Parks in Victoria, British Columbia, reported that charges had been 
filed against Chun Mau Wong for selling bear gallbladders between 
Seattle, Washington, and Vancouver, British Columbia, to an undercover 
officer on two occasions (Anon. 1997a). Although most of these cases 
have received local, national, and even international publicity, the 
only efforts to advise or educate Vancouver citizens about this problem 
are the CWS distribution of a joint CWS and WWF brochure on WAPPRIITA, 
meetings with importers of medicines, and visits to retail shops.
    The percentages shown in Figure 8 (and the discussion that follows) 
are not cumulative because shops offered for sale more than one 
medicine, and some offered for sale both protected and regulated 
species medicines.
    Of the shops surveyed in Vancouver, 6 of 24 (25 percent) did not 
offer to sell any protected or regulated species medicines. Musk, 
tiger, and rhino were the most common species medicines found in the 24 
surveyed shops. Protected species medicines were offered for sale in 15 
shops (63 percent), with rhino horn or tiger bone items offered for 
sale in 14 shops (58 percent). Three shops had tiger-bone plaster (13 
percent), and five had tiger-bone wine (21 percent). Raw rhino horn was 
offered for sale in one shop (4 percent). Twelve shops (50 percent) had 
only regulated species medicines. The average number of rhino and tiger 
items offered for sale in all shops surveyed was two.
    In 14 shops (58 percent), the sales clerks told the investigator 
that tiger bone, rhino horn, and musk were banned. One clerk told the 
investigator that rhino horn might be available in the city but that no 
one would sell to a stranger because someone had been arrested for 
selling musk or bear bile. Another clerk also indicated that rhino horn 
might be available. Still another indicated that musk was illegal, but 
was not certain why.
    None of the medicines had dates of manufacture. Two medicines had 
altered packaging on which the musk, tiger bone, and bear bile were 
covered by black ink. One medicine, ``Huguzhulfeng'' plaster, had tiger 
in its name but did not list tiger as an ingredient. Three medicines 
were known to have once had tiger bone as an ingredient, but it was no 
longer listed on the package. One medicine, ``Diedazhitonggao,'' 
specifically indicated on its package that it ``excluded any part of 
tiger.''
            How Does North America Compare To Other Markets?
    Canada and the United States are not the only non-Asian countries 
that have an internal market for traditional medicines that contain or 
claim to contain protected species such as tiger and rhino. According 
to an analysis of Chinese CITES data by TRAFFIC International, 16 non-
Asian countries--Australia, Belgium, Bulgaria, Canada, Cuba, Denmark, 
France, Ghana, Italy, Mauritius, the Netherlands, Panama, the former 
Soviet Union, Togo, the United Arab Emirates, and the United States--
were documented destinations for tiger products from China (Mulliken 
and Haywood 1994). But, as noted in this 1994 analysis, these medicines 
are found in markets worldwide.
Australian and New Zealand Markets
    An investigation by TRAFFIC Oceania in 1995 (Callister and 
Bythewood 1995) revealed that Australia and New Zealand had small 
markets and legislative problems that deterred effective implementation 
of CITES and internal controls. TRAFFIC Oceania visited 144 shops in 
three cities in Australia and 30 shops in two cities in New Zealand. 
TRAFFIC found that 3 of 20 shops in Australia and 4 of 20 shops in New 
Zealand sold tiger medicines, compared to 9 of 20 in Canada and 8 of 20 
in the United States. (See Table 2.)

Table 2. Comparison of the Availability in Five Countries of Manufactured Products Claiming to Contain Rhino and
                                           Tiger Parts or Derivatives
----------------------------------------------------------------------------------------------------------------
                                                                             Percentage of
                                   Number of Shops/                         Surveyed Shops       Percentage of
             Country                Cities Surveyed     Survey Year(s)       Selling Tiger       Shops Selling
                                                                               Products         Rhino Products
----------------------------------------------------------------------------------------------------------------
Australia.......................  144 shops in 3      1995..............  14 percent........  3 percent
                                   cities.
Canada..........................  44 shops in 2       1996-1997.........  45 percent........  18 percent
                                   cities.
China...........................  280 shops in 7      1993-1995.........  3 percent.........  4 percent
                                   cities.
New Zealand.....................  30 shops in 2       1995..............  20 percent........  0 percent
                                   cities.
United States...................  66 shops in 5       1996-1997.........  41 percent........  14 percent
                                   cities.
----------------------------------------------------------------------------------------------------------------
Source: Callister and Bythewood 1995, Mills 1997.

The China Market
    In mid-1993, China prohibited the internal and external trade and 
manufacture of tiger and rhino medicines. Following that ban, TRAFFIC 
East Asia began a three-year survey to determine the continued 
availability of medicines and of raw rhino and tiger products in China. 
In total, 13 cities were surveyed in China, however, to better compare 
the survey results with the North American survey (see Table 3), 
TRAFFIC North America calculated the results using seven Chinese cities 
visited in 1995 (see Table 4).
    Results from China in 1996 showed that in these select seven 
cities, 54 of the 280 shops (19 percent) offered for sale rhino or 
tiger items. Eleven different types of rhino-or-tiger-containing 
commercial medicines were found that were produced by approximately 13 
manufacturers (see Table S). In the seven cities surveyed, 6 of 20 
shops sold tiger medicines.
    Based upon this information, TRAFFIC North America notes that the 
current availability of protected or regulated species medicines in 
these five western countries appears to be even greater than what was 
found by TRAFFIC East Asia in China in 1995. TRAFFIC East Asia found 
only a small residual trade of such medicines within China in the years 
since the complete prohibition on their sale, manufacture, and export. 
At the same time, however, TRAFFIC East Asia found that a few 
manufacturers were still willing to ship (and even manufacture) 
prohibited medicines to potential buyers outside China despite these 
prohibitions. The North American availability of rhino and tiger 
medicines manufactured in China suggests that there might be other 
manufacturers or exporters willing to break the law to export these 
medicines, or that stockpiles of these medicines remain both within or 
outside China.
    This speculation on illegal manufacture in China, illegal export 
from China, or stockpiles in other countries is further supported by 
the fact that TRAFFIC North America identified a total of 31 medicines 
from at least 29 Chinese manufacturers for sale in North America (see 
Table 6). If we compare these results to those mentioned above from 
China, more than twice as many medicines are found in the United States 
and Canada than those found in China, the manufacturing source of such 
medicines. The list of medicines sold in the United States and Canada 
was compared to a list previously compiled by TRAFFIC of the late 1980s 
through the early 1990s (Gaski and Johnson 1994) documented 73 
medicines containing or claiming to contain tiger parts. More 
information on the manufacturers and their stockpiles, if any, is 
needed.

Table 3. Summary of Data Collected During the TRAFFIC North America Survey of Asian Pharmacies and Markets in Selected North American Cities, 1996-1997.
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                          San
                                                                 Atlanta    Los Angeles    New York    Francisco     Seattle      Toronto     Vancouver
--------------------------------------------------------------------------------------------------------------------------------------------------------
No. of Businesses surveyed...................................            6           17           12           19           12           20           24
No. of businesses (%) with at least one RH/TB item [RH/TB        3 (50.0%)     1 (6.0%)   10 (83.0%)    8 (42.0%)    6 (50.0%)    7 (35.0%)   14 (58.0%)
 item--raw RH, TPB, TBW, or other commercial medicine
 containing TB, RH, or both].................................
No. of businesses (%) with raw RH............................     0 (0.0%)     0 (0.0%)     0 (0.0%)     0 (0.0%)     0 (0.0%)     0 (0.0%)    1 (4.17%)
No. of businesses (%) with TBP...............................    1 (16.7%)     1 (5.9%)    5 (41.7%)    2 (10.5%)     0 (0.0%)    2 (10.0%)    3 (12.5%)
No. of businesses (%) with TBW...............................     0 (0.0%)     0 (0.0%)     0 (0.0%)     0 (0.0%)     0 (0.0%)     1 (5.0%)    5 (20.8%)
No. of businesses (%) with other commercial medicines            3 (50.0%)     0 (0.0%)    9 (75.0%)    7 (36.8%)    6 (60.0%)    5 (25.0%)   11 (45.8%)
 containing TB, RH, or both..................................
Average number (range) of RH/TB items per business [includes    2.33 (1-4)     1.00 (1)   2.70 (1-4)   2.00 (1-5)  5.17 (2-11)   2.50 (1-5)   2.71 (1-6)
 only businesses with at least one item].....................
No. of businesses (%) with commercial medicines containing LB     0 (0.0%)    3 (18.0%)    2 (17.0%)     1 (5.0%)    3 (25.0%)    5 (25.0%)    4 (17.0%)
 [includes plasters and wines]...............................
No. of businesses (%) with commercial medicines containing MK    5 (83.0%)    3 (18.0%)    6 (50.0%)    6 (32.0%)    6 (50.0%)    8 (40.0%)   12 (50.0%)
 [includes plasters].........................................
No. of businesses (%) with commercial medicines containing BB     0 (0.0%)     0 (0.0%)    2 (17.0%)     0 (0.0%)    2 (17.0%)     1 (5.0%)   3 (13.0%)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Formula: RH = rhinoceros horn; TB = tiger bone; TBP = tigerbone plaster; TBW = tigerbone wine or tigerbone-papaya wine; LB = leopard bone; MK = musk; BB
  = bear bile


      Table 4. Summary of Data Collected During the TRAFFIC Network Survey of Businesses in Selected Cities in the People's Republic of China, 1996
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                 Beijing      Chengdu      Nanchang     Shanghai     Tianjin       Xi'an      Zhengzhou
--------------------------------------------------------------------------------------------------------------------------------------------------------
Number of businesses surveyed................................           49           53           33           25           35           50           35
No. businesses (%) with at least one RH/TB item [RH/TB item-    11 (22.4%)     1 (1.9%)    6 (18.2%)     2 (8.0%)   23 (65.7%)     4 (8.0%)    7 (20.0%)
 raw RH, TBP, TBW, or other commercial medicine containing
 TB, RH, or both]............................................
No. of businesses with raw RH or RHP.........................            0            1            2            0            1            2            4
No. of businesses with TBP or TBW............................            0            0            4            0            2            0            1
No. of businesses with other commercial medicines containing    11 (22.4%)     0 (0.0%)     0 (0.0%)     2 (8.0%)   22 (62.9%)     2 (4.0%)     2 (5.7%)
 TB, RH, or both.............................................
--------------------------------------------------------------------------------------------------------------------------------------------------------
Formula: RH = rhinoceros horn; RHP = rhinoceros horn powder; TB = tiger bone; TBP = tigerbone plaster; TBW = tigerbone wine or tigerbone-papaya wine


Table 5. Commercial Medicines and Manufacturers Found During the TRAFFIC
Network Survey of Businesses in Selected Cities in the People's Republic
                             of China, 1996
------------------------------------------------------------------------
       Name of medicine              Manufacturer            Contents
------------------------------------------------------------------------
Angongniuhuangwan............  Tianjin Darentang         RH
                                Pharmaceutical Factory.
Dahuoluodan..................  Beijing Tongrentang       TB
                                Pharmaceutical Factory.
Dahuoluodan..................  Beijing Tongrentang 2nd   RH, TB
                                Pharmaceutical Factory.
Dahuoluodan..................  Fushun 2nd Chinese        RH
                                Medicine Pharmaceutical
                                Factory.
Hugujiu......................  Beijing Tongrentang       TB
                                Pharmaceutical Factory.
Huitianzaizaowan.............  Harbin 1st Chinese        TB, LB*
                                Medicine Factory.
Huitianzaizaowan.............  Harbin 2nd Chinese        RH, TB
                                Medicine Factory.
Huitianzaizaowan.............  Liaoning Benxi Chinese    RH, TB
                                Medicine Factory.
Huitianzaizaowan.............  Chengelun People's        RH, LB
                                Pharmaceutical Factory.
Huitianzaizaowan.............  Heilongjiang Mudanjiang   RH, TB
                                Pharmaceutical Factory.
Huitianzaizaowan.............  Heilongjiang Mudanjiang   RH, TB
                                Chinese Medicine Pharm.
                                Factory.
Jianbuhuqianvan..............  Tianjin Darentang         TB
                                Pharmaceutical Factory.
Jufangzhibaosan..............  Beijing Tongrentang       RH
                                Pharmaceutical Factory.
Jufangzhibaosan..............  Beijing Tongrentang       RH
                                Pharmaceutical Factory.
Niuhuangqingxinwan...........  Tianjin Darentang         RH, AH
                                Pharmaceutical Factory.
Rhino Horn Powder............  ???.....................  RH
Tiger Bone Plaster...........  Hubei Suizhou Zutian      TB
                                Pharmaceutical Factory.
Tiger Bone Wine..............  Wuhan Jianmin             TB
                                Pharmaceutical Factory.
Tiger Bone Wine..............  Wuhan Fifth               TB
                                Pharmaceutical Factory.
Tiger Bone Wine..............  Wuhan Zhonglian           TB
                                Pharmaceutical Factory.
Tiger Bone Wine..............  Tianjin 2nd Chinese       TB
                                Medicine Factory.
------------------------------------------------------------------------


Table 6. Commercial Medicines and Manufacturers Found During the TRAFFIC
 North America Survey of Asian Pharmacies and Markets in Selected Cities
                       in North America, 1996-1997
------------------------------------------------------------------------
       Name of Medicine              Manufacturer            Contents
------------------------------------------------------------------------
Chinese Chufeng Toukuwan.....  China Nat'l Chemicals I   TB
                                & E Corp., Kwangtung
                                Branch.
Dahuoluodan..................  Beijing Tongrentang       TB
                                Pharmaceutical Factory.
Dahuoluodan..................  Beijing Tongrentang       RH, TB
                                Pharmaceutical Factory.
Dahuoluodan..................  Foshan 1st                TB, RH
                                Pharmaceutical Factory.
Dahuoluodan..................  Guangzhou Chengliji       RH, LB
                                Pharmaceutical Factory.
Dahuoluowan..................  Lanzhou Foci              TB, Musk, RH
                                Pharmaceutical Factory.
Duzhonghuguwan...............  Huabei Pharmaceutical     TB
                                Factory.
Duzhonghuguwan...............  Guangchang                TB
                                Pharmaceutical Factory
                                (Hong Kong).

(To Chung Fu Quat Pills).....  (``Kwong Cheong Medicine
                                Manufactory'').
Duzhonghuguwan...............  Guiyang Chinese Medicine  TB
                                Factory.
Duzhonghuguwan...............  Guiyang Chinese Med.      TB
                                Pharmaceutical Factory.
Hugubeitongvan...............  Medicine No. 1            TB
                                Manufactory of China
                                Guangchow.
(Tiger-bone Pain Relieving
 Pills).
Hugujiu (Tiger Bone Wine)....  Beijing Tongrentang       TB
                                Medical Wine Factory.
Hugujiu (Tiger-bone Wine)....  Shandong ??               TB
                                Pharmaceutical Factory.
Hugumuguaiu (Tiger-bone        Guangxi Wuzhou Longshan   TB
 Papaya Wine).                  Pharmaceutical Factory.
Hugumuguajiu (Tiger Bone-      Lung Shan Distillery,     TB
 Papaya Wine).                  Wuchow, China.
Hugumuguajiu (Tiger-bone       Shanghai Chinese          TB
 Papaya Wine).                  Medicine Works.
Jianbuhuqianwan..............  Beijing 5th               TB
                                Pharmaceutical Factory.
Jianbubuqianwan..............  Lanzhou Foci              TB
                                Pharmaceutical Factory.
Medicated Plasters of          ``A Product of Yunnan,    Musk, BGB, (TB
 Moschus, Fel Ursi, Os Tigris   China''.                  not listed
 and Yunnan Baiyao.                                       although names
                                                          says TB)
Niuhuangquinxinwan...........  Beijing Tongrentang       RH
                                Pharmaceutical Pactory.
(Qiangli) Renshenzaizaowan...  Foshan Lianhe             TB, Musk, RH
                                Pharmaceutical Factory.
Qianglizhuifengtouguwan......  Guangzhou Lianhe          TB
                                Pharmaceutical Factory.
Rhinoceros Skin and Green      Guangdong (Lianhe?)       RH
 Turtle Pills.                  Pharmaceutical Factory.
Shengronghugwan (Ginseng       Fusong Pharmaceutical     TB
 Antler Tiger-bone Pill).       Factory.
Shenronghuguwan (``Shenyung    Fu Sung Pharmaceutical    TB
 Huku Wan''; also labelled      Works.
 ``Ginseng Antler Tiger-bone
 Pills'').
Shenyung Huku Wan (Ginseng     Fusung Pharmaceutical     TB
 Antler Tiger-bone Pills).      Works.
Shexiangchuifengtouguwan.....  Guangzhou Medicinal       Musk, TB
                                Industry Company.
Shexiangduzhonghuguwan         Sichuan Medicines and     ``Synthetic''
 (capsules).                    Health Products Company.  Musk,
                                                          ``Synthetic''
                                                          TB
Shexianghugugao (Musk and      Shenyang Changqing        Musk, TB
 Tiger-bone Plaster).           Pharmaceutical Factory.
Shexianghuguwan (Musk-Tiger    Chongqing Chinese         Musk, TB
 Bone Pills).                   Medicine Factory.
Shexiangtianqihuguwan (Radix   Weimin Medicine           Musk, TB
 Caulophylli Pill).             Manufactory.
Shexiangxiongdanzhuifengwan    Jilin Chinese Medicine    TB, Musk, BGB
 (Rheumatism Pill).             Manufactory.
Shexiangzhuifentouguwan......  Guangzhou Chinese         Musk, TB
                                Medicine No. 1 Pharm.
                                Factory.
Shihuyeguangwan..............  Shandon Jinan Reinim      RH
                                Pharmaceutical Factory.
Tianma Duzhonghuguwan........  China Nat'l Native        TB
                                Produce and Animal By-
                                Products.
(Tianma Duzhon Tiger-bone      I & E Corp. Fukien        TB
 Pills).                        Branch, Chuanchow
                                Office (Qianzhou,
                                Fujian).
Tianmahuguwan................  Chengdu 7th               TB
                                Pharmaceutical Factory.
Tianmahuguwan................  Chengdu Dongfeng          TB
                                (possibly = 7th) Pharm.
                                Factory.
Special Strong Tianmahuguwan.  Qingdao Pharmaceutical    TB
                                Factory.
Tianqihuguwan................  Chengdu 7th               TB
                                Pharmaceutical Factory.
Tianqihuguwan................  Weimein Medicine Factory  TB, Musk
Tiger Bone Pills.............  Yat Chau Medicine         TB
                                Manufacturing Co. Ltd.
                                (HK).
Tiger Bone Plaster...........  China Chongqing           TB Paste, Musk
                                Traditional Medicine
                                Factory.
TBP..........................  Chongqing Traditional     Musk, TB
                                Medicine Factory.
TBP (Musk and Tiger-bone       5th Chengdu               Musk, TB
 Plaster).                      Pharmaceutical Factory.
TBP..........................  Note: Simplified          Musk, TB
                                packaging with no brand
                                name or factory listed;
                                trademark looks like
                                that of ``Emeishan
                                Brand'', therefore
                                likely made by 5th
                                Chengdu Pharm. Fact..
Tsei Hung Chui Fung Touku Wan  Beijing Tongretang        Musk, TB, BGB
                                Pharmaceutical Factory.
Wulongerhujiu (Five-dragon     Guangxi Wuzhou Longshan   TB?
 Two-tiger Wine).               Pharmaceutical Factory.
Xianghushefengshiwan (Bear     Shangdong ??              TB, BGB
 Tiger Snake Rheumatism         Pharmaceutical Factory.
 Pills).
Yenshunzaizaowan               Foshan Lianhe             Musk, TB, RH
 (=Renshenzaizaowan).           Pharmaceutical Factory.
Zhenzhuniuhuangxijiaojieduwan  Guangdon ?? Company.....  RH
------------------------------------------------------------------------

                          what do we now know?
1. Protected Species Medicines Are Readily Available In North America
    Protected species medicines--those containing or claiming to 
contain tiger, rhino, and leopard--continue to be widely and openly 
available on the North American market as seen in the graphic below.
    This is supported by the results that show that:

    <bullet>  a high percentage of shops (50 percent) offered to sell 
manufactured medicines listing rhino horn and/or tiger bone as 
ingredients were identified;
    <bullet>  these protected species medicines were offered for sale 
in all cities surveyed; and
    <bullet>  a large number and variety of brands of manufactured 
medicines were offered for sale.

    These survey results are especially relevant because they were 
obtained by an investigator of Chinese descent who was a total stranger 
to the clerks and shopkeepers surveyed. If a stranger could obtain 
these results--in a system based strongly on trust and long-standing 
personal relationships--one might conclude that many more items, 
possibly even raw tiger bone or rhino horn, might be available to 
trusted regular customers.
2. Protected Species Medicines Are Available Because of Legal 
        Inadequacies
    The protected species medicines found in the survey are available 
because legal inadequacies or loopholes allow these medicines to be 
legally sold since they cannot be proved to be illegally imported. For 
example, since tiger bone medicines cannot at this time be forensically 
proved to contain tiger bone, the illegal import of these medicines 
cannot be proved in a court of law.
    Prosecutors for both the Canadian and U.S. governments are required 
by federal law to show that the products do contain tiger bone. Because 
of this burden of proof requirement under both countries' federal laws 
and because most of these medicines are smuggled into both countries, 
these medicines are ``legally sold'' throughout the region since their 
illegality cannot be proved otherwise.
    The market flourishes because of the ``legal availability'' of 
these medicines and the fact that almost 10 percent of ethnic-Chinese 
surveyed by TRAFFIC in July 1997 use or have used tiger bone medicines. 
This market continues even though it has been illegal to commercially 
import tiger products into the United States since 1972.
    Therefore, of the 1.7 million Chinese-American population, at least 
153,000 have used tiger medicines at least once. Thus, at least 153,000 
individual packages of medicine that contain or claim to contain tiger 
were purchased or will be purchased by this small group of consumers in 
the United States. These numbers do not take into account other ethnic 
East Asian or even non-Asian users of these medicines. Herbal--and 
therefore traditional--packaged medicines have become popular with 
people of all ethnic background in Canada and the United States.
3. North America Appears to Be a Significant Market for These Medicines
    The openness and effective ``legality'' of the offer for sale of 
these products in North America suggests and even promotes the idea 
that the United States and Canada are significant Western markets for 
protected species medicines. Virtually all (except one in Hong Kong) of 
the rhino horn and tiger bone items found in the North American survey 
were commercially manufactured in China. There is also a greater 
variety of these medicines in North America than in China--4 1 percent 
of the shops in North America offered these products for sale as 
compared to 19 percent in China.
    Overall, considerably more brands or types of manufactured 
medicines, made by more manufacturers, were offered for sale in North 
America in 1996-1997 than in China in 1996. Is the North American 
market encouraging the development of new products or sustaining a 
market for products that have been outlawed in China? The survey found 
that North America had 31 types of medicine compared to 11 types of 
medicine in China. Approximately 29 manufacturers were associated with 
the medicines offered for sale in North America, compared to 
approximately 13 manufacturers in China.
4. Illegal Stockpiles of These Medicines May Exist
    The widespread availability and variety of manufactured medicines 
in North America three to four years after the Chinese ban went into 
effect suggests that commercial medicines claiming to contain rhino 
horn or tiger bone continue to be manufactured in or exported from 
China. This situation would clearly be a violation of Chinese law as 
well as U.S. and Canadian laws; therefore, it is important to document 
whether such manufacture and export is actually taking place. A second 
possibility for the continuing supply of these medicines is that 
another county is illegally reexporting stockpiled manufactured 
medicines that were imported at one time from China. Still another 
reason may be that one or more North American importers purchased and 
stockpiled these medicines as the Chinese ban went into effect and 
those stocks are a source of the trade.
    Determining the age of medicines identified in the survey is 
difficult because very few of the medicines surveyed had a manufacture 
date on the package, and those that did were dated September 1993. (The 
Chinese prohibition went into effect in mid-1993.) Illegal imports of 
these medicines have been documented in the past in a TRAFFIC analysis 
of U.S. imports of protected and regulated medicines (Gaski and Johnson 
1995), and such imports have been intercepted in law enforcement 
investigations.
5. Public Outreach Must Be Initiated to Eliminate These Markets
    A lesson may be learned from the results of this survey. Los 
Angeles was the ``cleanest'' of all North American cities. In normal 
circumstances, the profile of Los Angeles would be very similar to that 
of San Francisco. Both are in California, both have large and historic 
Chinese-American populations, and both harbor a well-established and 
defined Chinatown. However, Los Angeles has been subjected to 
intensive, multi-year, cooperative law enforcement efforts by federal, 
state, and local law enforcement authorities. Subsequent court cases 
and sentences received extensive press coverage in the city and 
throughout the region, as well as in East Asia. During Hat time, the 
U.S. government also initiated a brief pilot project on public outreach 
on the use of traditional medicines that exploit endangered species.
                           what can be done?
Action 1. Increase Regional Law Enforcement.
    Both Canada and the United States have comprehensive laws to 
implement most of the provisions of CITES and to strongly penalize and 
deter illegal trade. Both countries also have wildlife legislation--the 
U.S. Lacey Act and a provision in Canada's WAPPRIITA--that prohibit the 
import and interstate, interprovincial, or interterritorial commerce of 
animals taken in violation of the wildlife laws of any country, state, 
province, or territory. In addition, the combined force of law 
enforcement personnel in Canada and the United States focusing on 
wildlife trade issues exceeds the entire wildlife enforcement capacity 
of some continents. Therefore, although inadequacies exist in both 
countries' wildlife legislation that impede prosecution of illegal 
trade in endangered species medicines, these countries are clearly not 
doing enough on a nation-wide basis to stop illegal imports and 
eliminate markets and demand.
    In addition, a key issue for law enforcement agencies in North 
America is the ability to determine whether commercially available 
medicines actually contain the rhino horn or tiger bone listed as 
ingredients. Forensic testing has thus far failed to detect measurable 
quantities of rhino horn or tiger bone in any of the many medicines 
tested. Without a way to definitively prove that parts and derivatives 
of protected species are actually present in these medicines, the U.S. 
and Canadian governments appear reluctant to prosecute businesses that 
sell these medicines.
    Recommendation A: The U.S. Fish and Wildlife Service and the 
Canadian Wildlife Service should develop national strategies to address 
the issue of illegal trade in medicines advertised as containing 
endangered species. These strategies should draw upon the expertise and 
knowledge of federal, state, provincial, and territorial wildlife and 
other agencies. They should also utilize the legal authority of other 
government agencies, such as health, food and drug, and customs 
agencies. These strategies should centralize intelligence and other 
information related to source countries and importation methods most 
likely to involve illegal trade in endangered species parts. Since 
Canada and the United States are major markets for illegal endangered 
species products, both countries have an obligation to CITES to devote 
additional resources to wildlife trade controls.
    Recommendation B: Individual states within the United States should 
consider adopting legislation that would prohibit the sale of medicines 
claiming to contain endangered species and their parts and products.
    Recommendation C: U.S. states and Canadian provinces and 
territories should adopt legislation to prohibit the sale of products 
whose labels list protected or regulated species, especially medicines 
that list tiger and rhino as ingredients.
    Recommendation D: The U.S. Fish and Wildlife Service's Clark R. 
Bavin National Forensics Laboratory, working with the Canadian Wildlife 
Service and other forensics scientists, should continue to promote the 
development of techniques (including the application of forensic 
science) for identifying parts and derivatives of endangered and 
protected species used in traditional medicines, and should assist 
other countries by sharing this expertise and helping to solicit other 
external expertise.
Action 2. Strengthen Legislation to Control Internal Trade
    At the 1994 CITES meeting held in Ft. Lauderdale, Florida, the 
parties to CITES specifically recommended that all countries interpret 
the term ``readily recognizable derivative'' as ``any specimen which 
appears from an accompanying document, the packing or a marking or 
label, or from any other circumstances, to be a part or derivative of 
an animal or plant of a species included in the appendices,'' unless 
otherwise exempted. This recommendation was reinforced at the 1997 
CITES meeting. As clearly illustrated by the results of the TRAFFIC 
survey, neither country has responded to this resolution or amended its 
legislation, regulations, or even national policy with regard to 
addressing this identification issue.
    The lack of detectable quantities does not necessarily mean that 
rhino horn or tiger bone was not used to manufacture the medicine. 
Because the Chinese government recognized this problem, China's 1993 
ban assumes that any commercial Chinese medicine listing rhino horn or 
tiger bone as an ingredient actually contains horn or bone. Most 
protected and regulated species medicines offered for sale in North 
American shops were manufactured in China.
    Recommendation E: The U.S. Congress should pass the Rhino and Tiger 
Product Labeling Act in either its House or Senate form. The Act would 
prohibit the import, export, and sale of products labeled to contain 
certain endangered species. Subsequent to passage of the Act, the U.S. 
Fish and Wildlife Service, with the assistance and support of other 
agencies, including U.S. Customs, U.S. Food and Drug Administration, 
and state agencies, should make a concerted effort to aggressively 
enforce this legislation by pursuing and prosecuting those who violate 
its prohibitions.
    Recommendation F: Canada should actively pursue the passage of a 
second regulation to WAPPRIITA or to non-wildlife legislation (such as 
that regulating customs or food labeling), prohibiting the import, 
export, and sale of products labeled to contain CITES Appendix I 
species. The Canadian Wildlife Service should work with other federal, 
provincial, and territorial agencies to enforce existing legislation, 
particularly on possession to sell, by aggressively prosecuting those 
who violate these prohibitions.
Action 3. Identify and Inventory Stockpiles and Manufacturers.
    It is not a simple task to determine the dates of manufacture or of 
importation of commercial medicines. Whereas some of those medicines 
formerly displayed a production date on the box or ingredients list, 
very few of the commercial medicines seen in the current North American 
survey had manufacture dates (and all dates seen were before 29 May 
1993). The only way to verify an importation date is to be present when 
the items are actually imported (as a Customs or wildlife inspector 
might be).
    From the Chinese government's perspective, the only legal medicines 
now in the United States or Canada would have to come from stockpiles 
that existed before the ban, because the manufacture of these medicines 
has been illegal since May 1993. Whether such stockpiles actually exist 
is impossible to determine because no detailed inventories of 
manufacturers or importers in China or elsewhere are known to have been 
conducted at the time of the ban. Research done in 1995 by TRAFFIC East 
Asia (Mills 1997) suggests that some manufacturers were willing to 
export prohibited stockpiles to overseas buyers or even to manufacture 
prohibited medicines if specifically requested. The 1997 CITES tiger 
resolution specifically asks parties to consolidate and ensure adequate 
control of stocks of tiger parts and derivatives. China has made 
positive efforts to respond to CITES requests for such stockpile 
inventories in the past, and an immediate call for an inventory of any 
stockpiles by manufacturers or others would assist CITES law 
enforcement efforts throughout the world.
    Recommendation G: The United States and Canadian CITES authorities, 
with the assistance of the CITES Secretariat, should ask the Chinese 
government to confirm that the status and security of stockpiles of 
these products in China and Hong Kong. These authorities should also 
ask for the same confirmation from other CITES parties, such as 
Singapore, Malaysia, Korea, Japan, Vietnam, and other countries that 
have exported similar manufactured medicines (made in China and 
elsewhere) to the United States and Canada. Both countries should also 
investigate the potential existence of such stockpiles within North 
America.
    Recommendation H: It is critical to determine if commercial 
medicines containing or claiming to contain rhino horn or tiger bone 
continue to be manufactured in China. This knowledge can best be 
obtained by the Chinese increasing their use of overt monitoring of the 
manufacturing industry, combined with undercover investigations.
Action 4. Initiate Collaborative North American Public Outreach 
        Efforts.
    TRAFFIC believes that the impact of law enforcement initiatives, 
the subsequent publicity stemming from them, and associated public 
outreach efforts have changed the patterns of sale and use of protected 
species medicines in Los Angeles, although there are no baseline data 
to support this conclusion. Undoubtedly, when local--or, even better--
nationwide or regionwide law enforcement efforts work in concert with 
focused public outreach initiatives, then shop owners and consumers 
will learn that trade in these medicines constitutes a law enforcement 
violation and a conservation problem and people will no longer offer 
them for sale or purchase them. This conclusion is supported by the 
anecdotal information collected during the survey of sales clerks' 
knowledge of local law enforcement efforts.
    Recommendation I: Interested federal, state, provincial, and 
territorial government agencies, nongovernmental organizations, and 
traditional medicine communities and practitioners in North America 
should work together to initiate new outreach and education efforts in 
key consumer areas within the United States and Canada These efforts 
should focus on the following:
    <bullet>  create an awareness of the plight of endangered species;
    <bullet>  establish a causal link between the decline of endangered 
species and the use of TCM;
    <bullet>  highlight effective alternatives and sustainable 
substitutes to these medicines;
    <bullet>  ensure that the message is not pointed solely at TCM use, 
which only villainizes TCM users. Present a clear message that TCM is 
only one element in a larger problem of habitat loss, human 
encroachment, poaching, and other pressures on wildlife.
Action 5. Increase U.S. Governmental Funding for Tiger Conservation and 
        Trade Control.
    The United States is one of the richest nations on earth and can 
provide, under the U.S. Rhino and Tiger Conservation Act and other 
programs, funds to organizations and governments to undertake research 
projects related to rhino and tiger conservation. It should especially 
direct those funds to projects intended to stop the chronic and 
extremely detrimental illegal trade in endangered species.
    Recommendation J: The U.S. Congress should at least double the 
Finding appropriated under the Rhino and Tiger Conservation Act as a 
response to the efforts of CITES parties to help tiger range states 
``demonstrably reduce the illegal trade in tiger parts and derivatives 
by the 11th meeting of the Conference of the Parties to CITES'' (See 
appendix 1).
    Recommendation K: The United States should pro-actively encourage 
governments of tiger range and consuming countries to apply for this 
funding and also to provide support to pursue effective alternatives 
and sustainable substitutes for protected or endangered species 
medicines, especially with regard to tiger bone and rhino horn.
                               references
    Anon. 1997. Understanding Canada's Wildlife Trade Law and How it 
Applies to Animals and Plants in Medicines. Informational Brochure. 
World Wildlife Fund Canada, Toronto, Canada; Environment Canada, 
Ottawa, Ontario, Canada; Karuna Community Service.
    Anon. 1994. California Department of Fish and Game press release, 
February 1994; The Daily Sentinel, 25 June 1994.
    Anon. 1995. U.S. Attorney's Office news release, Central District 
of California; Associated Press, 4 April 1995.
    Anon. 1995a. U.S. Attorney's Office press release, Los Angeles, 
California; U.S. Fish and Wildlife Service.
    Anon. 1995b. Anchorage Daily News, 25 September 1995.
    Anon. 1995c. pers. comm., 11 November 1997.
    Anon. 1995d. U.S. Fish and Wildlife Service press release, 19 
October 1995.
    Anon. 1996. Agence France Presse [AFP], 28 June 1996.
    Anon. 1997. Ministry of Environment, Lands and Parks, 4 April 1997
    Anon. 1997a. Ministry of Environment, Lands and Parks, 11 April 
1997.
    Bensky, D. and A. Gamble. 1993. Chinese Herbal Medicine Materia 
Medica Eastland Press, Seattle, Washington, USA.
    Callister, D.J. and T. Bythewood. 1995. Of Tiger Treatments and 
Rhino Remedies: Trade in Endangered Species Medicines in Australia and 
New Zealand. TRAFFIC Oceania, Sydney, New South Wales, Australia.
    Chalifour, N. 1996. Canada's Role in the Tiger Trade: 
Recommendations for a Tiger Safe Nation. World Wildlife Fund-Canada, 
Toronto, Canada.
    Gaski, A.L. and K.A. Johnson. 1994. Prescription For Extinction: 
Endangered Species and Patented Oriental Medicinals in Trade. TRAFFIC 
USA, Washington, D.C.
    Leader-Williams, N. 1992. The World Trade in Rhino Horn: A Review. 
TRAFFIC International, Cambridge, United Kingdom.
    Mainka, S. 1998. Rhino Progress: The Response to CITES Resolution 
Cony: 9.14. TRAFFIC International, Cambridge, United Kingdom.
    Mainka, S. 1997. Tiger Progress: The Response to CITES Resolution 
Conf. 9.13. TRAFFIC International, Cambridge, United Kingdom.
    Mills, J.A., Ed. 1997. Rhinoceros Horn and Tiger Bone in China: An 
Investigation of Trade Since the 1993 Ban. TRAFFIC International, 
Cambridge, United Kingdom.
    Mills, J.A. 1993. Market Under Cover: The Rhinoceros Horn Trade in 
South Korea. TRAFFIC International, Cambridge, United Kingdom.
    Mills, J.A. and P. Jackson. 1994. Killed For A Cure: A Review of 
Worldwide Trade in Tiger Bone. TRAFFIC International, Cambridge, United 
Kingdom
    Mulliken, T. and M. Haywood. 1994. Recent data on trade in rhino 
and tiger products, 1988-1992. TRAFFIC Bulletin 14(3):99-106.
    Nowell, K., Chyi Wei-Lien and Pei Chia-Jai. 1991-1992. Horns of a 
Dilemma: The Market for Rhino Horn in Taiwan. TRAFFIC International, 
Cambridge, United Kingdom.
      Prepared Statement of Wayne Pacelle, Senior Vice President, 
Communications and Government Affairs, The Humane Society of the United 
                                 States
    I am Wayne Pacelle, senior vice president for Communications and 
Government Affairs for the Humane Society of the United States (HSUS), 
this Nation's largest animal protection organization, with more than 
6.2 million members and constituents.
    Mr. Chairman, the bills under discussion today each focus on the 
need to stem the tide of illegal trade in wildlife. The bill relating 
to the disposal of stockpiles of parts and products of endangered and 
threatened animals demonstrates the enormous magnitude of the illegal 
wildlife trade in this country. The bills relating to the conservation 
of rhinos and tigers, and the trade in products made from them and 
other threatened and endangered species, are the latest in a series of 
domestic and international steps to stop the illegal trade in products 
of these animals, which have been driven to the brink of extinction by 
this trade. The bill relating to the bear parts trade seeks to stem the 
precipitous decline of Asian bear species, whose parts are traded 
globally; the bill also proactively seeks to protect America's bears 
from the same strong markets that have nearly wiped out Asian bear 
populations.
                    the bear protection act (s. 263)
    Mr. Chairman, on behalf of the millions of members and constituents 
of the HSUS and the 127 undersigned organizations, including 
organizations from every State represented by members of this 
committee, I wish to state our strong support for the Bear Protection 
Act.
    This anti-poaching legislation introduced by Senator Mitch 
McConnell is an effort to eliminate the incentive to kill bears 
illegally and profit by the sale of their internal organs, particularly 
the gallbladder and bile. S. 263 represents a thoughtful, pro-active 
approach to wildlife protection that will contribute to the long-term 
conservation of the world's remaining bear species.
    As the committee surely knows, the Bear Protection Act has a 
remarkable base of support in both the Senate and the House, reflected 
not only in sheer numbers, but also in the bipartisan nature of 
cosponsorship. In addition to lead sponsor Senator McConnell, 24 
Republicans and 29 Democrats have cosponsored the bill--a total of 54 
Senators representing a majority of the Senate. Specifically, six 
Republicans and seven Democrats, two-thirds of this committee, have 
cosponsored the bill. Companion legislation in the House introduced by 
Congressman John Porter (R-IL) has amassed 135 cosponsors thus far on a 
similar bipartisan basis.
    The Bear Protection Act creates sound national policy against the 
trade in bear gallbladders and bile. The absence of Federal legislation 
prohibiting trade in bear parts allows an interstate and international 
illegal trade to flourish. It is wrong for this Nation to allow 
poachers and smugglers to exploit the current inconsistencies in State 
laws and profit from the sale of bear parts. The Bear Protection Act 
will assist State and Federal wildlife enforcement efforts. If enacted, 
the legislation would:
    <bullet> protect endangered Asian bears from international markets 
for their organs;
    <bullet> protect American bears from being poached to supply 
foreign demand for their parts; and
    <bullet> protect American bears from domestic markets in bear 
parts.
    The United States has an especially important role to play in bear 
conservation since it is both a bear range State and a Nation whose 
citizens unfortunately consume bear parts. Senator McConnell has wisely 
drafted a bill that focuses narrowly on a specific problem in global 
bear conservation: the spreading, highly lucrative trade in bear 
viscera such as the gallbladders and bile. The demand for bear parts 
and derivatives in traditional medicine and, increasingly, luxury 
cosmetic items, continues to put enormous pressure on endangered Asian 
bear populations. In an effort to supply this huge market, traders now 
are also targeting America's bear populations.
    Although it is difficult to accurately quantify levels of the trade 
in bear parts, especially since it is an illegal enterprise in most 
States, there is a clear indication that bear poaching and the trade in 
bear gallbladders and bile are widespread. In 1994, Christopher 
Servheen, representing the U.S. Fish and Wildlife Service and the IUCN/
SSC Bear Specialist Group, noted ``There is a serious impact on global 
bear populations from the trade in bear parts'' (Proceedings of the 
International Symposium on the Trade of Bear Parts for Medicinal Use, 
Washington, 1994). He also noted in a 1995 statement that, ``As Asian 
bear populations decline and wild bear bile and other bear parts become 
more difficult to obtain, sources of bear parts outside Asia will be 
developed by traders and others willing to make significant profits.'' 
Dr. Ed Espinoza, deputy director of the U.S. Fish and Wildlife 
Forensics Laboratory in Oregon contends, ``Right now the bear 
population is healthy. . . . But the possibility exists that, if we 
don't control the trade in bear parts, we could lose the entire 
population'' (The Idaho Statesman, September 17, 1995).
    The 1995 World Wildlife Fund annual report echoes these warnings: 
``A recent TRAFFIC study reported that American black bear populations 
are targets of illegal traders in bear parts. The booming medicinal 
market for these parts, where a single bear gallbladder can be sold for 
as much as $11,000 in some Far Eastern markets, has already sent Asian 
bear populations into decline and is causing traders to turn 
increasingly to American black bears. A complex patchwork of State laws 
in the United States makes it almost impossible to regulate the 
trade.''
    All eight extant bear species are listed under the Appendices to 
the Convention on International Trade in Endangered Species of Wild 
Fauna and Flora (CITES). The spectacled bear (Tremarctos ornatus), 
Asiatic black bear (Ursus thibetanus), sun bear (Helarctos malayanus), 
sloth bear (Melursus ursinus), giant panda (Ailuripoda melanoleuca) and 
some subspecies of brown bear (Ursus arctos) are listed on CITES 
Appendix I, thus prohibiting international commercial trade in their 
parts and products. Other species, including the polar bear (Ursus 
maritimus) and the American black bear (Ursus americanus), are listed 
on Appendix II which means some international trade in their parts and 
derivatives can occur, under very specific regulations.
    The primary reason for the 1992 CITES listing of the American black 
bear was the ``look-alike'' problem--it is impossible to visually 
distinguish the gallbladder of, for example, an endangered Asiatic 
black bear from an American black bear. The Trip Report from a December 
1997 U.S. Fish and Wildlife Service delegation that visited Korea, 
states, ``. . . according to the Service's National Forensics 
Laboratory, it is still technically impossible to determine the species 
of bear from a sample of gallbladder. Such purported results would not 
hold up in court.'' This creates a significant enforcement loophole 
which facilitates the illegal trade in bear parts and products. The 
Bear Protection Act would close this loophole and assist State and 
foreign bear conservation enforcement efforts.
              state support and the need for a federal law
    That ``complex patchwork of State laws in the United States'' 
addressing the bears parts trade, to which the WWF report referred, is 
a major factor complicating enforcement. Thirty-two States ban the 
commercialization of bear parts, nine States allow trade only of 
gallbladders taken from outside the State, seven States allow commerce 
regardless of origin, and two States without bear populations have no 
regulations at all. This current system allows poachers to kill bears 
(illegally) in one State where the sale of bear parts is prohibited, 
and to sell the parts ``legally'' in another State--or ship them out of 
the country--completely circumventing the first State's prohibition on 
sale of bear parts. State wildlife agencies and district attorneys' 
offices are hindered in investigating and prosecuting bear poaching and 
gallbladder trade cases by this State-to-State inconsistency.
    In 1995 and 1996, conservation organizations inquired of all 50 
State wildlife departments whether they considered the current 
patchwork of State laws regarding the trade in bear parts to be a 
problem and whether they would support the pending Federal legislation. 
Over 30 State wildlife agency representatives and/or wildlife law 
enforcement personnel responded that this legal disparity makes 
wildlife law enforcement difficult and endorsed a uniform legal 
framework to prohibit the trade in bear viscera.
    The responses were incorporated into a report in April 1996, by the 
HSUS entitled The American Bear Parts Trade: A State-by-State Analysis. 
Captain Dave Tyler, Division of Enforcement, Rhode Island Department of 
Environmental Management, for instance, replied that an interstate ban 
on bear viscera trade ``would help because it is hard if trade is legal 
in one State and illegal in another.'' James Timmerman, Jr. Ph.D., 
Director of the South Carolina Department of Natural Resources 
concurred: ``The South Carolina Department of Natural Resources would 
certainly support national legislation that protects the American black 
bear from the gallbladder trade. A Federal law prohibiting the 
commercial sale, import and export of bear gallbladders would be most 
helpful in protecting the American bear population from this illegal 
activity. . . . I support this initiative and am very supportive of 
anything that can improve enforcement in all areas.''
    Even representatives in those States without existing State 
legislation to control the trade in bear parts acknowledge the problem 
of legal inconsistency. Ray Lyon, Enforcement Assistant Chief, Special 
Operations with Idaho Fish & Game noted in a 1995 letter, ``We realize 
that there is some illegal killing of bears promoted by our laws.'' In 
fact, a 1992 Alaska court case shows exactly how the current legal 
inconsistency makes wildlife enforcement difficult, if not impossible, 
and interferes with other States' efforts to manage their wildlife. An 
individual in Alaska, where State regulation 5 AAC 92.200 prohibits 
purchase of any part of a bear, was offered bear parts by a man in 
Idaho where commerce is legal. She agreed to buy them, sent payment, 
and was arrested when she went to the airport to collect her purchase. 
Although all of the Alaska resident's actions related to this unlawful 
purchase were committed within the State, the case was ultimately 
dismissed because the ``legal site'' of the purchase is not defined.
    The Alaska Attorney General's office concluded that this decision 
``will lead to the inevitable result of encouraging individuals to 
unlawfully take bears in Alaska, take them outside to places like Idaho 
where the sale of bear parts is still legal, and sell them to 
purchasers in Alaska through out-of-state strawmen. This is the very 
kind of conduct the legislature and Board of Game intended to prevent. 
. . . This does not further the administration of justice.''
    This case in Alaska is not an isolated incident, although statewide 
investigations and prosecutions have varying levels of success. 
Additional bear poaching and gallbladder trading operations have been 
uncovered nationwide. Bears are being targeted and killed specifically 
for their parts and no additional, expensive, government-funded studies 
are necessary to see that this is a problem. The following examples 
provide illustration of bear poaching and gallbladder trade cases 
across the country:
    <bullet> Investigations in California resulted in arrests in 1994 
and in February of this year. In these cases, individuals, including 
Korean-Americans, arranged illegal bear hunts and sale of bear parts 
both in the United States and South Korea.
    <bullet> In Senator Lautenberg's home State the Star-Ledger 
newspaper reported in 1996 that ``wildlife officers found the carcass 
of a black bear in West Milford. It was missing its gallbladders, paws, 
tongue and teeth. . . .'' New Jersey Wildlife Law Enforcement deputy 
chief Greg Huljack noted, ``It doesn't happen often; but when it does 
it's one too many.''
    <bullet> An article in The Idaho Statesman (September 17, 1995) 
quotes U.S. Fish and Wildlife Service special agent Paul Weyland: 
``Bears are being poached just for their gall bladders . . . We even 
have intelligence of people poaching bears in other States and 
laundering them in Idaho.'' Weyland continues: ``Poaching is 
widespread, there's no question. . . . Idaho Fish and Game biologists 
are wondering what's happening to our bears. I can tell you what's 
happening to them: They're being poached.''
    <bullet> In Utah, State Division of Wildlife Resources agents 
learned of a Salt Lake man who in 1996 was purchasing bear galls and 
``moving them to South Korea.'' According to The Salt Lake Tribune 
(January 28,1998) he allegedly told agents, ``In my mind I won't get 
caught.'' In a separate, yet unsolved case, State DWR investigator 
William Woody found two bears in Moab in 1997 with only the paws and 
galls removed.
    Passage of the BPA will create a uniform legal framework that 
closes the loophole of disparate State laws, thereby contributing to a 
reduction in the number of bears poached globally to supply the trade, 
and facilitating the wildlife enforcement efforts of dedicated State 
fish and game personnel.
   the bear protection act would have a positive international impact
    Of course, the illegal bear parts trade is a global problem with 
the most serious potential impact facing endangered bear populations 
outside the United States. The confusion caused by, and easy 
circumvention of, State laws, provide cover for continued illegal 
commerce in the gallbladders of Asian bears whose populations have 
nearly disappeared. The enforcement complications of the legal status 
quo also allow traders outside the United States to sell endangered 
bear parts under the guise that they are from legally taken North 
American bears. By prohibiting the import and export of bear parts and 
derivatives, Senator McConnell's legislation will help conserve these 
endangered Asian bear populations.
    For example, Mr. Sang Do Lee, Director and Senior Prosecutor with 
the South Korean Environmental Crime Division, told a U.S. Fish and 
Wildlife Service delegation that prosecutors ``assume that the bear 
galls [entering the Republic of Korea] from the United States come from 
legally hunted bears.'' Since 1991, the U.S. Fish and Wildlife Service 
has issued 19 permits for export of bear gallbladders and bile. Only 1 
permit (for a single gallbladder to Japan) was not for forensic 
analysis, scientific research, or return of parts used as evidence in 
wildlife cases. The FWS 1997 Korea Trip report adds: ``Mr. Lee wishes 
the U.S. Government would put tougher controls on smuggling out of the 
United States. . . . Lee knows of no other species where there is an 
illegal trade problem comparable to that of bear gall; bear gall is 
small, profitable, and easy to smuggle.''
    Enactment of the Bear Protection Act will prevent those attempting 
to sell endangered Asian bear parts in other countries such as China, 
Taiwan, Japan, South Korea and elsewhere from falsely claiming they are 
from legally taken American bears. The fact that no gallbladders, bile, 
or derivatives will be able to leave the United States legally will 
facilitate the successful prosecution of such individuals.
    Passage will also send a strong message to poachers and profiteers 
that the United States intends to continue its leadership role in 
global species conservation, including our international obligations 
under CITES. At the 10th meeting of the Conference of the Parties last 
summer in Zimbabwe, the United States co-authored a Resolution on 
``Conservation of and Trade in Bears.'' The Resolution, passed 
unanimously, begins by:

          ``NOTING that the continued illegal trade in parts and 
        derivatives of bear species undermines the effectiveness of the 
        Convention and that if CITES Parties and States non-party do 
        not take action to eliminate such trade, poaching may cause 
        declines of wild bears that could lead to the extirpation of 
        certain populations or even species.''

    The resolution then:

          ``URGES all Parties, particularly bear range and consuming 
        countries, to take immediate action in order to demonstrably 
        reduce the illegal trade in bear parts and derivatives by the 
        11th Meeting of the Conference of the Parties, by: a) 
        confirming, adopting or improving their national legislation to 
        control the import and export of bear parts and derivatives, 
        ensuring that the penalties for violations are sufficient to 
        deter illegal trade.''

    The Bear Protection Act is national legislation that meets this 
international goal.
    The Bear Protection Act has severe impacts only for poachers and 
smugglers. It will not affect a State's ability to decide whether bear 
hunting can occur within the State, how long the hunt season can last, 
what the bag limit for the season will be, or by what methods bear 
hunting can take place. Nothing in the bill compromises a lawful 
hunter's ability to kill bears in accordance with these State 
regulations. In fact, of the 27 States that have bear hunting seasons, 
over two-thirds of them, 19 States, also ban bear gallbladder 
commercialization with no conflict.
    Nor should it hinder those who practice traditional medicine. 
According to both the EarthCare Society and Association of Chinese 
Medicine (two prominent Hong-Kong non-governmental organizations), 
there are at least 54 herbal alternatives to bear bile in its various 
medicinal applications. There are also synthetic alternative remedies. 
Word Fei-Cheung, Assistant Manager of the London-based Institute of 
Chinese Medicine told the CITES Standing Committee meeting in Rome in 
1996, ``We are as aware as anybody else of the threat to endangered 
species caused by the unscrupulous people who trade in the products of 
species such as the tiger, the bear and the rhinoceros. Indeed, we 
condemn these practices just as strong as the international 
conservation community . . . It is vital that the trade in these 
products is stopped forever, if we are to save these species.''
    The 105th Congress has an historic opportunity to enact legislation 
that will contribute to ensuring a stable future for these species 
across the globe. Anyone who is strongly opposed to the illegal 
poaching of bears should support S. 263. The world sadly watched for 
decades as the trade in rhino horn and tiger bone, along with habitat 
destruction, nearly wiped out these species throughout their range. 
Now, bear habitat is being destroyed and smugglers are trading in their 
gallbladders. There is no reason for the world's bears to risk a 
similar fate as rhinos and tigers. There is no reason to wait until all 
eight species are in complete peril to ban the commercialization of 
bear viscera.
    the fish and wildlife revenue enhancement act of 1998 (s. 2094)
    The HSUS strongly supports the U.S. Fish and Wildlife Service's 
Division of Law Enforcement and regularly asks Congress to appropriate 
more funds toward the Division's activities. The HSUS supports the 
mission of the National Wildlife Property Repository to include 
forfeited and abandoned wildlife parts and products as part of a 
wildlife trade education kit distributed to museums, schools and other 
organizations. We also support the mission of the National Eagle 
Repository to distribute eagle carcasses to Native Americans for 
religious and ceremonial purposes.
    We commend Senator Allard for seeking ways by which to enhance the 
flow of funds to the U.S. Fish and Wildlife Service's Division of Law 
Enforcement. However, The HSUS has the following concerns about the 
proposed amendments to the Fish and Wildlife Improvement Act (S. 2094):
    <bullet> The HSUS does not support the U.S. Government engaging in 
the trade in wildlife parts and products. The Fish and Wildlife 
Improvement Act authorizes the Secretary of the Interior or the 
Secretary of Commerce to dispose of abandoned and forfeited fish and 
wildlife ``in such a manner as he deems appropriate (including, but not 
limited to, loan, gift, sale, or destruction).'' Sale is only one 
option that should be considered and it is an option that the HSUS does 
not support. The Service should limit its role to regulating the trade 
in wildlife, rather than promoting or engaging in trade as a supplier. 
One reason the Repository has never sold forfeited or abandoned fish or 
wildlife is that the Repository would not have benefited from such a 
sale. S. 2094 would allow the Repository to benefit from the sale and, 
if passed, S. 2094 would encourage the Secretaries of Interior and 
Commerce to favor sale instead of destruction or other methods of 
disposition preferred by the HSUS. Since the HSUS opposes the sale of 
forfeited and abandoned wildlife by the Service, we also oppose S. 2094 
because it would encourage such sale.
    <bullet> The precedent-setting sale of 200,000 wildlife parts and 
products at auction may generate considerable press attention that 
would seriously undermine the Repository's efforts to educate the 
public about the harm caused by the wildlife trade. Most members of the 
American public do not distinguish between luxury products made from 
endangered, threatened or CITES Appendix I species and luxury products 
made from other wildlife. Certainly, to the HSUS' six million members 
and constituents, the inhumane treatment suffered by animals killed to 
supply the wildlife parts and products trade is the same regardless of 
the conservation status of the species. For example, although kangaroos 
are not protected under CITES or the Endangered Species Act, five 
million are killed in cruel ways each year to supply the international 
trade in kangaroo skin, which is made into shoes, luggage, belts, 
wallets and gloves. Many Americans are sure to be appalled by the 
Service's promotion of and participation in the trade in such items. In 
contrast, the educational message that could be generated by a public 
event involving the 200,000 sellable items plus the old and 
deteriorating items made from endangered, threatened, and Appendix I 
species would be very meaningful. Kenya and Nepal have made headlines 
in newspapers around the world by publicly burning such items.
    <bullet> There are other ways of meeting the financial needs of the 
Repository without the Service engaging in the wildlife trade business. 
The Repository has stated that it would use the proceeds from the sale 
to send out more wildlife trade education kits, more eagles, and to 
maintain items in the Repository. In this regard, the HSUS was 
surprised to discover that the Service pays shipping and handling costs 
for the educational kits and eagles. Under these circumstances, it is 
no wonder that these ``free'' services generate more requests than the 
Repository can fill. The HSUS supports a ``users pay'' approach toward 
distribution of the education kits: those requesting the educational 
kits should pay the $50 shipping and handling charge. This measure, 
which could be adopted administratively, would save the Service $20,000 
or more per year. Second, the Repository has stored far more items than 
are required for its educational outreach program, at considerable 
expense. According to information prepared by the Repository, just over 
7000 items were used for education kits between July 1995 and December 
1997, yet the Repository stored and maintained 450,000 items. The cost 
of maintaining 440,000 items that the Repository will never use 
represents a considerable waste of money and staff time that could be 
avoided in the future by cutting back significantly on the number of 
items stored in the Repository.
    Rather than pursue this legislation, the HSUS urges the Repository 
to adopt a ``users pay'' approach to the distribution of the education 
kits, to cut back significantly on the number of items stored in the 
Repository, and to hold a public event to destroy all surplus items in 
order to educate the public about the harm caused by the wildlife 
trade.
    That said, with the legislation expected to advance, we suggest 
that the following changes to S. 2094 would improve the bill 
considerably:
    <bullet> The bill should explicitly state that none of the items 
sold will be of species listed as endangered or threatened under the 
Endangered Species Act, on Appendix I of CITES, or protected by the 
Marine Mammal Protection Act.
    <bullet> The bill should explicitly state that none of the items 
sold will be on Appendix II of CITES unless they were accompanied by a 
legitimate CITES export permit from the country of origin and that none 
of the items sold will be on Appendix III of CITES unless they were 
accompanied by a legitimate CITES export permit or a ``certificate of 
origin.''
    Explanation: When species listed on CITES Appendix II are imported 
without legitimate CITES export permits from the country of origin it 
means that the State of export has not verified that the export is in 
conformance with CITES Article IV, that is: (1) it means that the 
export of the wildlife could have been detrimental to the survival of 
the species; and (2) it means that the specimen could have been 
obtained in contravention of the laws of that State for the protection 
of fauna and flora. The Service should not promote or engage in the 
sale of such wildlife specimens, which could be detrimental to wild 
populations of the species concerned and which could undermine wildlife 
protection laws of other countries.
    When specimens of a species listed on CITES Appendix III are 
imported without a legitimate CITES export permit or ``certificate of 
origin,'' it means that the State of export has not verified that the 
export is in conformance with CITES Article V, that is, it means that 
the export of the wildlife could have been in contravention of the laws 
of that State for the protection of wild fauna and flora.
    <bullet> The bill should explicitly state that none of the items 
sold will be species that were obtained in contravention of the laws of 
the exporting State for the protection of fauna and flora.
    Explanation: The export of a species not listed on the CITES 
Appendices or the Endangered Species Act (such as kangaroos and most 
reptiles) is often nonetheless regulated by national conservation laws 
of the exporting State; these regulations are often designed to ensure 
that export is not detrimental the survival of the species concerned. 
Exports conducted in accordance with such laws are often accompanied by 
an export permit from the country of origin. The Service should not 
promote or engage in wildlife trade that is harmful to wildlife 
populations or that undermines the wildlife protection laws of other 
countries.
the rhinoceros and tiger conservation reauthorization act of 1998 (h.r. 
                                 3113)
    The HSUS supports reauthorization of the Rhinoceros and Tiger 
Conservation Act which directs funds toward valuable in-situ rhino and 
tiger conservation projects. The HSUS recommends that Congress 
appropriate $1 million for the Rhinoceros and Tiger Conservation Fund 
in FY99.
    the rhino and tiger product labeling acts (s. 361 and h.r. 2807)
    The HSUS wishes to thank Senator Jeffords for his leadership on 
this effort to enact legislation that would prohibit the import and 
export of any product labeled as containing endangered species or 
species listed on CITES Appendix I. One needs only to walk into an 
Asian market in any large city in the United States to view the many 
products offered for sale that claim to contain such species. The HSUS 
is often asked by our members and constituents how such items can be 
offered for sale in the United States. The response is, unfortunately, 
that the burden of proof that the items actually contain these species 
rests on the over-worked and underfunded U.S. Fish and Wildlife Service 
Law Enforcement Division. And furthermore that, even when examined by 
forensic experts, it is often difficult to detect the species in these 
products because they are present in such minute quantities.
    S. 361 would amend the Endangered Species Act (ESA) in order to 
achieve the aforementioned goals. In contrast, H.R. 2807 has a narrower 
focus and would not amend the ESA; instead, it would amend the Rhino 
and Tiger Conservation Act to prohibit the import, export and sale of 
any product labeled as containing any substance derived from any 
species of rhinoceros or tiger.
    The HSUS supports the intent of both bills. S. 361 is the ideal 
approach because it addresses trade in all endangered and CITES 
Appendix I species, not just rhinos and tigers as does H.R. 2807. 
However, H.R. 2807 is also appealing because it would prohibit sale of 
products claiming to contain these species (it is far easier for 
enforcement officers to observe these products being offered for sale 
than to observe them being imported or exported); S. 361 does not 
address sale. In conclusion, the HSUS recommends that the committee to 
work with Senator Jeffords and Congressmen Saxton and Miller to ensure 
enactment of a Labeling Law by the end of this legislative year.
    Thank you, Mr. Chairman and members of the committee, for this 
opportunity to share our views about these bills.
 organizations that support hsus' testimony on the bear protection act
    Action for Animals Network (VA)
    Adopt a Pet/Save a Life (AL)
    Alliance for the Wild Rockies (ID)
    American Humane Association (CO)
    American Lands
    American Society for the Prevention of Cruelty to Animals
    American Wildlands (MT)
    Animal Allies (NH)
    Animal Allies (VA)
    Animal Care and Welfare/SPCA (PA)
    Animal Protection Institute (CA)
    Animal Protective Association of Missouri (MO)
    Animal Rights America (NJ)
    Animal Rights Foundation of Florida (FL)
    Animal Rights International (NY)
    The Animal Shelter (AL)
    Animals Asia Foundation (Hong Kong)
    Ardmore Animal Care, Inc. (OK)
    The Ark Trust (CA)
    Arkansans for Animals, Inc. (AR)
    Association of Veterinarians for Animal Rights (CA)
    Beauty Without Cruelty (NY)
    Boulder-White Clouds Council (ID)
    Canyon County Animal Shelter (ID)
    Carson/Eagle Valley Humane Society (NV)
    Cayuga County SPCA (NY)
    Chatauga County SPCA (NY)
    Chilton County Humane Society (AL)
    Closter Animal Welfare Society (NJ)
    Committee for Idaho's High Desert (ID)
    Committee for Rational Predator Management (ID)
    Cumberland Animal Control (RI)
    Defenders of Animals Inc. (CT)
    Defenders of Wildlife
    Deutsches Tierhilfswerk (Germany)
    Doris Day Animal League
    Dutchess County SPCA (NY)
    Earth Island Institute (CA)
    Earthtrust
    The Ecology Center (MT)
    Environmental Advocates (NY)
    Environmental Investigation Agency
    Europaisches Tierhilfswerk
    Farm Sanctuary (NY)
    Franklin County Humane Society (MO)
    Franklin County Humane Society (FL)
    Free The Bears Fund, Inc. (Australia)
    The Foundation for Animal Protection, Inc. (CT)
    Friends of Animals (CT)
    Friends of the Bitterroot (MT)
    Friends of the West (ID)
    Friends for Animal Welfare of Randolph County, Inc. (AL)
    Friends of the Wild Swan (MT)
    Fund For Animals
    Gallatin Valley Humane Society (MT)
    Global Survival Network
    Greater Yellowstone Coalition (ID)
    Greenpeace Foundation (HI)
    Hells Canyon Preservation Council (OR)
    Humane Farming Association (CA)
    Humane Federation of Wyoming (WY)
    Humane Society International
    Humane Society of Central Oregon/SPCA (OR)
    Humane Society of Collier County (FL)
    Humane Society of Etowach County (AL)
    Humane Society of Fairfax County (VA)
    Humane Society of North Pinellas (FL)
    Humane Society of the Palouse, Inc. (ID)
    Humane Society of Tampa Bay, Inc
    Hunterdon County SPCA, Inc. (NJ)
    I CARE (FL)
    Idaho Animal Advocates (ID)
    Idaho Coalition United For Bears (ID)
    Idaho Conservation League (ID)
    Idaho Sportsmen for Fair Hunting (ID)
    IdahoWatersheds Project (ID)
    International Primate Protection League
    Kootenai Environmental Alliance (ID)
    Lands Council (WA)
    Last Chance for Animals
    Laurel Animal Welfare League (MT)
    Marion County Humane Society (FL)
    Monmouth County SPCA (NJ)
    Montana Ecosystem Defense Council (MT)
    Montana Ecosystem Defense Council (MT)
    Montgomery County Humane Society (AL)
    National Humane Education Society (VA)
    New Hampshire Animal Rights League (NH)
    New Jersey Animal Rights Alliance (NJ)
    New Jersey Coalition for Animals (NJ)
    North American Wolf Association
    Northeastern Oklahoma Animal Helpers (OK)
    Northern Rockies Preservation Project (ID)
    Oklahoma SPCA (OK)
    Pacific Environment and Resources Center
    Performing Animal Welfare Society (CA)
    Pet Partners of Victor Valley (CA)
    Ponca City Humane Society (OK)
    Predator Defense Institute (OR)
    Predator Project (MT)
    Putnam County Humane Society (FL)
    Rancho Coastal Humane Society (CA)
    Recognition of Animal Rights (NY)
    Rocky Mountain Animal Defense (CO)
    Rhode Island Animal Rights Coalition (RI)
    Safe Haven Humane Society (OR)
    Sawtooth Wildlife Council (ID)
    Shambala Preserve (CA)
    Shawnee Animal Shelter (OK)
    Society for Animal Protective Legislation
    South Lake Animal League (FL)
    SPCA Josephine County (OR)
    Swan View Coalition (MT)
    T-Town People for Animal Welfare and Safety (AL)
    Urban Wildlife Crisis Center (CT)
    Walker County Humane Society (AL)
    Washington Humane Society (DC)
    Wayne County Humane Society (NY)
    West Orange Animal Welfare League, Inc. (NJ)
    West Volusia Humane Society (FL)
    Wild Wildemess (OR)
    Wildcare Foundation (OK)
    Wildlife Watch (NY)
    Wiregrass Humane Society (AL)
    Wise County Humane Society (VA)
    World Society for the Protection of Animals (MA)
    Wyoming Advocates for Animals (WY)
                                 ______
                                 
 Prepared Statement of Kristin L. Vehrs, Deputy Director, American Zoo 
                        and Aquarium Association
    Mr. Chairman and members of the committee: My name is Kristin 
Vehrs. I am the deputy director of the American Zoo and Aquarium 
Association (AZA), and director of the Government Affairs Department. I 
have over 19 years of experience working for the public display 
community.
    The AZA is a professional organization representing 184 accredited 
zoological parks, aquariums, oceanariums, and wild animal parks in 
North America. The majority of our institutional members are located in 
the United States. In addition, AZA represents 4800 individuals, most 
of whom are employed by our zoo and aquarium members. In 1997, over 122 
million people visited AZA member zoos and aquariums--more than those 
who attended professional baseball, basketball, football and hockey 
games combined.
    The AZA appreciates the opportunity to testify before the committee 
on four bills: S. 2094, the Fish and Wildlife Revenue Enhancement Act 
of 1998; S. 361, the Rhino and Tiger Product Labeling Act; H.R. 3113, 
the Rhinoceros and Tiger Conservation Reauthorization Act; and S. 263, 
Bear Protection Act.
    I would like to thank this committee for its leadership and the 
concern it has shown for the conservation of endangered and threatened 
species, in particular African and Asian elephants, tigers and rhinos. 
I especially thank you, Mr. Chairman, Mr. Kempthorne, and other members 
of the committee for approving the reauthorization of the African 
Elephant Conservation Act in June, and the Asian Elephant Conservation 
Act last fall.
     s. 2094, the fish and wildlife revenue enhancement act of 1998
    AZA understands that S. 2094 does not change any FWS authority 
related to the current practices of the National Wildlife Property 
Repository--to dispose of appropriate products through ``loan, gift, 
sale or destruction.'' S. 2094 would allow the FWS to retain all 
proceeds from already-authorized and future sales of eligible wildlife 
materials it obtains in the course of implementing existing laws for 
the costs of handling and disposing of the materials (e.g. shipping, 
storage, appraisals, auction expenses), as well as for other already-
authorized purposes such as processing and shipping eagle feathers to 
Native Americans for religious purposes. Currently, FWS may use 
proceeds from sales of wildlife items for rewards and for some storage 
costs, but not for defraying the costs of the sales themselves.
    While AZA has not formally endorsed S. 2094, our organization and 
our membership strongly support the continued availability of fish-and 
wildlife-related items from the Repository for educational programs. 
The AZA, FWS, World Wildlife Fund (WWF), National Fish and Wildlife 
Foundation, and Samsonite have a cooperative educational effort 
entitled Suitcase for Survival. It is an extremely popular educational 
tool for our member zoos and aquariums. Since its inception in 1991, 
the Suitcase for Survival Program has reached millions of school 
children throughout North America, and, as of 1997, there were 187 
suitcases in circulation with a long waiting list for more suitcases.
    ``Suitcase for Survival'' is designed to teach school children how 
the illegal trade in endangered animal products has contributed to 
bringing many species close to the edge of extinction. AZA-accredited 
zoos and aquariums loan the suitcases, packed with confiscated wildlife 
products and educational materials, to teachers who have completed a 
special training course. This program gives AZA, its members, and 
schools throughout the country the opportunity to teach a whole new 
generation about the choices they make, and the effects their choices 
have on the world around them. We want them to understand that their 
consumer decisions give them the power to impact the future of an 
entire species.
    The AZA believes it is very important that FWS continue to make 
these items available to museums, zoos, and schools for scientific and 
educational purposes.
            s. 361, the rhino and tiger product labeling act
    As this committee is well aware, the situation facing all species 
of tigers and rhinos in the wild has reached crisis levels. Since the 
1940's, three tiger subspecies--the Caspian, Bali, and Javan--have 
become extinct, and the South China tiger is now among the most highly 
endangered mammals on earth. Ninety-five percent of the tiger 
population has disappeared since the beginning of the 20th century. At 
that time, an estimated 100,000 tigers roamed India, Indochina, and 
other parts of Asia. Today, fewer than 7,000 tigers are left in the 
wild, and those numbers continue to drop. While pressure from an 
expanding human population and the development of natural resources to 
supply booming economies have attributed to a decline in worldwide 
tiger populations, poaching has clearly taken center stage since the 
1980's as the primary reason for the decline of these magnificent 
animals.
    According to Joshua Ginsberg of the Bronx Zoo/Wildlife Conservation 
Society, the collapse of the Soviet Union opened the illegal market for 
the Siberian tiger which, combined with an improved standard of living 
for millions of Asian consumers, has increased the demand for expensive 
tiger products. However, recognizing the problem and solving it are two 
very different things, as many of my colleagues have come to realize. 
In the past decade alone, one-quarter of the world's wild tiger 
population may have been killed to supply the international black 
market for tiger parts, despite a 20-year ban under the Convention on 
International Trade in Endangered Species of Wild Fauna and Flora 
(CITES).
    The situation facing the three Asian and two African rhino species 
is also very serious. Populations were abundant and rather widely 
distributed in Asia through the middle of the 19th century. Today, 
fewer than 500 Sumatran rhinos and 100 Java rhinos remain in the wild. 
In Africa, black rhino populations have declined by 96 percent over the 
past two decades due to poaching for the trade in traditional medicines 
and dagger handles. Approximately 13,000 rhinoceros of all species are 
left in the wild, and these numbers are far from stable. Conservation 
biologists believe a population of at least 2,000-3,000 of each species 
is necessary for long-term viability. Most rhino species are far below 
this viability level. While poaching for the horn is the major threat 
for all five species, habitat degradation is also a significant threat 
for the Asian species due to unsustainable exploitation of timber and 
conversion of land for agriculture and other human uses.
    Stopping the demand for rhinoceros horn and tiger parts in light of 
1000 years of proven traditional Asian medicinal practices, and a 
strong cultural affinity for tiger bone and rhino horn, is extremely 
difficult. For far too long, the United States has allowed a weakness 
in current trade controls that makes it relatively easy to sell rhino 
and tiger products in the United States.
    The AZA strongly believes solving this serious problem requires a 
two-pronged attack. We would like a bill to be passed to prohibit the 
import into or export from the United States of any product labeled as 
or actually containing any species of tiger or rhinoceros. While such a 
bill would not affect the market within Asia, it would stop the 
significant importation of rhino and tiger products into the United 
States. According to recent reports by the World Wildlife Fund and the 
Wildlife Conservation Society, more than 50 percent of all retail 
stores in North America Chinatowns continue to sell illegal endangered 
species products despite the twenty-year ban. This approach also would 
eliminate the expensive and time-consuming laboratory testing necessary 
to determine if a confiscated product contains ingredients originating 
from rhinos or tigers.
    AZA believes a Rhino and Tiger Product Labeling Bill will reinforce 
the historical role the United States has played in combating the 
illegal trade of animals and animal parts. Combining such a bill with 
the tools available in the Endangered Species Act, the Lacey Act, and 
the actions the United States took against China and Taiwan in 1994 
under the Pelly Amendment to the Fishermen's Protective Act for 
engaging in trade of tiger parts and rhino horn will tighten the grip 
around the worldwide illegal trade of rhinoceros horn and tiger parts.
    Turning to the specific bills before the committee, we would like 
to see a new version combining the preferable parts of both bills. 
Although we inherently prefer the broader approach taken by S. 361 to 
prohibit the importation of any product labeled as containing any 
species of fish or wildlife listed in Appendix I of CITES, we 
understand that the narrower language contained in H.R. 2807 is the 
more saleable for now. Since there are specific problems that can be 
cited with importation of tiger and rhino parts, we can support the 
narrower language.
    We believe the best vehicle for a Rhino and Tiger product Labeling 
Act is to amend the Rhino and Tiger Conservation Act as is proposed in 
H.R. 2807.
    Finally, regarding the penalties proposed in H.R. 2807, AZA 
realizes that some members of the committee are concerned the 
enforcement language is too extreme, in particular, authorizing seizure 
of equipment, vessels, vehicles, etc. The AZA would be willing to work 
with you and the committee to resolve this issue.
    Mr. Chairman, AZA believes it is critical that a bill move forward 
to the Senate floor this session. The World Wildlife Fund/Wildlife 
Conservation Society document referenced above clearly illustrates that 
Congress needs to give FWS the tools necessary to prevent further 
illegal products from entering this country.
    I'd like to outline some of the activities AZA members undertake in 
educating the public about the harmful effects of purchasing rhino and 
tiger products. On a daily basis, our members educate millions of 
visitors about the devastating effects of development on the critical 
habitat for these two highly endangered species, and the long-term 
consequences of purchasing products that claim to contain rhino or 
tiger parts. Educating the public about its individual actions is an 
essential part of stopping the existing illegal trade, and of keeping 
tigers and rhinoceros from going the way of the Dodo bird.
    Last year, AZA unveiled a new traveling exhibit designed to promote 
the survival of the tiger. The AZA ``Save The Tiger Traveling Exhibit: 
Tigers in Crisis'' is designed to educate people about tigers, the 
problems they face as an endangered species, and the efforts zoos and 
other organizations are making to conserve them. Funded by the Exxon 
Save the Tiger Fund Program of the National Fish and Wildlife 
Foundation, the display consists of five freestanding kiosks attached 
to dramatic life-size tiger cut-outs. Highlighted with magnificent 
photography and hands-on interactive elements, each kiosk tells a 
different chapter in the life story of tigers, relates what's being 
done to help them, and offers the public opportunities to get involved 
in tiger conservation. Between January 1998 and September 2000, the 
exhibit will have visited nine AZA zoos across the country, allowing 
millions of visitors to become better educated on the plight of tigers.
    The zoos and aquariums of AZA also have greatly expanded their 
conservation responsibilities well beyond their gates. AZA members are 
involved in field conservation programs on every continent, including 
rhinoceros and tiger field conservation programs in Asia and Africa. 
For example, the AZA Sumatran Tiger Species Survival Plan (SSP) works 
continuously with Indonesian wildlife authorities in developing their 
Center for the Reproduction of Endangered Species, benefiting both 
native rhinoceros and tigers. The Minnesota Zoological Garden has 
adopted the Ujung Kulon National Park, on the island of Java in 
Indonesia, to protect the last stronghold of the Javan rhino. A number 
of AZA institutions have combined their efforts with the International 
Rhino Foundation in Zimbabwe on several conservation projects to 
protect the southern black rhinoceros.
    For many years, AZA institutions also have had the good fortune to 
maintain a number of endangered species in their care, giving them the 
opportunity to develop successful techniques in veterinary care, 
reproductive technology, genetic analysis, population management, 
disease control, and tracking animals' movements using technology such 
as radio or satellite telemetry that have been transferred to use in 
the field. In essence, AZA zoos and aquariums have become the 
classrooms for field conservation.
  h.r. 3113, the rhinoceros and tiger conservation reauthorization act
    The AZA strongly supports the reauthorization of the Rhinoceros and 
Tiger Conservation Act. The AZA believes the Rhinoceros and Tiger Fund 
has already proven itself effective for critical conservation programs 
in Africa for the highly endangered northern white and southern black 
rhinoceros, and for developing workshops in India and Indonesia for 
improving enforcement programs. Like the African Elephant Conservation 
Fund--a recognized successful public-private partnership--this fund is 
designed to deliver immediate results by assisting conservation 
organizations on the front lines in saving animals from extinction 
through critical field conservation work and anti-poaching efforts. 
These funds, which must be shared among tiger programs in over ten 
countries and programs for five species of rhinos, have kept, and will 
continue to keep, several important conservation efforts moving 
forward.
    AZA believes its ability to educate 122 million visitors annually--
including 10 million students as part of their classroom and summer 
camp activities--with our expanding field conservation programs, has 
placed us in the forefront of wildlife conservation education. AZA and 
its member institutions will continue to work with the FWS and Congress 
in combating the senseless destruction of these magnificent animals.
                      s. 263, bear protection act
    Most populations of the world's eight bear species have experienced 
significant declines during this century. Habitat loss and overhunting 
has played a critical role in the demise of Asian bear populations in 
particular. An international market in bear parts for traditional Asian 
medicines also exists. While the scope and impact of this trade on bear 
populations is not clearly known, the relatively high market value of 
bear parts, particularly gall bladder and bile, warrants that action be 
taken to minimize the threat or potential threat of illegal trade. In 
spite of this, black bear populations in the United States remain among 
the healthiest in the world.
    It is in the context of the U.S. black bear populations that AZA 
has concerns with S. 263. While we support the broad intent of S. 263 
to conserve bear species, we are reluctant to fully support the bill 
because we believe we do not yet understand the problems facing bears 
in the United States and the connections to global bear conservation. 
Although the illegal Asian medicinal market poses a threat to Asiatic 
bear species, we have not seen evidence to support the claim that bears 
in the United States are also threatened by the demand for bear 
viscera.
    The American black bear is already listed in Appendix II of CITES, 
and most States already prohibit the commercial trade in bear parts 
(29). While there are seven States that allow commercial trade of 
products from bears taken within their borders, most of these bear 
populations are stable and in some cases may even be increasing. The 
exception is the Louisiana and Florida subspecies. Although 
inconsistent State laws may facilitate illegal trade in bear parts, 
there is not enough convincing evidence to indicate this is a 
widespread problem.
    The AZA, WWF, and National Wildlife Federation share the same 
concerns and expressed those in a 23 June letter to Chairman Chafee, 
Senator Kempthorne, Senator McConnell, and Congressman Porter. Our 
specific recommendations for S. 263 are as follows:
    (1) Amend the legislation to allow for a broad review of the 
trade--directed by the Department of Interior and with the assistance 
of State fish and wildlife agencies--to accurately assess problem areas 
so that enforcement resources can be appropriately applied. This would 
involve an assessment of the illegal trade in bear viscera in the 
United States and its impact on wild bear populations in North America 
and elsewhere, and an examination of the links of such activities to 
the Asian medicinal trade. Specific authorization for funding should be 
included with a tight deadline in which to conduct such a review.
    (2) Provide the Department of Interior with greater authority to 
impose broader trade restrictions, pending the outcome of the trade 
review conducted. A similar approach is embodied in the African 
Elephant Conservation Act, and was effectively employed by the United 
States during the 1980's to combat the ivory trade.
    (3) Include authorization language for funding to strengthen long-
term enforcement goals of the Bear Protection Act.
    (4) Include a provision in the legislation authorizing specific 
funding to support conservation programs for endangered bears. This 
will help ensure long-term viability of the world's eight bear species 
and the continuation of the American black bear population.
    AZA would be pleased to work with the committee in developing 
legislation to contribute to global bear conservation.
    Thank you for allowing me to testify on these four important 
wildlife bills.
                                 ______
                                 
 Prepared Statement of Molly Krival, Ph.D., Volunteer and Board Member 
of the ``Ding'' Darling Wildlife Society (DDWS), J. N. ``Ding'' Darling 
                 National Wildlife Refuge, Sanibel, FL
                              introduction
    My name is Molly Krival. I come to you as the archetypical little 
old lady in tennis shoes--one of many little old ladies and younger 
people--who volunteer at a national wildlife refuge.
    When my husband and I retired from the U. of Wisconsin System, we 
moved to Sanibel--off the SW coast of Florida--because of the refuge 
there and because of the conservation ethic of that city. As soon as 
our boxes were stowed away, we went to the visitor center to apply to 
become volunteers. That was 10 years ago.
    We were trained to provide information to the public first in the 
visitor center and later on Wildlife Drive where we focus our spotting 
scope on some of the wonderful wildlife in view. We joined the refuge's 
cooperating association, the ``Ding'' Darling Wildlife Society and, in 
time, were elected to the board where I have served as President. Our 
150-160 volunteers are funded primarily by Society income and are 
trained and organized by a volunteer coordinator from the refuge staff.
    A few years ago, the Society offered training to Managers of other 
refuges--and now National Parks also--to help them organize Friends 
groups of their own, training that has been repeated by the National 
Conservation Training Center each year since. And I am a member of a 
mentor team which visits refuges nationwide who are ready to start a 
Friends group.
    This year I was selected as the Volunteer of the Year for the 
refuge system--a great honor. Another board member and I have given 
5,000 hours to the refuge. It is this background that enables me to 
speak for this Refuge System Volunteer and Partnership bill. I will 
direct my remarks to three of its provisions.
                     reasons for support of sb 2244
    1. It encourages the use of volunteers, facilitates partnerships 
and encourages donations.
    On many refuges, the most likely people seen by visitors are 
volunteers. Refuge staffing is often at a bare minimum and they are 
deeply involved in managing the resource for wildlife. When they train 
volunteers, the staff multiplies its productivity. You can imagine a 
flow chart in which volunteers, partners and staff contribute to the 
amount of work done on a refuge.
    Partnerships often provide a refuge with cooperative funding for 
needed projects not covered by Federal appropriations. Civilian Friends 
groups, such as the ``Ding'' Darling Wildlife Society, also do that. So 
do partnerships with gateway cities like the city of Sanibel, and 
private groups like the Sanibel-Captiva Conservation Foundation. Grant 
providing institutions recognize the value of funding partnership 
projects which tend to do more for the dollar.
    2. Section 3 of this bill allows gifts and donations to be made to 
individual refuges and creates a new matching grants program to 
encourage donations.
    During my first week as a volunteer, an elderly woman who had known 
``Ding'' Darling came to the visitor center with a drawing he had given 
her. She wanted to give the drawing to the refuge. The staff member I 
consulted looked frustrated. The refuge couldn't keep donations. The 
Society could. The word circulated that the Society could accept 
donations and we have received many. Since not all refuges have a 
Friends group to receive donations, gifts have either been refused or 
sent to some mysterious agency reservoir never to be seen again.
    As I travel to refuges all over the country, I find that local 
people form an allegiance to their own local refuge first and want to 
support it. That conviction of the heart leads to donations of time and 
other gifts in kind as well as money. Being sure our donations will 
stay ``at home'' is very important to us. I find that local people are 
far less likely to make donations if those gifts go to some distant 
agency.
    Lately our Society decided to raise $2 million in private funds to 
build a new Center for Education. This is a first effort of its kind in 
the refuge system. So far, we have raised about one million four 
hundred thousand dollars. We expect to complete our drive with only a 
small portion coming from government associated grants. But other 
refuges with high visitation rates and strong Friends groups have goals 
that outstrip their fund raising capabilities; such as
    <bullet> to build their first visitor center and/or increase office 
space;
    <bullet> to purchase big and small items to help manage the 
wildlife habitat;
    <bullet> to upgrade environmental education in their community and/
or schools.
    They need money. Almost always they can raise a portion themselves, 
but the option for a matching grant would be very encouraging to them. 
That provision in this bill would light a lot of fires that we wouldn't 
need to put out.
    3. SB 2244 allows the Department of Interior to start a regional 
pilot project that includes providing a volunteer coordinator to 
organize and oversee volunteer programs.
    Volunteers are a resource of people with all sorts of skills who 
want to help the refuge. We continue volunteering when we are well-
trained, well-organized, and recognized for our contributions.
    There are many refuges where a few volunteers simply work with the 
staff. Where public visitation runs into the hundreds of thousands 
annually--visitation is rising everywhere--volunteer numbers increase. 
Those refuges need a volunteer coordinator to do the job right.
                         summary and conclusion
    All of the provisions of SB 2244 encourage people living near--or 
who have an attachment to--one of the over 500 national wildlife 
refuges
    <bullet> to take an active role in helping meet its mission,
    <bullet> to volunteer,
    <bullet> to form a private nonprofit 501(c)3 in support of the 
refuge and other partnerships and
    <bullet> to donate and encourage donations to their local refuge.
    I believe our political system works best when people freely 
associate themselves with it. Many of us, when we grow older, find 
enormous satisfaction in helping conserve the best of what we have for 
future generations. Many of us suddenly have time to see a bird, an 
alligator, a flowering plant for the miracle of nature it is. Our 
hearts leap up.
    I thank Senator Chafee and the 14 co-signers for selecting this 
means of helping the largest land management system in the world, the 
National Wildlife Refuges. And I thank this committee for the privilege 
of addressing you.
                                 ______
                                 
      Prepared Statement of Gary J. Taylor, Legislative Director, 
        International Association of Fish and Wildlife Agencies
    Thank you, Mr. Chairman. I am Gary Taylor, legislative director of 
the International Association of Fish and Wildlife Agencies, and I 
appreciate the opportunity to share with you the Association's 
perspectives on several fish and wildlife bills before the committee. 
You have asked particularly for our comments on the Bear Protection 
Act; the Great Lakes Fish and Wildlife Restoration Act; and the 
Neotropical Migratory Bird Conservation Act.
    The International Association of Fish and Wildlife Agencies, 
founded in 1902, is a quasi governmental organization of public 
agencies charged with the protection and management of North America's 
fish and wildlife resources. The Association's governmental members 
include the fish and wildlife agencies of the States, provinces, and 
Federal Governments of the United States, Canada, and Mexico. All 50 
States are members. The Association has been a key organization in 
promoting sound resource management and strengthening Federal, State, 
and private cooperation in protecting and managing fish and wildlife 
and their habitats in the public interest.
    Let me begin, Mr. Chairman, with our comments on S. 263, the Bear 
Protection Act. The Association cannot support S. 263 as introduced. We 
understand that the intent of the bill sponsors is to help address the 
poaching of Asian bear species for their gall. However, the bill as 
currently drafted focuses its application largely on the regulation of 
trade of bear viscera in the United States based on the premise that 
domestic poaching of U.S. indigenous bear species is contributing to 
the market demand for bear gall and is having (or could in the future 
have) a significant negative impact on U.S. bear populations. Mr. 
Chairman, there is no substantiation to support either of these 
premises, and the Association therefore concludes that as drafted S. 
263 is neither necessary nor helpful in addressing the decline of 
foreign bear species. Let me offer right up front, Mr. Chairman, that 
the Association is certainly willing to work with the bill sponsors and 
the USFWS on a more appropriately focused import-export bill that would 
address any existing regulatory deficiencies under the Convention on 
International Trade in Endangered Species of Fauna and Flora (CITES). 
However, S. 263 as introduced, does not do that.
    Mr. Chairman, as you are likely aware, bear populations throughout 
the United States are robust and generally increasing. Also, as you are 
likely aware, the statutory responsibility for the conservation and 
management of bear species in the United States lies largely with the 
State fish and wildlife agencies, except for the polar bear, grizzly 
bear and Louisiana black bear where the USFWS shares jurisdiction for 
these species with the States.
    Regulation of bear harvest and allowable use of any parts or 
products (fur, claws, gall, etc.) is thus closely regulated by the 
State Fish and Wildlife agency including through the application and 
enforcement of the Lacey Act by State and Federal wildlife officers. As 
you are aware, the Lacey Act already makes it a Federal violation to 
transport or sell across State lines any wildlife that is illegally 
taken in the State of origin. As recently as May, 1997, our Association 
surveyed all 38 bear range States regarding illegal harvest and 
population impact. The information from the States clearly 
substantiates that while incidental illegal harvest occurs, there is no 
significant population impact from illegal harvest in any bear range 
State. If there were, Mr. Chairman, I can assure you that our State 
fish and wildlife agencies would take appropriate action to address it. 
This conclusion is also corroborated by the USFWS in a paper delivered 
last year at the 2d International Symposium on the Trade of Bear Parts, 
in which Dr. Gnam and Dr. Lieberman of the Office of Management 
Authority conclude that the FWS ``. . . Division of Law Enforcement has 
determined that the poaching of American black bear for their gall 
bladders and other parts to supply the demands of the Asian market for 
these products is not a significant problem and does not occur on any 
large scale.''
    The Association believes, therefore, that the application of the 
Lacey Act to all U.S. domestic commerce in bear viscera, whether it is 
legal in a State or not, as proposed in S. 263 is unnecessary for bear 
resource protection, and is an inappropriate Federal intrusion into 
State management authorities and prerogatives. If enacted, enforcement 
of this law would divert wildlife law enforcement conservation efforts 
away from higher priority issues as commercial trade and trafficking of 
wildlife, particularly foreign species. Mr. Chairman, it is not as easy 
to poach bear unobtrusively as it is to take a few squirrels or rabbits 
out of season. The States spend tens of millions of dollars each year 
in wildlife law enforcement and I assure you would be aware of any 
significant poaching of domestic bear populations. The several States' 
record on conservation law enforcement speaks for itself and there is 
no substantiated evidence that would compel Federal intervention. The 
State fish and wildlife agencies are prepared to respond to any 
increase in poaching of bears.
    Mr. Chairman, our State-based system of fish and wildlife 
conservation in the United States is justifiably the envy of the rest 
of the world. Let me suggest that, rather than the creation of 
additional Federal statutory authority as contemplated in S. 263, 
especially where it preempts State management prerogatives, the 
provision of additional resources to the USFWS--Division of Law 
Enforcement would be a more appropriate and effective means of 
affecting Asian bear populations by the regulation of illegal trade in 
their parts or products. As I indicated earlier, there is little data 
to substantiate if U.S. bear gall is contributing to a market demand 
for Asian bear gall and thus affecting the Asian bear parts trade, and 
consequently, the Asian bear population. The Association would thus 
encourage additional support to the USFWS-LE to answer this question 
also. Finally, as I indicated earlier, we would be happy to work with 
the bill sponsors and USFWS on a more narrowly focused import-export 
bill that could address some legal deficiencies in CITES that might 
exist now.
    However, the Association believes S. 263 as introduced is both 
unnecessary and inappropriately expansive in its reach to domestic bear 
species, and unnecessarily intrudes into State conservation and 
management prerogatives for wildlife. We therefore cannot support S. 
263 as introduced.
    Let me now turn to S. 659, the Great Lakes Fish and Wildlife 
Conservation Act. In general while the Association can support the bill 
from a perspective that it could facilitate more effective cooperation 
between the Federal, State and tribal entities relative to fisheries 
restoration, we would question whether this legislation is necessary to 
accomplish that objective. Further, we wish to express our interest in 
the use of the authorized money for on-the-ground fisheries 
conservation and restoration efforts, rather than for USFWS facilities 
and administrative infrastructure.
    Mr. Chairman, we certainly recognize the ecological value of the 
Great Lakes and the need for close cooperation among the many 
jurisdictional entities in restoration of this system to its former 
health. Our State fish and wildlife agencies work closely with our 
Federal U.S. and Canadian partners, provincial partners, and tribal 
partners toward this objective. The role of the Great Lakes Commission 
and the Great Lake Fishery Commission have also been instrumental in 
focusing and facilitating coordinated efforts to meeting this objective 
of restored health to the Great Lakes ecosystem. And there is no 
question that we are making significant progress toward that objective. 
However, while we don't want to minimize the importance of 
congressional direction toward this effort as reflected in S. 659, we 
question whether this legislative action is necessary. The FWS already 
has the necessary authority to implement its role in carrying out the 
recommendations of the Great Lakes Fishery Restoration Study, and this 
bill appropriately gives them no additional authority. Whether or not 
the statutory establishment of another committee is necessary to 
consider funding for proposals to implement the study is also subject 
to question. The Association also believes that the FWS can and should 
(if appropriate) increase its budget request to fulfill its role and 
obligations in the Great Lakes fishery efforts regardless of whether S. 
659 is enacted into law. As I mentioned earlier, we are also interested 
in ensuring that any additional authorization under S. 659 is directed 
at on the ground efforts in fishery restoration, and not toward 
furthering USFWS offices, facilities or administrative infrastructure. 
We realize that the Appropriations Committee may be the more germane 
focus of our concerns, but we also wanted you to be aware of these 
concerns. Having said all of this, I can share with you the support of 
the Association for S. 659, but should also let you know that the 
enthusiasm of this support among the eight Great Lakes State fish and 
wildlife agencies varies widely.
    Finally, Mr. Chairman, let me briefly comment on S. 1970, the 
Neotropical Migratory Bird Conservation Act. The Association has long 
played an active role in migratory bird conservation, from the 
negotiation and ratification of the Migratory Bird Treaty in 1916 and 
passage of the MBTA in 1918, to the North American Wetlands 
Conservation Act, currently before this Congress for reauthorization. 
The Association has also given the highest priority to securing the 
necessary funding to enable our State fish and wildlife agencies to 
address the conservation needs of the so-called nongame wildlife 
species (such as Neotropical migratory birds) and their habitats before 
they reach a point where the application of the Endangered Species Act 
is necessary. I know that you are familiar with our ``Teaming with 
Wildlife'' proposal, Mr. Chairman, to accomplish that objective. The 
Association and our member State fish and wildlife agencies are also 
very active in Partners-in-Flight, the Western Hemisphere Shorebird 
Reserve Program, the North American Waterfowl Management Plan, and 
other international endeavors to conserve migratory birds throughout 
their range. The Association therefore supports S. 1970 as another 
measure to facilitate the conservation of migratory birds, particularly 
in Latin America and the Caribbean.
    Most of our member State fish and wildlife agencies participating 
in the North American Waterfowl Management Plan are currently sending 
matching funds to both Canada and Mexico to facilitate the conservation 
objectives of this plan. Our agencies in the border States of 
California, Arizona and Texas are already engaged in conservation 
efforts in Mexico and other Latin American countries to restore 
indigenous fauna. We anticipate that our State fish and wildlife 
agencies would likewise participate in the matching fund protocol that 
S. 1970 would establish for neotropical migratory bird species 
conservation in Latin America and the Caribbean.
    Mr. Chairman, as you are well aware, our habitat conservation 
efforts in the United States encompassing the breeding range of these 
species will be successful only if the habitat in their winter range is 
likewise secured. The Association believes that S. 1970 establishes a 
protocol to facilitate that, and therefore supports this measure.
    Thank you for the opportunity to share the Association's 
perspectives of these bills, and I would be pleased to answer any 
questions.
                                 ______
                                 
     Prepared Statement of Thomas Crane, Program Manager, Resource 
      Management and Environmental Quality, Great Lakes Commission
                              introduction
    On behalf of the eight member States of the Great Lakes Commission, 
I am pleased to speak in support of S. 659, reauthorization of the 
Great Lakes Fish and Wildlife Restoration Act. Passage implementation 
of the original Act provided the Great Lake States--and the entire 
Great Lakes governance infrastructure-with a framework for the 
cooperative conservation, restoration and management of fish and 
wildlife resources. Reauthorization of the Act will ensure that present 
progress is maintained and new initiatives are pursued, including 
implementation of Great Lakes Fishery Resources Restoration Study 
recommendations.
    The Great Lakes Commission embraces the notion of resource 
management by interjurisdictional cooperation and intergovernmental 
partnership. These philosophies are embodied in the Act and, 
consequently, prompted the eight member States of the Great Lakes 
Commission to unanimously endorse S. 659 by formal resolution on April 
3, 1998.
    We in the Great Lakes Basin maintain a tradition of multi-
jurisdictional cooperation that dates back to the early years of the 
20th century. We recognize that the environmental and economic 
significance of this Basin and its resources transcends our own 
political boundaries and spans this Nation, North America and the 
entire globe. These resources, which include the largest system of 
fresh surface water on earth, have a national and global significance 
that demands the interest and support of citizens and members of 
Congress from coast to coast. The Great Lakes system is the world's 
largest freshwater laboratory; it is a bellwether of scientific 
investigation. It is also the world's largest freshwater laboratory for 
institutional experimentation. What we learn here--from both our 
successes and failures--can form the basis of knowledge for future 
actions and management efforts elsewhere.
    We in the Great Lakes Basin have also long recognized the benefits 
of a hydrologic, or watershed-based approach to resource management and 
environmental protection. Transcending the artificiality of political 
boundaries to manage resources and human behaviors on a watershed basis 
is a fundamental requirement of an ecosystem approach to Great Lakes 
management, or to management in any other region of North America and 
beyond.
    In my testimony today, I will briefly describe the purpose and 
programs of the Great Lakes Commission, the ecologic and economic 
significance of the Great Lakes fishery, and the past and projected 
benefits of the Great Lakes Fish and Wildlife Restoration Act. I will 
argue that intergovernmental partnership and, particularly Federal/
State partnership, is perhaps the single most important element of 
resource management efforts in the Great Lakes Basin. I will conclude 
with several specific comments on the legislation.
                       the great lakes commission
    While each of you are undoubtedly acquainted with the purpose and 
programs of the Great Lakes Commission, I do wish to begin my testimony 
with a brief background statement to provide a context for the items 
that follow.
    The Great Lakes Commission is an interstate compact agency with a 
legislative mandate to represent the collective views of the eight 
Great Lakes States before the Congress and the Federal Government. The 
Commission was established in 1955 under State statutes and granted 
congressional consent in 1968 via P.L. 90-419, The Great Lakes Basin 
Compact. The Compact directs the Commission to ``promote the orderly, 
integrated, and comprehensive development, use and conservation of the 
water resources of the Great Lakes basin.''
    The Commission is comprised of Governors' appointees, State 
officials and legislators from its member States (Illinois, Indiana, 
Michigan, Minnesota, New York, Ohio, Pennsylvania and Wisconsin). It is 
supported in part through annual State dues, and stands ready to assist 
and represent its membership on issues and opportunities of shared 
interest. The Great Lakes Commission also maintains a strong and active 
Observer program, which provides for (non-voting) participation by U.S. 
and Canadian Federal agencies, provincial governments, tribal 
authorities, regional organizations and selected other public entities.
    We at the Great Lakes Commission share a resource management 
philosophy that influences every aspect of our work. To summarize, we 
recognize that:
    <bullet> Regional economic development and environmental goals are 
not mutually exclusive. They are inseparable and must be pursued in 
concert to achieve the region's full potential.
    <bullet> The eight Great Lakes States, acting collectively through 
the Great Lakes Commission, have a principal stewardship responsibility 
for the precious and irreplaceable resources of the Great Lakes region.
    <bullet> Management of the Great Lakes is of both national and 
regional interest; it is neither the exclusive responsibility of the 
States nor the Federal Government. Rather, a Federal/State partnership 
must be sustained and nurtured.
    <bullet> The Great Lakes, despite their vastness and resilience, 
are a finite and fragile resource. Maintaining their integrity is a 
sound and necessary investment in the region's economy and environment, 
as well as the health, welfare and quality of life of its citizens.
    The Commission pursues its mandate via three functions: information 
sharing among its member States, coordination of State positions on 
regional issues, and advocacy of those positions on which the States 
agree. A wide range of environmental, resource management, 
transportation and economic development issues is addressed. In so 
doing, the Commission works closely with Governors and State 
legislators; members of the Great Lakes Congressional Delegation; 
municipal, State, provincial and Federal agencies; interstate 
organizations; private sector firms and associations; universities; 
colleges and individual citizens.
    The Great Lakes Commission's role in addressing issues of resource 
management is found in the provisions of the Great Lakes Basin Compact. 
Article VI empowers the Commission to ``Consider means of improving and 
maintaining the fisheries of the Basin or any portion thereof.'' 
Article VII further calls upon the Commission to initiate ``cooperative 
action to eradicate destruction and parasitical forces endangering the 
fisheries, wildlife and other water resources.'' In carrying out its 
responsibilities, the Great Lakes Commission is explicitly charged with 
the responsibility of recommending ``uniform or other laws, ordinances 
and regulations.'' It is under this authority that the Great Lakes 
Commission endorses S. 659, reauthorization of the Great Lakes Fish and 
Wildlife Restoration Act.
          the great lakes fishery and its management framework
    The Great Lakes boast a world-class fishery of fundamental 
importance to the ecological health and economic well being of the 
Basin and its residents. The fishery, valued at more than $4.0 billion 
annually in direct and indirect benefits, supports almost 80,000 jobs. 
On the Great Lakes proper, 3.77 million anglers devote 46.4 million 
angler days to the sport annually. U.S. Fish and Wildlife Service data 
(1985) also indicate that Great Lakes trip expenditures annually 
include $265 million for food, $65 million for lodging, $202 million 
for transportation, $143 million for equipment purchases, and almost 
$27 million for licenses, stamps and permits. Four of the Great Lakes 
States are among the top ten States nationally in resident fishing 
license sales. Statistics for Ontario are equally impressive: in 1985 
almost 2.2 million adults were active anglers, accounting for 34.4 
million fishing days.
    The history of the Great Lakes fishery is a study in sound science, 
innovative management and interjurisdictional cooperation characterized 
by Federal/State/tribal partnership and U.S./Canada collaboration. The 
collaborative management framework if defined and shaped by two 
landmark agreements that transcend the parochialism of individual 
jurisdictions in favor of a Basinwide, ecosystem-based management 
approach. Signed by the governments of the United States and Canada in 
1955, the Convention on Great Lakes Fisheries--and its implementing 
body, the Great Lakes Fishery Commission--are directed at achieving an 
improved and sustainable future for the fishery by establishing and 
coordinating a research program, and by implementing a joint program 
for sea lamprey control.
    Complementing the Convention is the Joint Strategic Plan for 
Management of Great Lakes Fisheries, signed in 1981 (and most recently 
revised in 1997) by State, tribal, provincial and Federal agencies with 
Great Lakes fishery management authority. The Joint Strategic Plan 
enables signatories to coordinate activities and collaborate on joint 
programs and assessment efforts. Noted success in sea lamprey control, 
a revitalized sport fishery and other restoration efforts speak to the 
value of the Joint Strategic Plan.
    Effective implementation of the Joint Strategic Plan demands a 
strong legislative framework at the State, provincial and Federal 
levels. Since 1990, the U.S. Federal Great Lakes Fish and Wildlife 
Restoration Act has played a critically important role in collaborative 
management. Among others, it has vested the U.S. Fish and Wildlife 
Service with the authority and resources to provide technical 
assistance to partners; establish regional offices to promote 
coordination, information dissemination and public awareness; and 
undertake a Great Lakes Fishery Resources Restoration Study yielding 
recommendations for the future of the fishery. Reauthorization of the 
Act will ensure that past investments in the fishery are safeguarded 
and new initiatives are undertaken to build upon those investments.
  comnments on s. 659: a bill to reauthorize the great lakes fish and 
                        wildlife restoration act
    On behalf of its eight member States, the Great Lakes Commission is 
pleased to endorse S. 659, reauthorization of the Great Lakes Fish and 
Wildlife Restoration Act. Endorsement was provided by unanimous action 
on April 3,1998, when the Commission membership adopted its Legislative 
and Appropriations Priorities for the Second Session of the 105th 
Congress.
    Great Lakes Commission support for S. 659 is based upon the 
following four observations:
    <bullet> Management Philosophy Embodied in the Act: The Act both 
reflects and furthers evolving resource management philosophies that 
have been embraced by the Great Lakes Commission. The Act emphasizes 
management by ecosystem as opposed to geo-political boundaries. It 
features interjurisdictional partnerships among Federal, State and 
tribal governments. It builds on existing authorities (e.g., Joint 
Strategic Plan) and existing institutional mechanisms (e.g., Council of 
Lake Committees, Great Lakes Fishery Commission) as opposed to creating 
new bureaucracy. It provides the States and tribal authorities, via the 
Great Lakes Fish and Wildlife Restoration Proposal Review Committee, 
with recommendatory authority over allocation of grant moneys. And, it 
positions the Federal Government to provide services that are well-
suited to inter-governmental partnership: technical assistance, 
coordination, research and financial support.
    <bullet> Accomplishments of the Original Act: The U.S. Fish and 
Wildlife Service is a valued Observer agency within the Great Lakes 
Commission family. In this role, the Service is fully involved in all 
Commission deliberations and actions with the exception of voting--an 
authority that is limited to State members by provision in the Great 
Lakes Basin Compact. A strong U.S. Fish and Wildlife Service/Great 
Lakes Commission partnership has evolved on the strength of the 
original Act. Fishery Resource Offices in Michigan, Wisconsin and New 
York have provided the Great Lakes Commission with a first point of 
contact on fisheries issues that affect the States individually and 
collectively. And, beyond a number of resource-related accomplishments, 
the Act provided for the Great Lakes Fishery Resources Restoration 
Study and its 32 recommendations that warrant serious consideration and 
action.
    <bullet> Prospective Benefits of Study Implementation: The Great 
Lakes Commission concurs with the recommendations of the Great Lakes 
Fishery Resources Restoration Study, and views reauthorization and 
adequate funding of the Act as key to their implementation. Viewed 
collectively, the 32 recommendations are focused on five areas that are 
highly consistent with the management philosophy and associated extant 
policies of the Commission. These include: (1) coordinating and 
harmonizing programs across disciplines and Basin jurisdictions; (2) 
building upon and supporting existing programs and institutional 
arrangements; (3) strengthening the Basin's decision-support system by 
promoting research, monitoring, assessment, evaluation, data base 
enhancement and associated functions; (4) calling for the development, 
funding and implementation of action plans and various new initiatives; 
and (5) promoting public information and education.
    <bullet> Support from the Great Lakes Community: The Great Lakes 
Commission recognizes that the reauthorization bill is supported within 
the Great Lakes community and addresses a number of State concerns with 
the original legislation. A Memorandum of Understanding between the U.S 
Fish and Wildlife Service and the Great Lakes States, Great Lakes 
Fishery Commission and several tribal authorities has helped ensure 
effective implementation of the Act.
    From a broader, Basin-wide perspective, we note that the bill is 
consistent with principles of the Ecosystem Charter for the Great 
Lakes-St. Lawrence Basin. The Charter, a non-binding ``good faith'' 
agreement coordinated by the Great Lakes Commission, presents 
principles, findings and strategic actions to guide the ``ecosystem 
approach'' to Great Lakes management. Approximately 170 agencies and 
organizations--representing government, the private sector, academic 
and citizen interests--have endorsed the Charter to date. Principle V 
of the Charter states the following: ``An ecosystem approach to 
management that involves rehabilitating and protecting ecological 
processes and resources of the Basin Ecosystem shall be fully and 
widely adopted, based on the understanding that human activities, 
natural resources and ecological processes are interdependent and parts 
of a unified whole.'' A reauthorized Act will ensure continued progress 
in addressing this principle.
    With regard to specific provisions in S. 659, the Great Lakes 
Commission endorses the legislative language as presented. In 
particular, we applaud section 6 language that establishes a State/
tribal review committee (under the auspices of the Great Lakes Fishery 
Commission's Council of Lake Committees) that will review and offer 
recommendations to the U.S. Fish and Wildlife Service on fish and 
wildlife restoration proposals based on the results of the study. 
Further, the Great Lakes Commission concurs with changes in the 
reauthorization language that provide for enhanced focus on project 
implementation, and for a reduction in the annual authorization from 
$10 million to $5 million, with $3.5 million of the latter to be made 
available to State and tribal partners. We emphasize, however, that 
appropriation of the authorized amount will be essential if the goals 
of the Act are to be fully realized.
    The Great Lakes Commission emphasizes that reauthorizing the Act--
rather than solely relying on existing U.S. Fish and Wildlife Service 
authorities--is necessary to maintain and enhance progress under the 
original Act. Reauthorization will ensure that (1) recommendations from 
the Great Lakes Fishery Resources Restoration Study will be 
implemented; (2) the existing network of regional offices will be 
maintained; (3) restoration proposals and resultant projects will be 
properly targeted; (4) existing institutional arrangements will be used 
to the extent possible; and (5) authorization levels will be set and 
targeted with an emphasis on project implementation.
                               conclusion
    The Great Lakes Commission, on behalf of its eight member States, 
endorses S. 659, reauthorization of the Great Lakes Fish and Wildlife 
Restoration Act. The Act provides a much-needed vehicle for the U.S. 
Fish and Wildlife Service to provide technical, coordination, research, 
funding and related support to the collective Great Lakes fishery 
management effort. The Act builds upon existing agreements and 
institutional arrangements, provides for a Federal/State/tribal 
partnership, is action oriented, and offers a mechanism for 
implementing recommendations of the Great Lakes Fishery Resources 
Restoration Study. The Great Lakes Commission therefore urges the 
Congress to support the legislation.
                                 ______
                                 
   Prepared Statement of Dan Beard, Senior Vice President of Public 
                    Policy, National Audubon Society
    Mr. Chairman, thank you for the opportunity to provide our views on 
S. 2244, the National Wildlife Refuge System Volunteer And Partnership 
Enhancement Act of 1998. The mission of the National Audubon Society, 
representing more than one million members and supporters nationwide, 
is to conserve and restore natural ecosystems, focusing on birds, other 
wildlife, and their habitats for the benefit of humanity and the 
earth's biological diversity. We appreciate the committee's continuing 
interest in the National Wildlife Refuge System, our Nation's premier 
Federal lands for the conservation of birds and wildlife, and applaud 
Senator Chafee for introducing this important legislation. We believe 
that institutionalizing the value of volunteering and community 
participation in connection with wildlife refuges is a vital step as we 
work to build public appreciation for these special places.
    The National Audubon Society has been an advocate of the Refuge 
System since its inception. When the first refuge was established by 
President Teddy Roosevelt, Audubon stepped in and hired the first 
refuge manager. Nearly 100 years later, we are still proud to support 
these special places. Over the past 15 years, Audubon has worked to 
more formally institutionalize volunteering on refuges first by 
encouraging Audubon Chapters to ``adopt'' refuges and, most recently, 
by initiating the Audubon Refuge Keepers (ARK) program. The ARK program 
seeks to build local support for refuges through volunteering and 
community education. Presently, there are more than 50 ARK groups that 
have formed partnerships with national wildlife refuges. In addition, 
we estimate that approximately 150 Audubon chapters regularly volunteer 
at wildlife refuges throughout the year. Following are several examples 
of how Auduboners are assisting local refuges meet their needs:
    <bullet> Last year, the West Volusia Audubon Society raised $10,000 
to construct a viewing tower on at Lake Woodruff NWR in Florida.
    <bullet> The Anchorage Audubon Society has undertaken a 
collaborative project with the Alaska Maritime NWR to produce a 
brochure on shorebird viewing and protection.
    <bullet> The Altacal Audubon Society conducted a bird-a-thon to 
raise money for the purchase of spotting scopes for the Sacramento NWR. 
These spotting scopes will be available for a variety of uses, 
including assisting schoolchildren in wildlife viewing.
    <bullet> The North Carolina Audubon Council is working on an 
initial project to develop an outreach and strategy plan for the Pee 
Dee Environmental Education Center at Pee Dee NWR.
    <bullet> In Texas, the Travis Audubon Society is working on a 
project to enhance public viewing of the endangered black-capped vireo 
at Blacones Canyonlands NWR, which is recognized as an Important Bird 
Area.
    <bullet> The Monterey Peninsula Audubon Society has prepared bird 
lists, guided wildlife interpretive tours and provided photographs for 
refuge files and publications at Salinas River NWR in California.
    <bullet> The Morro Coast Audubon Society is rehabilitating a fire 
tower for the Hopper Mountain National Wildlife Refuge. The tower will 
be used to monitor the reintroduced California Condor.
    The National Audubon Society is proud to be a leader in providing 
local support for wildlife refuges, but we believe there is a distinct 
need for broader community involvement. In this regard, we applaud the 
U.S. Fish and Wildlife Service, Division of Refuges for its efforts to 
reach a wider constituency as part of their ``Friends Initiatives.'' By 
promoting the establishment of citizen support groups around refuges, 
S. 2244 will enable the Fish and Wildlife Service to harness the 
incredible energy of volunteers and average citizens to protect and 
enhance the Refuge System. Currently, volunteers contribute more than 
1.4 million hours a year to refuges. This translates into well over 
tens of millions of dollars in services to the refuge system. There is 
a vast, untapped source of labor and love for wildlife and the special 
places we call ``refuges.'' In this regard, S. 2244's promotion of 
volunteerism among seniors is a great start toward tapping a 
significant source of volunteers.
    Despite the tremendous value of volunteering and building local 
support for wildlife refuges, National Audubon does not expect 
volunteering to supplant sufficient operations and maintenance (O&M) 
funding for refuges. The system has a current backlog of nearly a 
billion dollars. Nevertheless, increased volunteering on refuges and 
partnering with local communities will have lasting value for refuges. 
In particular, we believe that increased community participation on 
refuges will lead to a greater appreciation for the important role 
refuges play with respect to species and habitat conservation.
    Another important provision of S. 2244 is the simplification of 
procedures by which local groups can make donations to particular 
refuges or refuge complexes. We are aware of several instances where 
local groups have sought to provide money to refuges in their area, but 
have been turned away because of administrative red-tape. We believe 
that fundraising efforts on behalf of local refuges should be promoted 
rather than hindered. S. 2244 resolves this problem and will promote 
increased private fundraising efforts on behalf of refuges.
    We are pleased that education is recognized and promoted in S. 
2244. Audubon chapters have long recognized the value of refuges as 
outdoor classrooms for local schools. In collaboration with the U.S. 
Fish and Wildlife Service and the National Fish and Wildlife 
Foundation, National Audubon is working to expand the ``Earth 
Stewards'' program which will help refuges meet their tremendous 
potential for outdoor education. We are eager to see more teachers and 
students take advantage of the many learning opportunities refuges have 
to offer.
    S. 2244 is an important bill which will do much to promote 
community involvement in our National Wildlife Refuges. We again 
congratulate Senator Chafee and his staff for their hard work on this 
legislation. The National Audubon Society looks forward to working with 
the committee as we move toward building citizen support for our 
National Wildlife Refuges in the coming years.
                                 ______
                                 
 Prepared Statement of David R. Mills, Chairman of the Board of County 
               Commissioners of Sarasota County, Florida
    Mr Chairman, I want to thank you and all the members of the 
committee for giving me the opportunity to offer testimony on the 
status and future of the National Estuary Program in general and the 
Sarasota Bay National Estuary Program in particular.
    Estuaries are very important in both environmental and economic 
terms. They provide habitat for fish, birds and other wildlife. 
Seventy-five percent of the U.S. commercial fish catch depends on 
estuaries during at least some stage of their life. The fishing 
industry provides $111 billion to the Nation's economy annually and 
supports 1.5 million jobs. Because of their beauty and intriguing 
biodiversity, estuaries are also an asset to the Nation's tourism 
industry.
    Ironically, some of the things that make estuaries so precious are 
the very reasons they have become threatened. Due to their natural 
beauty and hence their popularity, the overall capacity of our Nation's 
estuaries as healthy and productive ecosystems is declining. Increased 
land development and activity associated with increased population in 
these areas has, in turn, caused increased stormwater runoff and other 
discharges that contribute to siltation, increased nutrients and other 
contamination.
    In 1987, Congress recognized the threats to these important coastal 
areas and included the National Estuary Program in amendments to the 
Clean Water Act. The purpose of the program is to facilitate State and 
local governments' preparation of comprehensive conservation and 
management plans, or CCMPs, for estuaries covered under the program. To 
date, 28 estuaries have been designated. Section 320 of the Clean Water 
Act authorized the EPA to make grants to States to develop their plans. 
However, the law does not provide for resources to facilitate 
implementation of the plans and 17 of these 28 plans are already 
complete.
    One of the plans that has been completed is for Sarasota Bay in 
Sarasota County, Florida, the county I serve. While each of the 
estuaries in the National Estuary Program is unique in terms of their 
physical attributes and their diverse inhabitants, they are equally 
unique in the varying threats that are posed to them. A common estuary 
pollutant in Sarasota Bay is nitrogen, an overabundance of which causes 
increased growth of algae. The algae reduces light penetration to the 
other organisms in the water and, through chemical and biological 
processes, depletes the water of oxygen. It has been determined that 
the amount of nitrogen in Sarasota Bay has tripled since intensive 
development began. The source of the increased levels of nitrogen in 
the Bay has been both small and large wastewater treatment plants, 
groundwater contaminated by septic systems and fertilizers used in lawn 
care and agriculture. Without remedial action, the EPA claims that the 
nitrogen level would increase 16 percent in the next 20 years when the 
area is fully developed according to existing plans. However, by 
implementing the restoration plan for Sarasota Bay, these levels of 
nitrogen can be 23 percent lower than they are today.
    In addition to the introduction of nitrogen into estuaries, 
surrounding development has also introduced an array of viruses, 
bacteria and parasites that can pose a threat to swimmers, surfers, 
divers and seafood consumers. Sources of these microbial contaminants 
include leaky septic tanks, boat and marina waste, recreational 
vehicles and campers, animal droppings, combined sewer overflows and 
urban and agricultural runoff. Fish and filter feeding organisms such 
as shellfish can concentrate these pathogens in their tissues and can 
cause illness to people who consume them. As a result, shellfishing 
areas and bathing beaches are often closed. Several estuaries are 
experiencing contamination problems that require extensive research 
into their origins and effects, such as the toxic microbe Pfiesteria 
piscicida, which has broken out in rivers that drain into estuaries in 
Maryland and Virginia.
    Phillippi Creek, which feeds into Sarasota Bay, is posted with 
warning signs of the potential health risks associated with exposure to 
its waters. Scientific studies done on Phillippi Creek have shown the 
presence of fecal coliform and human viruses. There are 7,500 septic 
tanks along Phillippi Creek that will have to be replaced with a 
central wastewater treatment system in accord with the proposed plan at 
a cost of some $100 million.
    The plan that has been developed for the Sarasota Bay Estuary is an 
integral one that seeks to stem environmental impacts and enhance 
natural systems. Most past environmental regulatory efforts in Florida 
have concentrated on the larger, regional wastewater treatment plants. 
While these programs have been successful in reducing nitrogen loads 
from those facilities, the 45,000 septic tanks and the 55 small 
wastewater treatment plants in the Sarasota County area contribute 
nearly twice as much pollutant as the regional facilities, despite 
handling less than half of the volume. Since the focus has not 
historically been on septic tanks and smaller facilities, that is where 
the biggest problem lies, especially for Sarasota Bay. The Sarasota Bay 
NEP's overall recommendation for this problem is the aforementioned 
replacement of a significant number of these tanks with a central 
wastewater treatment system along Phillippi Creek as well as other 
small treatment plants.
    Additionally, the Sarasota Bay CCMP calls for revised regulation of 
septic tanks and small wastewater treatment plants, programs to reduce 
the use of fertilizers and pesticides in the area, using artificial 
reefs as fisheries to replenish marine populations and restoring the 
intertidal wetlands. Effectively managed recreational use of the Bay is 
also recommended, as it will foster a sense of stewardship for the 
estuary with both tourists and residents alike.
    S. 1321 will take the next step by giving EPA the authority to make 
grants for plan implementation and authorizing annual appropriations of 
$50 million. There is also language in this bill that emphasizes and 
insures that the program remain a partnership with a matching 
requirement so that the funds will be available to upgrade sewage 
treatment plants, fix combined sewer overflows, control urban 
stormwater discharges and reduce polluted runoff into estuarine areas. 
We in Sarasota are committed to this partnership. Last November, a 1 
percent sales tax levy was passed to generate funds and we already have 
preliminary engineering work underway for this project. In other words, 
we come to Washington ready, willing and able to shoulder our share of 
the partnership envisioned by S. 1321.
    In closing, Mr. Chairman, I respectfully request your assistance 
and that of all the members of this committee to ensure the 
preservation of our Nation's estuarine areas not only as a natural 
wonder, but also as an environmental and economic asset to the regions 
in which they exist. Thank you again for the opportunity to submit our 
views on this important issue.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
  

                                <all>

</pre></body></html>
